<html>
<title> - ADDRESSING THE NEED FOR VICTIM SERVICES IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 114-81]
[From the U.S. Government Publishing Office]








                                                         S. Hrg. 114-81

       ADDRESSING THE NEED FOR VICTIM SERVICES IN INDIAN COUNTRY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2015

                               __________

         Printed for the use of the Committee on Indian Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                        U.S. GOVERNMENT PUBLISHING OFFICE 

96-925 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          




                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 10, 2015....................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Crapo.......................................     3
Statement of Senator Daines......................................    28
Statement of Senator Franken.....................................    30
Statement of Senator Heitkamp....................................     4
Statement of Senator Hoeven......................................    25
Statement of Senator Lankford....................................    31
Statement of Senator Murkowski...................................    25
Statement of Senator Tester......................................     2

                               Witnesses

Cruzan, Darren, Director, Office of Justice Services, Bureau of 
  Indian Affairs, U.S. Department of the Interior................     5
    Prepared statement...........................................     6
Harrold, Hon. Dianne Barker, Tribal Court Judge, Pawnee Nation of 
  Oklahoma; Member, Cherokee Nation Victim Task Force............    13
    Prepared statement...........................................    16
Godfrey, Gerad, Chair, Violent Crimes Compensation Board; Senior 
  Advisor, Rural Business and Intergovernmental Affairs, Office 
  of the Governor, State of Alaska...............................    18
    Prepared statement...........................................    21
Stafne, Hon. A.T. ``Rusty'', Chairman, Fort Peck Assiniboine and 
  Sioux Tribes...................................................     8
    Prepared statement...........................................    10

                                Appendix

Aceveda, Jr., Hon. Casimero, President, Organized Village of 
  Kake, prepared statement.......................................    68
Frost, Joye E., Director, Office for Victims of Crime, U.S. 
  Department of Justice, prepared statement......................    46
Flower, Ruth; Hannah Evans, Friends Committee on National 
  Legislation, joint prepared statement..........................    83
Gardner, Jerry, Executive Director, Tribal Law and Policy 
  Institute, letter..............................................    84
Ivan, Hon. Ivan, M. Chief, Akiak Native Community, prepared 
  statement......................................................    81
Jerue, Hon. Carl, Chief, Anvik Tribal Council, prepared statement    70
LaPointe, Hon. Darla, Chairwoman, Winnebago Tribal Council, 
  prepared statement.............................................    45
National Congress of American Indians (NCAI), prepared statement.    63
O'Leary, Carmen, Director, Native Women's Society of the Great 
  Plains, prepared statement.....................................    53
Omish-Guachena, Germaine, Executive Director, Strong Hearted 
  Native Women's Coalition, Inc., prepared statement.............    60
Pete, Darlene M., Tribal Administrator, Native Village of Nunam 
  Iqua, prepared statement.......................................    72
Rodriguez, Hon. Thomas, Chairman, La Jolla Band of Luiseno 
  Indians, prepared statement....................................    51
Root, Jane, Executive Director, Wabanaki Women's Coalition.......    58
Sam, Hon. Michael, Chief, Native Village of Tetlin, prepared 
  statement......................................................    55
Sheldon, Jr., Hon. Melvin R., Chairman, Tulalip Tribes of 
  Washington, prepared statement.................................    75
Starbard, Robert, Tribal Administrator/CEO, Hoonah Indian 
  Association, prepared statement................................    49

 
       ADDRESSING THE NEED FOR VICTIM SERVICES IN INDIAN COUNTRY

                              ----------                              


                        WEDNESDAY, JUNE 10, 2015


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. I would now like to call to order the meeting 
of the Indian Affairs Committee and ask the witnesses to please 
come forward.
    Today the Committee's hearing is on Addressing the Need for 
Victim Services in Indian Country. This Committee has examined 
crime and justice in Indian communities for several years and I 
have made criminal justice a priority as chairman.
    Federal data shows that Indian communities face some of the 
highest victimization rates in the Country. Native youth 
experience violent crime rates up to ten times the national 
rate. Violence is pervasive and tied to 75 percent of deaths 
among American Indian and Alaska Natives between the ages of 12 
and 20.
    American Indian women are murdered at a rate of more than 
ten times the national average on some reservations. It is 
clear that tribes lack the resources and capacity to provide 
basic services to victims of crime on their lands.
    The primary source of victim assistance funding is the 
Crime Victims Fund. Unfortunately, the way this fund is 
currently administered, it is not working for Native victims of 
crime. Under the current system, only a portion of this money 
reaches the States, and far less ever reaches Indian Country. 
Instead of accessing victim assistance and compensation grants 
directly from the Crime Victims Fund like other States and 
territories, tribes must apply to the States for these 
resources.
    Despite the exceedingly high crime rates and great need for 
victim services in Indian Country, over the last five years, 
tribes have never received more than 0.7 percent of the Crime 
Victims Fund available for victim assistance. We will hear 
today that one of the underlying problems is that most tribes 
lag far behind the rest of the Nation when it comes to baseline 
crime victim infrastructure and capacity.
    For example, most tribe do not have emergency shelters for 
crime victims. Most tribes do not have facilities or personnel 
for the delivery of critical services, such as medical care and 
counseling. Most tribes cannot provide temporary or 
transitional housing, even when the perpetrators live in the 
same home as the victim. This gap must be addressed as it 
severely limits tribes' ability to deliver even the most basic 
crime victim services and in turn limits opportunities to 
restore safety and security to Native communities.
    We must expand tribal access to resources for crime victim 
services, improve the way these Federal dollars are 
administered and ensure that tribes have the flexibility to 
develop programs that meet the needs of their respective 
communities.
    So I look forward to hearing from our witnesses today on 
how to best accomplish these goals. I will be releasing a plan 
in the near future to change the status quo for Native victims 
of crime.
    Before we hear from the witnesses present today, I want to 
recognize the Vice Chairman for an opening statement.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Chairman Barrasso. I appreciate 
your holding this important hearing on Addressing the Need for 
Victim Services in Indian Country.
    Study after study shows that crime has devastating impacts 
on its victims. Often those effects are not the easiest topics 
to discuss.
    For the witnesses who we have here today, I know that this 
is not a topic that any of you would like to dwell on either. 
Yet crime is a reality in far too many communities and far too 
many homes in Indian Country. Each of the witnesses here today 
have been touched by this issue in very personal ways. And each 
of you works very hard every day to help curb violence, be it 
suicide, domestic violence or drug or alcohol abuse.
    I just want to say how much I appreciate the work that you 
do, and I appreciate your coming here today to share your 
knowledge and your experience with us. I would just like to 
say, we talk about issues a lot. Hopefully we can stop talking 
about this issue and start addressing it.
    I want to extend a personal welcome to Chairman Rusty 
Stafne of the Fort Peck Assiniboine and Sioux Tribes in my home 
State of Montana. The Fort Peck Reservation is located in the 
northeast corner of our State and lies within the boundaries of 
one of the highest growing crime regions in the Country. Let me 
say that again: it lies within the boundaries of one of the 
highest growing crime regions in the Country. That region is 
known as the Bakken.
    This past August, I held a listening session focusing on 
the human trafficking in the Bakken region. We have heard 
first-hand how this unprecedented economic opportunity has 
brought increased population, increased traffic and 
unfortunately, increased crime into this very rural part of our 
Country.
    Chairman Stafne certainly knows better than most how all of 
this translates into an uptick in crime and violence in his 
community. Fort Peck has been a leader in addressing issues of 
violent crime on their reservation. As Chairman Stafne will 
discuss in his testimony, they were one of the first tribes in 
the Country to cross-deputize local, State and tribal law 
enforcement.
    They also showed leadership in working directly with the 
National Native Children's Trauma Center out of the University 
of Montana in order to address the high instances of suicide 
and attempted suicide of Native youth in their community. 
Additionally, they were one of the first tribes to be selected 
as a pilot project site under the Violence Against Women 
Reauthorization Act of 2013.
    Yet, there is much more to do. The tribe estimates that 
they have only 50 percent of the police force necessary to 
police their vast reservation. The resources that do exist are 
often fleeting and are anchored on temporary grant funding that 
prohibits stability or growth. I am certain this lack of 
consistent and dependable funding is a problem for all tribes, 
not just for those in Montana.
    In recent years we have made some gains with the passage of 
the Tribal Law and Order Act, and more recently by 
strengthening tribal authority under the Violence Against Women 
Act. But we still need to do more in helping our tribal nations 
combat crime in their communities.
    Our Committee will continue to work to secure resources 
from law enforcement and victim services in Indian Country. One 
such proposal I would like to thank our Chairman for working on 
would create a set-aside in funding, specifically for Indian 
Country out of the Crime Victims Fund created by the Victims of 
Crime Act. I think that this set-aside is an important step in 
creating safer communities in Indian Country. I will work with 
my colleagues to ensure this legislation represents the views 
of Indian Country, including those we are going to hear from 
here today.
    Again, I want to thank everyone on the ground who works 
every day to improve the lives of our Native Americans and 
Native American children throughout Indian Country. I look 
forward to the testimony today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Vice Chairman Tester.
    Would any other members like to make an opening statement? 
Senator Crapo.

                 STATEMENT OF HON. MIKE CRAPO, 
                    U.S. SENATOR FROM IDAHO

    Senator Crapo. Yes, Mr. Chairman, just briefly. Thank you 
for holding this important oversight hearing today. Among the 
critical issues facing Indian Country at the present time, 
criminal activity and victimization with tribal lands ranks as 
a top concern.
    We are all aware of the influence of the Victims of Crime 
Act and the Violence Against Women Act, and I appreciate the 
efforts of the Chairman and Ranking Member to help us focus 
even more effectively on Indian land. It is the task of this 
Committee to ensure that Federal policies that are aimed at 
rectifying the problem are serving their intended purposes. We 
have all seen the data and know that Native American 
communities are disproportionately represented in crime and 
abuse when compared to the broader U.S. population. We must 
continue to seek ways in which they can be improved.
    The Victims of Crime Act is one tool that Congress has 
adopted to help provide relief services and assistance. 
However, we know that a lack of parity presently exists 
regarding the share of the Crime Victims Fund going to tribal 
communities.
    I look forward to hearing from today's witnesses and know 
that their feedback will help guide our efforts in addressing 
this discrepancy. Once again, Mr. Chairman, thank you for 
holding this hearing. I look forward to hearing from our 
witnesses.
    The Chairman. Thank you, Senator Crapo.
    Would anyone else like to make an opening statement? 
Senator Heitkamp.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman and Vice Chairman 
Tester for holding what I think is an absolutely critically 
important hearing today. As you know, North Dakota is home to 
five tribal reservations that are located almost exclusively in 
rural areas, which makes it really difficult to provide 
critical services.
    I will tell you, I just was at a hearing where they talked 
about kids driving around Indian Country holding up a cell 
phone so that they could transmit electronically their papers 
to UND so they could be graded. Think about if that person was 
a victim of crime and they had no way to dial 911.
    I can tell you, as a former attorney general, a huge gap in 
our collective services to protect people in my State comes as 
a result of a lack of official law enforcement on the 
reservations where they have major crime responsibilities. So 
this is an issue that we have all worked hard on, whether you 
are in Fort Peck or whether you are in Fort Berthold, as 
Senator Hoeven and I have experienced, these problems cross the 
reservation. We want them fixed, and we want victim services to 
be made available to all the victims of North Dakota, so that 
no one gets left behind.
    So thank you so much for holding this hearing. We look 
forward to ongoing discussions about how we can improve victim 
services, but also law enforcement services in Indian Country 
and my State of North Dakota.
    The Chairman. Thank you, Senator Heitkamp.
    Any other members who wish to make an opening statement? If 
not, today we will be hearing from Director Darren Cruzan from 
the Office of Justice Services, Bureau of Indian Affairs. We 
will be hearing from, as introduced by Senator Tester, Chairman 
Rusty Stafne. Also Judge Dianne Barker Harrold from the Pawnee 
Nation of Oklahoma and Mr. Gerad Godfrey, who is the Chair of 
the Violent Crimes Compensation, Office of the Governor, from 
the State of Alaska.
    Welcome, all of you. I want to remind each of the witnesses 
that your full written testimony will be made a part of the 
official hearing record. So please keep your statements to five 
minutes, so that we may have time for questions.
    I look forward to hearing your testimony, beginning with 
Director Cruzan.

        STATEMENT OF DARREN CRUZAN, DIRECTOR, OFFICE OF 
       JUSTICE SERVICES, BUREAU OF INDIAN AFFAIRS, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Cruzan. Chairman Barrasso, Vice Chairman Tester and the 
rest of the Committee, I want to thank you for allowing me to 
come and testify on this as has been said, very important 
issue.
    I think crime in Indian Country, as you have all mentioned, 
is well documented. I don't need to convince you, you know that 
as well as I do, if not better.
    I think that the exciting part of this conversation is what 
we could possibly do for these crime victims. Similar to what 
we did with our high priority performance initiative, but I 
think it is important for us to have the discussion and the 
understanding that the crimes that we are seeing in Indian 
Country are heinous.
    And when we did our high priority performance initiative, 
we saw, because of the added resources that were put out there, 
a greater than 50 percent increase in violent crime in the 
first 12 months. That was not because more violent crime was 
being committed, it was because the community members saw that 
something was being done, there was more violent crime being 
reported.
    I believe that we would see a similar increase in the 
number of violent crimes. There are virtually, I say virtually, 
for the vast majority of Indian Country, there are not the 
resources out there that are needed. These victims and their 
families, the survivors, are suffering because of it.
    And it is a very simple thing, from initial response where 
there is emergency housing needed or there is transportation to 
get a rape kit done, all the way to the judicial process where 
hopefully ultimately the suspects in these violent offenses 
would be held accountable for their actions.
    Far too many times in Indian Country, what we have are 
these victims that don't show up to court because they don't 
understand the system, they don't even have a way to get to 
these types of hearings.
    So this is absolutely, as Senator Heitkamp said, an 
absolutely critically important conversation to be having. Just 
to give you a little bit of perspective of the Bureau of Indian 
Affairs and how we operate currently with our victims program, 
we, through a partnership with DOJ and specifically Office of 
Victims of Crime, we are able to receive funding, sort of 
similarly to how our tribal partners do, as seed money to 
initially hire these victim specialists who are the touch point 
for the victims and respond to the crime scenes and provide 
services.
    We currently have ten for the BIA that serve in many 
locations. That is the total number that we have that are 
actually out there providing the services specifically to the 
BIA.
    In 2014, these ten victim specialists had a combined total 
of 2,100 victims that they provided services to. That is a 
staggering number when you think of it as a whole number. But 
if you think about everything that goes into providing those 
services, there was over 16,000 services provided.
    So it is, as I said, the rides to the hospital, it is the 
emergency services provided and maybe diapers to the family, 
those types of services that are being provided. That is 210 
cases a year that each one of these victim specialists are 
providing.
    They are in remote locations. They may be servicing four or 
five or more tribes with hundreds of miles distance in between 
them, responding 24 hours a day. Very, very difficult thing to 
do.
    I think it is the lack of adequate sustainable funds that 
is the biggest concern for us. I do believe that we could have 
a significant impact if the resources were out there, us and 
our tribal partners, in providing services. I absolutely agree 
with what I heard today. It is equity that we are looking for, 
it is the ability for these victims who are suffering greatly 
to receive the services and hopefully heal from it.
    I know there is another hearing, and I have 37 seconds 
here, I know there is another hearing coming up regarding 
suicide. I think there is a direct correlation between 
victimization and services or lack of services being provided.
    I am happy to be here with this panel and I look forward to 
the questions.
    [The prepared statement of Mr. Cruzan follows:]

   Prepared Statement of Darren Cruzan, Director, Office of Justice 
  Services, Bureau of Indian Affairs, U.S. Department of the Interior
    Good afternoon, Chairman Barrasso, Vice Chairman Tester, and 
members of the Committee. Thank you for the opportunity to provide a 
statement on behalf of the Department of the Interior, Bureau of Indian 
Affairs, on the topic of ``Addressing the Need for Victim Services in 
Indian Country. I would like to take a moment to congratulate the 
Committee and members of Congress on taking unprecedented action that 
increased the cap on the Crime Victims Fund, a catalyst to improve and 
expand the Nation's capacity to effectively respond to the needs of all 
crime victims.
    We at the Bureau of Indian Affairs share the commitment to meet the 
needs of crime victims in American Indian and Alaska Native communities 
and we also aim to decrease barriers faced by AI/AN communities to 
access programs and services critical to meeting the needs of crime 
victims.
    The Department also appreciates and would like to thank the Office 
for Victims of Crime (OVC) at Department of Justice for its continued 
support. Since 2010 OVC has provided approximately $2.9 million in seed 
money to support BIA Victim Specialist positions in New Mexico, 
Montana, Arizona, and South Dakota. In FY 2015, OVC will be providing 
BIA an additional $832,000 for training and technical assistance 
including efforts focused on Pine Ridge and the Bakken region.
State of Indian Country
    AI/AN communities make up approximately 1.7 percent of the Nation's 
population, but suffer some of the highest rates of violent crime, 
shorter life expectancy, higher rates of suicide, and have the least 
amount of consistent resources available on a continuum of care that 
one can expect in most rural and urban settings.
    While there is a severe lack of data on crime and victimization in 
AI/AN communities, it is well documented that AI/AN communities 
experience higher rates of violence than the general population.
    AI/AN women experience the highest rates of sexual assault and 
domestic violence in the nation. \1\ Native youth between the ages of 
12 and 19 are more likely than non-Native youth to be the victim of 
either serious violent crime or simple assault; \2\ and suicide is the 
second leading cause of death for our Native youth aged 15 to 24. \3\ 
Just in the last ninety (90) days, BIA Law Enforcement alone responded 
to eighty-eight (88) suicide attempts, with six (6) of those being 
successful attempts, accounting for almost one (1) suicide attempt per 
day. AI/AN children suffer post-traumatic stress disorder at the same 
rate as veterans returning from Iraq and Afghanistan, and triple the 
rate of the general population. \4\
---------------------------------------------------------------------------
    \1\ www.BJS.gov.
    \2\ Indian Law and Order Commission Report, Chapter 6 Juvenile 
Justice: Failing the Next Generation, November 2013.
    \3\ Substance Abuse and Mental Health Services Administration 
(SAMHSA), National Survey on Drug Use and Health, 2003.
    \4\ Attorney General's Advisory Committee on American Indian/Alaska 
Native Children Exposed to Violence Report: Ending Violence so Children 
Can Thrive, Final Report, November 2014.
---------------------------------------------------------------------------
    Forty percent of the federally-recognized tribes in the United 
States are in Alaska. Alaska Natives represent one-fifth of the total 
State population. \5\ The demographics for Alaska Native villages are 
vastly different than most American Indian tribal communities in the 
Lower 48.
    Public safety concerns over limited resources are severe across 
Indian Country, but disproportionately so in Alaska Native Villages. 
The rate of sexual violence victimization among Alaska Native Women was 
at least seven times the non-native rate. \5\ On average, in 2003-2004 
an Alaska Native female became a victim of reported sexual assault or 
of child sexual abuse every 29.8 hours. The isolation of villages and 
the inability to easily access tribal communities further create 
vulnerabilities of re-victimization for Alaska Natives. \5\
---------------------------------------------------------------------------
    \5\ Indian Law and Order Commission Report, Chapter 2 Reforming 
Justice for Alaska Natives: The Time is Now, November 2013.
---------------------------------------------------------------------------
    Given the national rates of crime victimization in American Indian 
and Alaska Native communities, it is necessary to address the resource 
parity for tribal nations. The Victims of Crime Act and the Crime 
Victims Fund is the largest source of federal funding for crime 
victims. While states and territories receive an annual formula based 
on funding from the Victims of Crimes Act (VOCA) fund, tribes do not. 
The BIA supports a tribal set-aside for Indian tribes to establish and 
strengthen victim service programs for crime victims in AI/AN 
communities.
    In Fiscal Year 2014, $730 million was distributed from the Crime 
Victims Fund, and approximately $6.1 million reached tribes through 
tribal specific discretionary grant programs.
    While these efforts are commendable, the level of funding 
distributed specifically for Tribes for AI/AN communities is less than 
1 percent of the VOCA funds distributed each year. There is much more 
work to do to meet the critical needs of crime victims in Indian 
Country.
Unmet Needs faced by Tribes for AI/AN Communities
    Designated funding specifically for Tribes for AI/AN communities 
would establish and/or strengthen justice for crime victims and meet 
some of the most critical and basic unmet needs in AI/AN communities. 
Crime victims in AI/AN communities have need for a wide range of 
services that are culturally appropriate and tribal specific. The 
proposed tribal set aside would allow Indian tribes to provide the 
following:

  <bullet> Comprehensive community based programs to provide direct and 
        immediate assistance to victims to include culturally 
        appropriate crisis response and intervention, victim advocacy, 
        financial assistance for emergency needs such as food and 
        clothing, transportation, court accompaniment, and safe homes 
        or shelters;

  <bullet> Holistic services for abused and neglected children and 
        children exposed to violence, such as Trauma Informed Care 
        Centers and Child Advocacy Centers;

  <bullet> Legal and criminal justice advocacy, such as initiatives to 
        support local task forces and multi-disciplinary teams to 
        improve child abuse investigations and prosecutions, forensic 
        interviewing, and developing culturally specific models such as 
        Sexual Assault Forensic Examination Support, Training, Access 
        and Resources (SAFESTAR), to provide community based responses 
        to sexual assault victims;

  <bullet> Additional staffing for BIA Victim Specialist to serve all 
        26 BIA operated Law Enforcement Programs, and to expand the 
        program to fund Tribal Victim Specialist positions to assist 
        crime victims both in federal and tribal criminal justice 
        systems. Tribes should be able to sustain not only human 
        resources, but develop and enhance or expand current programs 
        and services for the immediate needs of crime victims;

  <bullet> Professional Development and Peer Mentoring across the 
        Nation and regions to support advancement of tribal Victim 
        Services (VS) programs, to identify and support new Promising 
        Practices, to develop and expand Program Policies and 
        Procedures, and to provide administrative and financial 
        oversight of designated tribal VOCA programs; and

  <bullet> Expanded National Data Statistics, Collection, and Research 
        and Development Programs for Indian tribes.

    Tribal leaders and tribal organizations have advocated year after 
year on the need for change in the way tribes access funding to support 
sustainable victim service programs. Competitive discretionary grant 
programs are limited in capacity to provide sustainable victims 
services and resources for American Indian and Alaska Native 
communities. Due to the lack of adequate resources within tribal 
communities, once funding is unavailable, victim service programs lose 
continuity and often victims distrust the help that is available.
Conclusion
    Tribes possess the ability to identify and understand the range of 
issues in their tribal communities; they are also closest to and 
understand what approaches are suitable and have the potential to 
create positive change. We must listen to the wisdom of Tribal Leaders 
and acknowledge our responsibility to provide Indian tribes adequate 
funding much like that afforded to states and territories. Tribes 
should be able to sustain not only human resources, but also develop or 
expand current programs and services for the immediate needs of crime 
victims.
    The Bureau of Indian Affairs has the advantage of working alongside 
tribes and understands firsthand the severity of the lack of resources 
in Indian Country and the impact it has on tribal communities. A tribal 
set-aside for Indian tribes to establish and strengthen victim service 
programs for crime victims in AI/AN communities would help address this 
critical need.

    The Chairman. Thank you, Mr. Director.
    Chairman Stafne?

 STATEMENT OF HON. A.T. ``RUSTY'' STAFNE, CHAIRMAN, FORT PECK 
                  ASSINIBOINE AND SIOUX TRIBES

    Mr. Stafne. Chairman Barrasso, Vice Chair Tester and 
Committee, I am A.T. Stafne. I am chairman of the Assiniboine 
and Sioux Tribes of the Fort Peck Reservation.
    I would like to thank the Committee for inviting me to 
testify. I would like to share with you the considerable need 
for services for victims in Indian Country.
    We face serious problems at Fort Peck. Our people continue 
to suffer from very high rates of poverty, high rates of 
homelessness and high rates of alcohol and drug abuse. All 
these are leading indicators of violence in the community. 
Unfortunately, violence is very prevalent at Fort Peck.
    For example, in 2011 violent crime on the reservation was 
five times higher than the rest of Montana and almost three 
times higher than the rest of the United States. Roosevelt 
County, which covers most of our reservation, still has the 
highest rate of violent crime in Montana.
    Domestic violence is a big part of the crime we must 
address. At Fort Peck, during one year from October 1, 2013 to 
September 30, 2014, our 911 call center received 718 reports of 
domestic violence. This means that almost twice a day, every 
day, our law enforcement officers are responding to a domestic 
violence call.
    The rate of violent crime has serious consequences for our 
entire community. But what is most urgent for us is the impact 
that it has on our children. Violence accounts for 75 percent 
of the deaths of Indian children between the ages of 12 and 20. 
Twenty-two percent of Indian children suffer PTSD because they 
are exposed to violence.
    In 2010, we had six students commit suicide and 20 more who 
attempted suicide. During that suicide epidemic, school 
officials reported that more than 30 percent of the middle 
school children tested positive for sexually transmitted 
diseases. At least 20 percent drank alcohol on a weekly basis.
    These are children between the ages of 11 and 13. That is 
why I am here. We have to do more for our children. We have to 
find a way that we can help these children heal.
    The Fort Peck tribes have taken a number of important steps 
to try and address the needs of the victims. For more than 40 
years, we have had an independent court system. Our courts now 
have law-trained judges, law-trained prosecutors and law-
trained public defenders. We also have probation officers and 
experienced court clerks.
    Our tribal code and court opinions are published and 
available to the public. Our courts are supported largely by 
tribal funds. Because we want to combat domestic violence with 
every tool possible, we took steps to implement VAWA. We now 
exercise jurisdiction to prosecute non-Indian defendants who 
commit domestic violence on our reservation.
    In addition, 30 years ago, we established the Tribes' 
Family Violence Resource Center. This Center is a primary 
resource for victims on our reservation. The Center provides 
crisis response and emergency services on a 24-hour basis to 
victims of crime and abuse. The Center helps victims with court 
proceedings and in finding shelter. It arranges medical care 
and provides counseling.
    The Center works closely with police in responding to 911 
calls. The Center provides services to any victim in need, 
whether the victim is female or male, Indian or non-Indian, 
adult or child. Most of the Center's work is done by 
volunteers.
    The demand for services for victims at Fort Peck is 
staggering. In 2012, the Center provided service to 1,237 
victims, both children and adults. In 2013, the Center provided 
services to 708 victims. In 2014, the Center served 886 
victims. In short, over this three-year period, the Center was 
addressing an average of 79 victims per month.
    This Center receives some support through the Justice 
Department's VAWA funding. We were also fortunate to receive 
some funding from the Justice Department's special Bakken 
Initiative grant last year. We are one of the few tribes to 
recently be awarded a discretionary competitive from the 
Justice Department's Office for Victims of Crime.
    But apart from this recent grant, the tribe and our members 
have no assistance from the Crime Victim Fund. We need more 
help in order to serve victims in our community. Every year, 
the States receive a direct set-aside funding from the Federal 
Crime Victim Fund. In contrast, tribes must compete for grants. 
Only a few grants are awarded to a few tribes each year. And 
when the grant ends, the tribe must search for other funds to 
replace it.
    Tribes need a consistent source of funds, so we can 
effectively run these victim assistance programs. Because of 
the need in Indian Country, we ask that Congress establish a 10 
percent set-aside of the Crime Victim Fund for tribes. This 
request is supported by the Attorney Generals' Task Force on 
American Indian and Alaska Native Children Exposed to Violence. 
The Justice Department Office of Victims of Crime also 
recommended an increase in resources to tribal communities.
    Although Fort Peck is dealing with some of the highest 
rates of violence in all of Montana, we have pulled and 
stretched together programs to help victims of violence. But it 
is extremely difficult to make the pieces fit together. We rely 
heavily on volunteers and short-term discretionary funds.
    Our tribes have the capacity to address the problems. But 
our needs for victim services are overwhelming. That is why it 
is so important to create a more reliable set-aside for Indian 
Country.
    In conclusion, I want to thank this Committee for holding 
this hearing on this very important matter.
    [The prepared statement of Mr. Stafne follows:]

 Prepared Statement of Hon. A.T. ``Rusty'' Stafne, Chairman, Fort Peck 
                      Assiniboine and Sioux Tribes
    I am A.T. Stafne, Chairman of the Assiniboine and Sioux Tribes of 
the Fort Peck Reservation. I would like to thank the Committee for the 
invitation to testify, and share with you the considerable need for 
victim services in Indian country.
    The Fort Peck Reservation is in northeast Montana, forty miles west 
of the North Dakota border, and fifty miles south of the Canadian 
border, with the Missouri River defining its southern border. The 
Reservation encompasses over two million acres of land. We have 
approximately 12,000 enrolled tribal members, with approximately 7,000 
tribal members living on the Reservation. We have a total Reservation 
population of approximately 11,000 people.
The Considerable Need for Victim Services at Fort Peck
    Nearly half of the people living on the Reservation are below the 
federal poverty level. Recent U.S. Housing and Urban Development (HUD) 
data shows that nearly 1,600 Indian families residing on our 
Reservation have household incomes that range from less than 30 percent 
of the Median Family Income to 80 percent of the Median Family Income. 
Homelessness is in excess of 10 percent. Further, Roosevelt County, 
where most of our Reservation is located, has the poorest health in the 
State of Montana. The bad health status is likely due to the rampant 
alcohol and drug abuse on the Reservation. Studies on the prevalence of 
violence in a community identify poverty, alcohol and drug abuse, and 
homelessness as the leading contributing factors to violence. Thus, it 
is no surprise that violence is so prevalent in our community.
    The Fort Peck Tribes have provided law enforcement and correction 
services on our Reservation since 1996 under an Indian Self-
Determination Act contract. We are also one of the first Indian tribes 
in the United States to enter into a cross-deputization agreement with 
state, county and city law enforcement agencies. Under this agreement, 
first ratified nearly fifteen years ago, tribal officers are deputized 
to enforce state and local law on the Reservation and state and local 
officers are authorized to enforce tribal law. Today, our law 
enforcement department consists of 18 police officers and 3 criminal 
investigators. This is approximately 50 percent of what is necessary to 
properly police a territory and population as large as our Reservation.
    The violent crime rate on the Reservation in 2011 was five times 
higher than the rest of Montana and almost three times higher than the 
rest of the United States. Of the violent crime reported on the 
Reservation, almost 40 percent involved alcohol or drugs. We have also 
had to confront the plague of suicide that is devastating to far too 
many native communities. In 2010, we had six students commit suicide 
and twenty more who attempted suicide. There is nothing that tears at 
the fabric of a community more than when a child takes her own life.
    While these numbers are staggering, they are far better than what 
they were in 1995 when the Tribes assumed control of the law 
enforcement services. At that time, the murder rate on the Fort Peck 
Reservation was twice that of New Orleans. Thus, while we have much 
work to do, I want to acknowledge that our law enforcement officers, 
tribal court and service providers have done a tremendous job in trying 
to keep our community safe for the last twenty years.
    Unfortunately, we are again experiencing a significant rise in 
violent crime. We attribute the rise in crime to the rapid development 
of the Bakken oil fields to our east and increased drug use, in 
particular, heroin and methamphetamine.
    In recent data summarized in the Montana newspapers, which ranked 
the level of violence within each county in the state, Roosevelt County 
ranked number one, the highest in violence, with Sheridan County 
ranking the third highest in violence. These counties comprise most of 
the Fort Peck Reservation. On the Fort Peck Reservation alone, there 
are 89 registered sex offenders. And in eastern Montana and western 
North Dakota (the Bakken region), there are a total of 392 registered 
sex offenders.
    We are all too familiar with the statistics regarding domestic 
violence in tribal communities: approximately 34 percent of American 
Indian and Alaska Native women are raped and 39 percent experience 
domestic violence. In Montana, Indian women are 11 percent of the 
intimate partner deaths in the State. During a one-year period, from 
October 1, 2013 to September 30, 2014, the Roosevelt County/Fort Peck 
Tribes' 911 Call Center received 718 reports of domestic violence. This 
means that almost twice a day, every day, our law enforcement officers 
were responding to a domestic violence call. It is not known how many 
more incidents were not reported. What these statistics mean in real 
life is that one in three Indian women has experienced some sort of 
serious violent attack in their lifetime.
    The rise of violent crime has serious consequences for our entire 
community, but what is most urgent for the Tribes is the impact it is 
having on our children. According to the Indian Tribal Trauma Center, 
Indian children are 2.5 times more likely to suffer trauma than non-
Indian children, and violence accounts for 75 percent of the deaths of 
Indian children between the ages of 12 and 20. This is leaving a 
devastating legacy for our children. As stated in the November 2014 
Report from the Department of Justice Task Force on American Indian/
Alaska Native Children Exposed to Violence, Indian children experience 
Post Traumatic Stress Disorder (PTSD) at a rate of 22 percent. This is 
the same level as Iraq and Afghanistan war veterans. That means more 
than 1 in 5 Indian children in this country is suffering from 
battlefield-like PTSD. At Fort Peck, Poplar School officials reported 
to the Federal health team dispatched during the suicide epidemic that 
more than 30 percent of the middle school children tested positive for 
sexually transmitted diseases, and at least twenty percent drank 
alcohol on a weekly basis. Again, we are talking about children between 
the ages of 11 and 13. These are not independent, headstrong teenagers, 
these are babies.
    That is why I am here. We have to do more for our children. We have 
to do more for the future of our tribe and our nation. We have to find 
a way that we can help these children heal. If we do not, my community 
and the rest of Indian country will be forever damaged.
The Steps That the Fort Peck Tribes Have Taken to Assist Victims
    At Fort Peck, we have long believed that a strong tribal government 
is the way that we can best serve our people. That is why for more than 
forty years, the Fort Peck Tribes have had an independent judicial 
system, including an appellate court. It is through this system that we 
try to provide justice to our victims and our defendants. Our judicial 
system now includes law-trained judges, law-trained prosecutors, law-
trained public defenders, probation officers, a published tribal code, 
and experienced court clerks and court reporters. Our court's opinions 
are published and available to the public. Our tribal courts and our 
court services--which are also essential to addressing the rights of 
victims--are largely supported by tribal funds.
    Given the strong foundation of our court and the Tribal Council's 
desire to combat domestic violence with every tool possible, the Tribes 
elected to pursue the opportunity presented by the Violence Against 
Women Act (VAWA) and exercise our inherent jurisdiction to prosecute 
non-Indian defendants who commit domestic violence on our Reservation. 
We did this--not because we lack good partners in our U.S. Attorney and 
local law enforcement--but because this is simply another avenue to 
provide justice to the victims. We think providing justice to victims 
is an important step in providing them a pathway to heal and move on 
with their lives.
    The Fort Peck Tribes were also recently notified that we are now a 
Substantially Implemented Tribe under the Adam Walsh Act and the Sex 
Offender Registry and Notification Act (SORNA). We have worked to 
achieve this status since 2009. Our ability to register sex offenders 
is another important tool in protecting victims and potential victims.
    In addition to providing direct justice to victims, the Fort Peck 
Tribal Court provides other resources to victims. For example, we were 
one of the first Tribes in Montana to issue Hope Cards. The Hope Card 
allows someone, including a child, who has been granted an order of 
protection in one jurisdiction to easily prove it in another 
jurisdiction. These small durable cards, the size of credit cards, 
contain the necessary information regarding the order of protection for 
law enforcement to act. This is a small thing, but an important tool 
for our victims and law enforcement.
    We have also worked to protect victims by establishing specific 
procedures to address their needs. For example, the Fort Peck Tribes 
are the only jurisdiction in Montana to have established a written Drug 
Endangered Children Protocol that sets out the responsibilities of 
social services and law enforcement entities for any scenario where 
children and drugs are involved.
    Another critical step that we have taken to address the needs of 
victims was done thirty years ago, when the Fort Peck Tribes 
established the Tribes' Family Violence Resource Center. This is the 
primary resource for victims on our Reservation. The Center works 
directly with tribal, federal and local law enforcement agencies to 
provide services to victims of violence.
    The Family Violence Resource Center is one of twenty-six domestic 
violence shelters in Indian country. The Center provides crisis 
response, emergency services and intervention on a 24-hour basis to 
victims of physical, psychological, economic and sexual abuse. The 
Center works closely with police in responding to 911 calls and in 
providing other emergency services to take care of the victim, whether 
female or male, Indian or non-Indian, adult or child, to be sure they 
are safe and healthy.
    The Center also provides victims with legal advocacy services and 
assistance in connection with court proceedings. The Center's advocates 
work with prosecutors to keep the victim informed of offender charges, 
plea status, and release date for the victim's notification and safety. 
The Center's advocates also provide the victims with transportation to 
the prosecutor's office and courts when needed. The advocates also 
assist victims in filing for protection (restraining) orders and child 
custody, and by providing referrals to legal lay advocates in civil 
matters.
    The Center's staff facilitates necessary health care for our 
victims, which includes accompanying sex abuse victims to medical exams 
to reduce trauma. The Center provides victims with shelter and safety 
plans, and crisis counseling (both cultural and secular based on the 
victim's choice). The Center operates a crisis hotline and provides 
community education. It assists victims by providing transportation to 
medical facilities, other resource agencies, and both local and off-
reservation shelters when local ones are full or it is not safe for the 
victim to remain on the Reservation. The Center will also provide 
victims with replacement clothing and shoes when the victim's clothing 
has been confiscated as evidence.
    The Center provides special counseling services, through a forensic 
interviewer/crisis counselor, for child victims and their non-offending 
parent or guardian. For those children who witness the violence, we 
treat them as victims as well and provide child friendly/age 
appropriate counseling services.
    We recently moved the Center to a new facility, which we have named 
after Patty McGeshick (Red Bird Woman), a Tribal member who was a 
tireless advocate for victims, working any time--day or night--to 
ensure that a victim of violence had a safe place to be. Patty lost her 
lifetime battle with lupus this past year. She is deeply missed by our 
community, but her work continues through her dedicated staff at the 
Family Violence Resource Center and the staff at the Tribal courts.
The Need for Additional Resources to Assist Victims
    The demand for services for victims at Fort Peck is staggering. In 
2012, the Family Violence Resource Center provided advocacy and 
services to 642 adult victims and 595 of their children, totaling 1237 
victims. In 2013, the total number of victims receiving advocacy and 
services was 412 adults and 296 children, for a total of 708 victims. 
In 2014, the Center served 519 adult victims and 367 children, totaling 
886 victims. In short, over this three-year period, the Center was 
addressing an average of 79 victims of domestic violence and sexual 
assaults per month. The high number of victims served in 2012 reflects 
the significant impact that the Bakken oil boom had on violence 
affecting Fort Peck. With the decrease in oil production, we have seen 
some decrease in violence and crime, but every year brings new 
challenges. These now include meth and other drug-related violence, 
which the Center's staff has found is more dangerous and leads to long-
term damaging victimization. Compounded by our proximity to the oil 
development activity, the need for victim services is greater than 
ever.
    The work of the Family Violence Resource Center receives some 
support through the Department of Justice Office on Violence Against 
Women (OVW) Coordinated Tribal Assistance Tribal Governments Grant. We 
were also fortunate to receive some additional funding from the 
Department of Justice's Special Bakken initiative grant awarded last 
year. This one-time initiative focuses on training for area law 
enforcement, advocates and victims' service providers in the greater 
Bakken region encompassing eastern Montana and western North Dakota. 
The Center works hard to compete for grant funds each year in order to 
support its operations.
    Much of the work of the Family Violence Resource Center depends on 
help from volunteers. The Center currently has five volunteer advocates 
who respond to domestic violence across the Reservation, and are on the 
weekend call list at the 911 Center. But while these volunteer 
advocates work without pay, they, like all other Center staff, must 
receive 40 hours of training before they can respond to the crimes of 
domestic violence and sexual assault. The Center must fund the cost of 
training as well as the related expenses that volunteers incur (such as 
costs of providing transportation) to provide services to victims.
    Unfortunately, due to funding constraints, combined with the 
extensive need for victims' assistance, we handle virtually every case 
as a crisis and do not have the luxury of providing systemic and 
sustained support to our victims. The Center struggles to meet the 
need. When the Center itself does not have the resources, the Center's 
dedicated staff will use their own funds to help victims--to do simple 
but critically important things, like buy food and baby formula so the 
victim can feed her children while they travel to a shelter or while 
they wait for other resources to become available.
    We are one of the few Tribes in the country to recently be awarded 
a discretionary competitive grant from the Department of Justice's 
Office for Victims of Crime. Under this grant, the Tribes conduct 
community education programs to encourage victims of sexual assault to 
report crimes and seek assistance. With this funding, we were also able 
to hire a tribal prosecutor to register sex offenders and establish a 
crisis hotline for victims. But apart from this recent grant, the 
Tribes and our members have not had assistance from the Crime Victims 
Fund. The victims we serve do not have access to other victims' 
resources. There has been only two times where victims at Fort Peck 
qualified for crime victim compensation: one was to replace glasses 
that were broken during the domestic violence incident, and the other 
was monetary assistance with a funeral. Both incidents took place over 
10 years ago.
    We need more help in order to serve victims in our community. 
Unlike states, which annually receive a direct set-aside of funding 
from the federal Crime Victims Fund, tribes must compete for grants. 
Our experience with losing our SAMSHA suicide grant program, 
notwithstanding our overwhelming need, teaches us that federal grants 
are fleeting. It is critical that the Victim of Crimes Assistance Act 
be amended to provide tribes a solid and certain funding stream, 
instead of requiring tribes to compete for a limited allocation of 
funds from federal or state agencies, so we can effectively support our 
vitally needed programs. In 2014, States passed through to Tribes 0.2 
percent of the funds they received, and only ten tribes received grant 
funds directly from the Department of Justice. Clearly, this level of 
funding is not commensurate with the level of need throughout Indian 
country.
    The Department of Justice's own Office of Victims of Crime, in 
their Vision 21 Report, called on increasing resources to tribal 
communities ``to ensure that victims in Indian country are no longer a 
footnote to this country's response to crime victims.'' Given the 
disproportionate need in Indian country, we specifically ask that 
Congress establish a 10 percent set aside of the Crime Victims Fund. 
This request is supported by the National Congress of American Indians 
and the Attorney General's Task Force on American Indian and Alaska 
Native Children Exposed to Violence.
    Finally, I want to thank this Committee for holding this hearing on 
this vitally important matter. Although the Assiniboine and Sioux 
Tribes are experiencing some of the highest rates of violence in all of 
Montana, our Tribes have pulled and stretched together a decent 
response for victims experiencing or exposed to violence. However, it 
is extraordinarily difficult to make the pieces fit together and we 
rely heavily on volunteer services and time-limited discretionary 
funding. Our Tribes have demonstrated capacity over decades, but our 
needs for victim services are overwhelming and we think it is so 
important to create a more reliable set-aside for Indian Country. I 
would be pleased to answer any questions and to provide any additional 
information that may assist the Committee in its work to help us 
address this unmet need.

    The Chairman. Thank you very much, Chairman Stafne. We 
appreciate your comments and your testimony.
    We next would like to turn to Judge Dianne Barker Harrold. 
Judge Barker Harrold, please.

 STATEMENT OF HON. DIANNE BARKER HARROLD, TRIBAL COURT JUDGE, 
PAWNEE NATION OF OKLAHOMA; MEMBER, CHEROKEE NATION VICTIM TASK 
                             FORCE

    Ms. Harrold. Thank you, osiyo. I am a Cherokee citizen and 
I thank the Committee on Indian Affairs for their interest, 
concern and commitment to the needs of tribes and their 
citizens.
    I am a former crime victim from the 1970s, when there was 
no recognition of needs or services for crime victims. In the 
early 1980s, that began. However, now the needs for crime 
victims in Indian Country have yet to be adequately 
acknowledged, understood and addressed.
    I have served crime victims for almost 35 years, including 
being an advocate, an elected State district attorney. 
Currently I serve as a training and technical assistance 
provider for tribal victim services, funded through the Office 
of Victims of Crime, and have been doing that since 2006. I 
also serve on the Cherokee Nation's Victim Task Force, created 
by Principal Chief Bill John Baker, and am the attorney for the 
Cherokee Nation Tribal Council and Chief Judge for the Pawnee 
Nation.
    Drawing from these many years of Indian Country knowledge 
and experience and working with crime victims, I know there are 
many unique challenges and unmet needs for crime victims in 
Indian Country. Throughout Indian Country the need for 
assistance for victim service is extensive, in part because 
tribes frequently lack any form of victim services 
infrastructure. Where services are available, there are still 
major gaps.
    Although domestic violence and sexual assault is often 
addressed, there are Native victims of many other types of 
crimes, which include child abuse, human trafficking, elder 
physical and financial abuse, homicide and property crimes such 
as burglary or robbery, as well as many others, which shows the 
need for support.
    For example, victims may need medical attention and other 
culturally-appropriate services to address physical and non-
physical injuries resulting from crime. If a homicide occurs, a 
home needs major cleanup. Victims of crime need advocates, 
emergency shelter, crisis intervention services, cultural 
healing practices. And they do lethality assessments and do 
safety planning with the advocates and victim services.
    Because a lack of transportation is a common issue in 
tribal communities, especially in large tribal reservations and 
jurisdictional areas, transportation is also a need that needs 
to be met by victim advocates as well.
    Other things needed in Indian Country include educating 
victims about criminal justice system court proceedings, how 
their case is being investigated, the status of the 
investigation, accompanying victims to court proceedings, 
assisting victims in creating victim impact statements for 
sentencing, working with survivors of homicide victims, 
including related cultural activities prior to funeral services 
and finding resources to pay for funeral and burial expenses.
    Community outreach to tribal communities is another need. 
Truly, service to crime victims helps to provide justice for 
crime victims and offender accountability. All crime victims 
need ways to heal and recover from victimization. Non-Native 
counseling is not the way healing and counseling is conducted 
in tribal communities, which is another reason for the need for 
more crime victim services in Indian Country, due to the need 
for culturally appropriate victim services as well as cultural 
healing activities such as talking circles, smudging and 
brushing healing which are physical and emotional cleansing 
ceremonies, sweat lodges, healing in the arts activities are 
some examples that should be noted.
    Tribal culture and tradition is unique with each tribe, 
which has their culture, tradition, history and historical 
trauma. To be successful in Indian Country tribes must be given 
the flexibility to incorporate cultural healing and culturally 
appropriate victim services.
    Building a collaborative system with tribal law enforcement 
and victim advocates is also an important part of this process. 
I have provided training and technical assistance services to 
three tribes that have created that collaboration which 
benefitted victims.
    Internal and external collaborations with tribes and 
service providers is needed to ensure that service providers 
understand tribal culture and deliver appropriate services with 
a holistic approach if victimization occurs in an urban area 
outside of Indian Country.
    Tribes also need the resources and support to create 
criminal codes to ensure that crimes are addressed, create a 
tribal victim rights code and to create a tribal law that and 
protect crime victims by being intimidated. If tribes want to 
opt-in to implement the Tribal Law and Order Act, it would be a 
major cost due to the Act's requirements.
    Crime victims in Indian Country are often hesitant about 
reporting crimes due to the fact that there are no victim 
services to assist them. I have had direct experience in the 
past with victims who didn't report that were victimized, and 
sometimes the offenders even killed a couple of victims so they 
wouldn't tell anybody.
    There is also lack of knowledge and understanding that 
tribes are eligible for victim's compensation as another 
impediment to crime victims in Indian Country. Establishing 
State and tribal liaisons will enhance this knowledge and 
understanding and facilitate access to victim's compensation 
funds for tribal crime victims.
    The Oklahoma District Attorney's Council has established a 
great cultural victim's compensation policy and has also 
established a very beneficial State-tribal liaison.
    Criminal jurisdictions in different areas can impact 
Service to crime victims, such as Public Law 280 States, where 
States have criminal jurisdiction over tribes. So that is 
another issue.
    There is a misconception and a misunderstanding across the 
Country that these tribes have lots of money, because tribes 
have casinos and people think that all the money put in gaming 
machines goes directly to the tribe but that is not true. There 
is truly a need. And as the Chairman said, from Fort Peck, 
there is higher poverty rates in tribal communities than 
outside Indian Country. High poverty and unemployment generally 
correlate with high levels of criminal activity. Indian Country 
is no exception.
    The major gap is lack of available tribal funding to create 
and sustain tribal victim services programs. The Office of 
Victims of Crime is really the only Federal agency that 
provides specific funding to fund tribal victims services. They 
are very dedicated. Director Joye Frost is very committed to 
serving Indian Country. Back in the late 1700s, Chief Tecumseh 
of Shawnee Nation said ``Abuse no one and no thing, for abuse 
turns the wise ones to fools and robs the spirit of vision.'' 
So there was even a concept about abuse way back.
    It has been an honor and a privilege to be able to provide 
this testimony. I thank you for your commitment to Indian 
Country. I want to say wado, which is thank you in Cherokee. As 
a Cherokee prayer blessing, may the warm winds of heaven blow 
softly upon your house, may the Great Spirit bless all who 
enter there, may your moccasins make happy tracks in many snows 
and may the rainbow always touch your shoulder. In Cherokee, 
there is no word for good-bye. It is only until we meet again: 
[phrase in native language.]
    [The prepared statement of Judge Harrold follows:]

 Prepared Statement of Hon. Dianne Barker Harrold, Tribal Court Judge, 
  Pawnee Nation of Oklahoma; Member, Cherokee Nation Victim Task Force
    Osiyo (Hello in Cherokee) to everyone who is here today and I want 
to thank Chairman Barrasso, Vice Chairman Tester, my Oklahoma Senator 
Lankford and this Senate Committee on Indian Affairs for their interest 
and concerns and commitment to the needs of tribes and their citizens.
    I am a citizen of the Cherokee Nation, was raised by a Cherokee 
historian and have always been involved in tribal culture and have 
lived within the jurisdiction of the Cherokee Nation my entire life and 
am the mother of 3 Cherokee children and grandmother of 13 Cherokee 
grandchildren and 2 Cherokee great-grandchildren. My grandfather was a 
full blood who received an allotment which is still within the family 
in Oklahoma. I am a former crime victim from the 70s when there was no 
recognition of needs and no services for crime victims. In the early 
80's recognition of the needs and services for crime victims began and 
has continued to be more recognized since then. However, the needs for 
crime victims in Indian Country have yet to be adequately acknowledged, 
understood and addressed.
    I have served crime victims for almost 35 years in a number of ways 
as an advocate, an elected state district attorney, a tribal court 
judge, managing grants to serve crime victims for a tribe and as an 
Indian Country expert and consultant. I created a video project about 
victim services related to homicide in Indian Country and I have 
provided trainings for victim advocates and law enforcement in Indian 
Country. Currently, I serve as a training and technical assistance 
provider for tribal victim services funded through the Office for 
Victims of Crime and have been doing that since 2006. I also serve on 
the Cherokee Nation's Victim Task Force created by Principal Chief Bill 
John Baker, am the attorney for the Cherokee Nation Tribal Council and 
Chief Judge for the Pawnee Nation of Oklahoma. Drawing from these many 
years of Indian Country knowledge and experience, I can tell you that 
there are many unique challenges and unmet needs for crime victims in 
Indian Country.
    Many think of crime victim services as limited to legal advocacy, 
but this is not the case. Throughout Indian Country, the need for 
assistance for victim services is extensive, in part, because tribes 
frequently lack any form of victim services infrastructure and where 
services are available there are still major gaps. We must also 
overcome the misperception that only victims of domestic violence or 
sexual assault crimes require additional services. In fact, there are 
Native victims of many other types of crimes which include child abuse, 
human trafficking, elder physical and financial abuse, homicide and 
property crimes such as burglary or robbery, as well as many other 
which clearly shows there are crime victims in Indian Country in need 
of support.
    For example, victims may need medical attention and other 
culturally appropriate services to address physical and non-physical 
injuries resulting from a crime. If a crime such as homicide, occurs at 
a home, major clean-up services may be needed. Victims of crime also 
need victim advocates, emergency shelter, crisis intervention services, 
emergency services and cultural healing activities. It is also 
important to allow for lethality assessments to determine risks and 
dangers of victims and create safety plans for victims to avoid re-
victimization and assure protection from perpetrators.
    Because lack of access to transportation is a common issue in 
tribal communities, especially in large tribal reservations and 
jurisdictional areas, emergency shelter and transportation services may 
be critical to crime victim safety and recovery. If a victim has no 
transportation, they often cannot seek assistance, go to court, obtain 
medical care or participate in cultural healing.
    Other critical victim services that are desperately needed in 
Indian country include educating victims about the criminal justice 
system, court proceedings, how their case is being investigated, and 
the status of the investigation; accompanying victims to court 
proceedings; assisting victims in creating victim impact statements for 
sentencing; working with survivors of homicide victims (including 
related cultural activities prior to funeral services and finding 
resources to pay for funeral and burial expenses); and conducting 
community outreach to inform tribal communities about crime 
victimization and the services that are available. Truly, service to 
crime victims help to provide justice for crime victims and offender 
accountability.
    All crime victims need ways to heal and recover from victimization. 
Non-Native Counseling is not the way healing and counseling is 
conducted in tribal communities which is another reason for the need 
for more crime victim services in Indian Country due to the need for 
culturally appropriate victim services as well as cultural healing 
activities such as Talking Circles, Smudging and Brushing healing which 
are physical and emotional cleansing ceremonies, Sweat Lodges, Healing 
in the arts activities which are some examples. It should also be noted 
that tribal culture and tradition is unique with each tribe who has 
their own culture and tradition, history and historical trauma. To be 
successful in Indian Country, tribes must be given the flexibility to 
incorporate cultural healing and culturally appropriate victim services 
for victims of crime.
    Building a collaborative system with tribal law enforcement and 
victim advocates is also an important part of this process. I have 
provided training and technical assistance services to three tribes 
that have created that collaboration and victims have benefitted as a 
result. Internal and external collaborations between tribes and service 
providers is needed to ensure that service providers understand tribal 
culture and deliver appropriate services with a holistic approach if 
victimization occurs in an urban area outside of Indian Country.
    Tribes also need the resources and support to create criminal codes 
to ensure that crimes are addressed, create a tribal victim rights code 
and to create a tribal law that would hold offenders accountable and 
protect crime victims by making intimidation of crime victims a crime 
in and of itself. If tribes want to opt in to implement the Tribal Law 
and Order Act, this will come at a major cost due to the Act's 
requirements.
    During my years of experience, crime victims in Indian Country are 
often hesitant about reporting crimes due to the fact that there are no 
specific victim services in their specific tribal communities and they 
worry about being intimidated by offenders and offender's family 
members to stop victims from pursuing offender accountability. This can 
have dire consequences. I have direct experience with several cases 
where victims have not reported crimes, offenders re-victimized or 
intimidated them and ultimately at least two of the victims were 
murdered.
    There is also lack of knowledge and understanding that tribes are 
eligible for state victim' compensation and is another impediment to 
crime victims in Indian Country accessing the resources they need to 
become whole. Establishing state and tribal liaisons will enhance this 
knowledge and understanding and facilitate access to victim 
compensation funds for tribal crime victims. The Oklahoma District 
Attorney's Council has established a great cultural victims' 
compensation policy and has also established a very beneficial state/
tribal liaison system.
    Different tribal and criminal jurisdictions are an issue that can 
impact crime victims. Jurisdictional challenges relating to Public Law 
280 (PL. 280) further complicate matters for crime victims in Indian 
Country. Public Law 280 (PL. 280) states are states that have 
jurisdiction on tribal reservations. Although those PL. 280 tribes in 
the lower 48 states may have tribal law enforcement, it is state and 
federal prosecutors and law enforcement are the ones who investigate 
and file those cases but there would be a need for those state agencies 
to collaborate with tribes to have a tribal victim advocate to work 
with those state entities to ensure culturally appropriate services for 
tribal crime victims are available. For the lower 48 non-PL. 280 tribes 
that have reservations and their own tribal jurisdictions there is 
tremendous need for victim services as well. A major gap is lack of 
available tribal funding to create and sustain tribal victim services 
programs. Alaska has a different type of PL. 280 jurisdiction which has 
more culturally appropriate services since many Alaska State Troopers 
are Alaska Natives but due to rural and remote villages, unique and 
significant gaps in services remain there as well. I have worked with 
several Alaska Native victim programs funded by grants over the years 
and am in Alaska at least twice a year; however there is another 
witness today who will be focusing exclusively on Alaska.
    There is misconception and misunderstanding across the country that 
believes tribes have lots of money because many tribes have casinos and 
people think that all the money put in gaming machines goes directly to 
the tribe but that is not true. There is higher poverty rates in tribal 
communities than outside of Indian Country. High poverty and 
unemployment generally correlate with higher levels of criminal 
activity and Indian country is no exception which is another 
justification for the need of funding for victims services in Indian 
Country.
    Even back in the late 1700s to the early 1800s a tribal leader 
spoke about abuse. ``Abuse no one and no thing, for abuse turns the 
wise ones to fools and robs the Spirit of its vision.'' Chief Tecumseh 
of the Shawnee Nation.
    It has been an honor and privilege to be able to provide this 
testimony and I am now available to respond to any questions you may 
have. WADO (thank you in Cherokee).
    Cherokee Prayer Blessing: May the warm winds of heaven blow softly 
upon your house. May the Great Spirit Bless all who enter there. May 
your moccasins make happy tracks in many snows and may the rainbow 
always touch your shoulder.

    The Chairman. Thank you very much, Your Honor. We 
appreciate your testimony. We look forward to the testimony in 
a little bit.
    We have one more witness to testify, that is Mr. Gerad 
Godfrey, the Chair of the Violent Crimes Compensation Board in 
the Office of the Governor of the State of Alaska. Mr. Godfrey, 
please proceed.

STATEMENT OF GERAD GODFREY, CHAIR, VIOLENT CRIMES COMPENSATION 
                 BOARD; SENIOR ADVISOR, RURAL 
BUSINESS AND INTERGOVERNMENTAL AFFAIRS, OFFICE OF THE GOVERNOR, 
                        STATE OF ALASKA

    Mr. Godfrey. Thank you. My name is Gerad Godfrey, I am an 
Alaska Native. My parents descend from two different Yup'ik 
Native villages in the Kodiak Archipelago. I am a member of the 
Native village of Port Lions Tribe.
    I have spent many years living in Alaska villages and I 
have chaired Alaska's Violent Crimes Compensation Board for the 
last 13 years. Currently I am senior advisor to the Governor of 
Alaska on Rural Business and Intergovernmental Affairs. I thank 
you for allowing me to be here today to discuss this most 
essential topic of improving victim services in Indian Country 
and rural Alaska, which is often defined by villages, which I 
will speak to.
    I, as does the State of Alaska, greatly appreciate the 
Committee's willingness to explore ways to improve victim 
services to the indigenous people of America. As this Committee 
is aware, Alaska has a substantial Native population, with 229 
federally-recognized tribes, which represents 41 percent of all 
federally-recognized tribes in America.
    During my tenure on Alaska's Violent Crimes Compensation 
Board, it has become clear to me that Alaska Natives are 
overrepresented as victims or claimants as well as 
perpetrators, in comparison to the representation of the 
population of Alaska as a whole. They represent an average of 
31 percent of crime compensation board claims in Alaska, which 
is nearly double the representation of the population of 
Alaska. Alaska has the unfortunate distinction of leading the 
Nation in sexual assaults, and this statistic is even worse 
when isolated to rural Alaska and villages.
    While rural Alaska suffers from many social and economic 
challenges, such as epidemic drug and alcohol abuse, high 
suicide rates, a lack of economic opportunity, a lack of 
infrastructure, a lack of telecommunications, high cost of 
living and high fuel costs, there is no greater challenge and 
social ill than the high rate of violent crime in rural Alaska 
and inadequate crime victim responsiveness and services. It is 
critical and timely for policy makers at all levels of 
government to address concerns of crime and safety in Indian 
Country and rural Alaska.
    The challenges that are faced in these areas are multi-
faceted. It is important to highlight that our responses to 
these challenges must be well-informed, targeted and multi-
faceted if those responses are to meet any tremendous needs.
    Accessibility to common services, such as public safety, 
health and education are often lacking or insufficient in 
addressing some of the social issues people face in the 
villages of Alaska. Improving victim services is such a broad 
topic and it holds many layers of importance. However, we would 
be remiss if we did not drill down into the topic of victim 
services to identify the most significant and pressing safety 
concerns facing those who live in villages.
    Sexual assault is one of the most pervasive traumas that 
residents of villages in Alaska face. The Alaska Victimization 
Survey reflects that about 59 percent of Alaskan women have 
experienced intimate partner violence, sexual violence or both 
in their lifetime. That is six out of ten women who experience 
violence of this sort. And in rural Alaska, these women often 
have nowhere to turn.
    In communities without victim services, a victim of violent 
crime like a sexual assault, or the protective parent of a 
child that is the victim of sexual abuse literally has nowhere 
to turn to keep themselves and their families safe. No service 
is available to help them heal from the trauma. This lack of 
services and lack of ability to appropriately address and heal 
from trauma is a vicious cycle that leads to substance abuse, 
depression, suicide, increased rates of violence and often 
perpetuation of these violent crimes.
    To appropriate support victims of sexual violence in Alaska 
villages, my recommendation is to implement known best 
practices, similar to those already in existence in urban areas 
throughout Alaska. To form multidisciplinary Sexual Assault 
Response Teams is the most highly effective response in 
providing necessary services to sexual assault or child sexual 
abuse survivors.
    A brief overview of response is, after the victim reports 
to law enforcement, an entire SART team responds to the 
identified facility, likely a health clinic in rural 
communities. The full team is comprised of law enforcement, 
forensic nursing, advocacy and the Office of Children's Service 
if a juvenile is involved. The full team participates 
collaboratively, reducing the need for a traumatized victim to 
tell their version of events more than once.
    After listening to the victim's account, a forensic nurse 
knows exactly where on the body to look to retrieve evidence, 
minimizing the trauma of a full forensic medical exam. Law 
enforcement has the information needed to begin building their 
case, with quickly securing an arrest warrant, and victims are 
linked immediately to necessary victim advocacy services, 
including shelter programs and counseling.
    SART teams improve the services provided to victims of 
sexual assault, minimize the victimization of survivors and 
lead to greater arrests, prosecution and conviction rates, 
making it an effective model to employ to combat sexual 
violence and support survivors, while effectively impacting 
community safety. Replicating this response throughout rural 
Alaska is a challenge due to the resources and implementation. 
With additional support funds, this SART response can be 
implemented minimally on a regional scale, providing this high 
level of service to the best of our ability wherever possible.
    Conversations with State and tribal leadership to 
understand the needs and desires of each community throughout 
Alaska would be instrumental in ensuring the services provided 
are essential and welcomed by community members. There exists 
components already throughout Alaska that with some linkage 
would meet one component of the team, and those resources are 
already in place.
    For example, the VPSO program, which stands for Village 
Public Safety Officer program, would provide public safety for 
rural communities in the region through a diverse array of 
public safety functions and include more than just law 
enforcement duties and activities. The presence of VPSOs in 
rural communities has had a significant impact on improving the 
quality of life, health and safety in the villages. Most 
villages in the Tanana Chiefs Conference region, which is the 
interior rural part of Alaska, primarily the off the road 
system and it is compromised of 42 villages, do not have 
existing public safety services or infrastructure such as fire 
prevention and suppression, emergency medical services, search 
and rescue and law enforcement officers or facilities.
    To highlight the gross lack of service available, I would 
like to share with you an existing scenario in Bethel, Alaska, 
which is the southwest rural part of Alaska off the road 
system. Bethel and the surrounding 56 villages is home to 
approximately 6,000 Alaskans. Bethel has staggering rates of 
sexual assault and child sexual abuse.
    In Bethel and surrounding villages, there is on average one 
rape or child sexual abuse case reported every other day. The 
aggregate total of cases coming from this region is almost 40 
percent of all Alaskan sexual assaults.
    As of two weeks ago, victims of sexual assault or child 
sexual abuse in Bethel and the outlying villages, after 
reporting the incident to Alaska State troopers, were retrieved 
by plane from that village and the troopers often would be 
delayed in response due to weather on their flight into Bethel. 
They would be placed in a hospital with no advocate and receive 
no medical treatment or evidence collection. The victim was 
then told they had to fly to Anchorage to undergo the SART 
exam.
    That is entirely unacceptable for various reasons. I would 
be happy to elaborate on it if asked.
    This was the state of affairs as recently as last week. So 
this highlights how desperately vital victim services in rural 
Alaska are needed more than ever to keep individuals and 
families safe. An influx of funding could help build the 
services I highlighted, having an immeasurable impact not only 
to Alaskans today but to future generations.
    Rape and violence are rising. It is to ensure that 
effective services are in place to support Alaskans that 
deserve to be supported and safe.
    Submitted with my written testimony is a comprehensive 
overview by one of Alaska's tribal consortiums. While they do 
not represent all the villages and tribes throughout Alaska, 
their analysis and overview is applicable and not unique when 
applied to villages throughout all of Alaska.
    In closing, I would echo my fellow panelists about how 
valuable a set-aside would prove in meeting the needs of Alaska 
Native victims and helping break the cycle that exists. Thank 
you.
    [The prepared statement of Mr. Godfrey follows:]

Prepared Statement of Gerad Godfrey, Chair, Violent Crimes Compensation 
 Board; Senior Advisor, Rural Business and Intergovernmental Affairs, 
                Office of the Governor, State of Alaska
Rural Interior Alaska/Tanana Chiefs Conference Region
1. About Rural Interior Alaska/TCC Region
    Tanana Chiefs Conference (TCC) is a regional Native non-profit 
corporation in the state of Alaska that provides health and social 
services to 42 villages in interior Alaska, 37 of which are federally 
recognized tribes. The TCC region follows the traditional boundaries of 
the interior Alaska Athabaskan people. The region is spread across 
about 235,000 square miles, which is equal to about 37 percent of the 
State of Alaska and just slightly smaller than the state of Texas, and 
about ten times the area of the Navajo Nation- the largest reservation 
in the lower 48 states.
    The tribes in the region are Athabaskan Indian that range in 
population from 75 to 700 members. Most villages are along the major 
river systems of Alaska's interior and the distances between 
communities can be vast. A majority of the villages are only accessible 
by small aircraft, and sometimes by boats during the summer months. 
Seven of the tribes are on the road system, with travel time from 
Fairbanks ranging from one to eight hours. In some villages, road 
access is over very rough gravel that makes travel difficult and 
dangerous depending on the season.
    The total population of Native people in the TCC region is 
approximately 12,000. About half live in the urban hub center of 
Fairbanks, with the remaining 6,000 living in rural villages.
    The TCC region is made up of six subregions. The Upper Kuskokwim 
subregion contains the following villages: McGrath, Medfra, Nikolai, 
Takotana and Telida. The Lower Yukon subregion contains the following 
villages: Anvik, Grayling, Holy Cross and Shageluk. The Upper Tanana 
subregion contains the following villages: Dot Lake, Eagle, Healy Lake, 
Northway, Tanacross, Tetlin and Tok. The Yukon Flats subregion contains 
the following villages: Arctic Village, Beaver, Birch Creek, Canyon 
Village, Chalkyitsik, Circle, Fort Yukon and Venetie. The Yukon Koyukuk 
subregion contains following villages: Galena, Huslia, Kaltag, Koyukuk, 
Nulato and Ruby. The Yukon Tanana subregion is made of up of Alatna, 
Allakaket, Evansville, Fairbanks, Hughes, Lake Minchumina, Manley Hot 
Springs, Minto, Nenana, Rampart, Stevens Village and Tanana.
    The economies in the region are predominantly subsistence hunting, 
fishing and gathering, and seasonal employment. Unemployment rates in 
the villages are high, at least quadruple the national and state rates. 
Many families live at or below the poverty level. The cost of living in 
villages is estimated to be 30-40 percent higher than the cost of 
living in Anchorage or Fairbanks. Accessibility to common services such 
as public safety, health, and education are often lacking or 
insufficient in addressing some of the social issues people face in the 
villages. In the winter months, harsh weather conditions (temperature 
extremes of -55) limit the availability and delivery of basic goods and 
services.
2. Law Enforcement in the Region: TCC's Village Public Safety Officer 
        (VPSO) 
        Program and the Alaska State Troopers
    TCC's VPSO Program provides public safety for rural communities in 
the region through a diverse array of public safety functions that 
include more than just law enforcement duties and activities. The 
presence of VPSOs in rural communities has had a significant impact on 
improving the quality of life, health, and safety in the villages. Most 
villages in the TCC region do not have any existing public safety 
services or infrastructure such as fire prevention and suppression, 
emergency medical services, search and rescue, and law enforcement 
officers or facilities. Those communities that may not require or do 
not have the resources to support a full time VPSO still have needs for 
other public safety services including public safety education, Drug 
and Alcohol Resistance Education (DARE), emergency preparedness plans, 
home safety inspection plans, school resource officers, hunter's 
safety, emergency responses and officer presence.
    TCC currently has unarmed VPSOs designated to 11 villages; Tanana, 
Eagle, Allakaket, Tetlin, Fort Yukon, Nulato, McGrath, Huslia, Galena 
Rover, Minto, and Northway. VPSO rovers serve the remaining communities 
in the region. The VPSO program works in conjunction with the Alaska 
State Troopers to meet the public safety needs in rural communities. 
Alaska State Trooper detachments or service areas are based out of the 
Fairbanks Trooper Post and the Bethel Trooper Post, both of which are 
significant distances away from the rural communities.
3. Rising Crime in the TCC Rural Region
    VPSOs and Alaska State Troopers are doing a tremendous job given 
their limited resources and adverse working conditions. Despite their 
best efforts, crime is on the rise (or is likely being reported more 
with the increase of VPSOs) in TCC's villages over the past 5 years. 
Consistent with the trend, assault, homicide, sexual assault, 
harassment, burglary, and theft have all increased from 2013 to 2014. 
Of particular concern is assaults make up the majority of reported 
crimes, which means there is always at least one victim.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        \1\ Statistics refer strictly to the 6,000 people living in the 
        TCC Rural Region and exclude Fairbanks, AK and Tok, AK.
4. Need for Victim Services in TCC Region
    Victim services in rural Alaska are needed more than ever to keep 
individuals and families safe. An analysis of the statistics above is 
disturbing: In 2014, of the 6,000 rural residents residing in the TCC 
rural region, more than 3,100 incidents of violent crimes to the person 
occurred. Stated more bluntly, more than 51 percent of all people 
living in villages were victims of violent crimes. Looking at the other 
side of the coin is equally shocking: More than 51 percent of all 
people living the villages were perpetrators of violent crimes.
    The causes for violence in Alaska Native villages vary. TCC VPSO 
Coordinator Sargent Jody Potts believes that law enforcement is dealing 
with the direct results of historical and generational trauma in rural 
communities. Children are being raised in environments where drugs, 
alcohol abuse, and violence are tolerated because offenders are not 
held accountable and victims have no access to meaningful services.
    Whatever the core cause are, victims' service needs must be 
addressed now. First and foremost, every village resident must be 
protected. Every village must have a law enforcement officer present in 
the community. The TCC Five Year Crime Trend graph above indicates that 
crime has increased each year since 2010. What has also increased each 
year since 2010 is the number of VPSOs in rural communities. This 
statistic reveals that when rural residents have access to law 
enforcement in their community, they use it. When they do not have 
access, it is less likely that crime is reported.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    If law enforcement cannot physically be in every rural village, 
residents must have access to reliable telecommunication services to 
contact law enforcement agencies and emergency services. Many villages 
in the TCC region do not have reliable long distance telephone and 
Internet services. The only reliable telephone and Internet access are 
located in the village clinic or school. This does little good to a 
victim who needs immediate help and cannot access the clinic or school. 
This could be the difference between life and death. There should be no 
reason why rural residents cannot have the same access to reliable 
telecommunications in their home as the clinic or school located in the 
same community. However, due to various federal regulations that govern 
telephone and Internet access to health clinics and schools, village 
residents are prohibited from ``tapping'' into the same reliable access 
points. \2\ This must be addressed.
---------------------------------------------------------------------------
    \2\ See FCC Rules, Regulations, and Orders administered by the 
Universal Service Administrative Company at http://www.usac.org/about/
tools/fcc/default.aspx
---------------------------------------------------------------------------
    Next, all individual victim focused services must consider the 
realities of living in an Alaska Native village and be culturally 
relevant. For example, in most villages, everyone knows each other. 
Victims may refuse medical care because the village's sole health aide 
is also the perpetrator's sister, mother, aunt, or other relative. 
Victims must have access to immediate medical care where they will feel 
safe and comfortable.
    Victim retaliation and intimidation are other factors that must be 
considered. For example, a perpetrator or his family may retaliate by 
excluding the victim from necessary subsistence activities. This leaves 
the victim without valuable food resources for the winter and causes a 
financial burden because substitute foods must be purchased. The 
creation of a fund that helps cover the costs of subsistence activities 
by volunteers would be a way to ensure that victims still have access 
to subsistence foods while saving limited financial resources.
    Lastly, in many domestic violence and other assault cases, 
perpetrators intimidate victims by refusing to leave the village or 
even the same home they share with the victim, while a criminal 
investigation is ongoing. Investigations can often last months. Victims 
have no choice but to stay in the same village or home because they do 
not have anywhere to go or the resources to support their children on 
their own. Creating and implementing services to victims must consider 
this reality. Collaborations with Tribal governments, Tribal courts, 
and law enforcement agencies are suggested when addressing this issue.

    The Chairman. Thank you very much, Mr. Godfrey. We 
appreciate your coming all the way down from Alaska.
    Senator Murkowski has come all the way from Alaska, and you 
are recognized.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you.
    Thank you, Mr. Godfrey, for your leadership in this and in 
so many areas. We truly appreciate what you have shared with 
the Committee on the issues that I think we recognize are 
beyond troubling. They take an amazing place, a great State, 
and bring us to our knees. We have to work on this, so I 
appreciate your leadership.
    The Chairman. Thank you, Senator Murkowski.
    We will now go to a series of questions. We will alternate 
each side and start with Senator Hoeven.

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Thank you, Mr. Chairman. I would like to 
thank both the Chairman, well, first, I would like to thank all 
of our witnesses for being here and for your work. I would also 
like to begin by thanking both our Committee Chairman and the 
Ranking Member for their help in support in passing the Native 
American Children's Safety Act as well as other members on the 
Committee who co-sponsored the legislation.
    What it provides is that for children in foster care on the 
reservation, background checks have to be done, not only on the 
head of household but on any adults in the home. We are working 
now to reconcile our version with the House. Representative 
Kevin Cramer led the effort in the House to pass the 
legislation there. So now we will reconcile the Senate version 
with the House version and it will go to the President for 
signature.
    So this will become law. I want to begin by, in addition to 
thanking members of this Committee, I want to turn to Director 
Cruzan and say, one, tell me about your efforts to implement 
and make sure that this is enforced. Also, what are the steps 
you are undertaking to make sure that foster children on the 
reservation are protected when we do have incidents of violence 
and crime that we are addressing?
    Mr. Cruzan. Thank you, Senator. I am happy to report to you 
that we have been working very closely with the Department of 
Justice in West Virginia on this very issue.
    There is a solution to this. And it is already in existence 
in a number of States. There are a number of States right now 
that are on it. The official title is called Purpose Code X. It 
is a data base system that is run through the National Crime 
Information Center. It is, in a nutshell, what the policy is, 
and we just implemented this, and we began in a small location 
and we will be working our way up.
    But for that reason, and I have experienced this myself, 
you respond to a call at 2:00 o'clock in the morning, there is 
a parent that needs to be arrested for whatever reason. Social 
Services arrives and you are looking for somebody to come get 
the children. Oftentimes you are worried about putting them in 
worse situations, because Grandma shows up and Grandma is sober 
and fine, but you don't know who is in the home.
    So through this Purpose Code X, we are now able to have 
Social Services contact a 24-hour BIA dispatch center, get 
those names run immediately. Similar to it would be if you were 
pulled over and your driver's license was checked. It happens 
literally that quickly. So we are able to feel more comfortable 
that we are providing a more safe location for these children, 
who are moving from a bad situation into a better one.
    I hope that answers the question.
    Senator Hoeven. It does. But I also want to ask, what 
program or programs do you feel are most helpful for foster 
children to make sure that they are safe or in a situation 
where they have been victims of a crime, we have the means to 
address their needs and get them into a safe environment?
    Mr. Cruzan. I am certainly not dodging your question. That 
is an area that I think this Purpose Code X will allow law 
enforcement to feel comfortable in the emergent situation that 
is happening right now. I would probably defer that question to 
my counterpart in Social Services within BIA to answer that 
more in depth, how they are doing that through Social Services.
    Senator Hoeven. I would pose the same question to the other 
members of our panel. What program for foster children do you 
think is most effective in helping make sure that we address 
their needs and get them into a safe environment? Mr. Chairman?
    Mr. Stafne. I think you have to have trained personnel, 
social workers in BIA. But at Fort Peck, we have this Family 
Violence Resource Center staffed by volunteers around the 
clock. Every 911 call where there is violence or child issues, 
these volunteers go to the place where the call has been to and 
they meet with the officers. If they go to the hospital, they 
go up to the hospital to see the families. And they work 
completely with every department there to make sure that the 
children are taken care of. They have a list of all the houses 
or foster parents available to take that child immediately.
    Senator Hoeven. Ms. Barker Harrold?
    Ms. Harrold. As a tribal judge, I do a lot of child welfare 
cases. It is always important to know about who can provide 
foster care and be protective of children. Always, the basic 
need is the best interest of children and how they can be 
protected. Because a lot of times it is neglect or physical 
abuse, the reasons that child welfare cases occur.
    So the need for making sure they are safe is a need.
    Senator Hoeven. Mr. Godfrey?
    Mr. Godfrey. As far as an ideal model for foster children, 
while the need is ever-present in Alaska, and it is extremely 
important when dealing with trying to intervene and break the 
cycle of violence that is often the product of what leads to 
those children being in foster care, I am not an authority on 
that specific topic.
    So I can speak to what is a good model or an ideal model. 
At this time, unfortunately, I can't answer that.
    Senator Hoeven. Again, I would like to thank the panel 
members for being here. Thank you, Mr. Chairman.
    The Chairman. Okay, thank you. Senator Heitkamp?
    Senator Heitkamp. Thank you, Mr. Chairman.
    I am horrified. Who could sit in this room and not be 
horrified. One out of almost every three children between the 
ages of 11 and 13 in middle school tested positive for a 
sexually transmitted disease on Fort Peck. In what world aren't 
we horrified?
    Your testimony, Mr. Godfrey, I am horrified. I am horrified 
by all of this. Because somewhere along the line, Native 
American children are getting left behind. And they are getting 
left behind because they are in a jurisdictional juggernaut, 
many times, or they are in remote locations where it is very 
difficult to provide services, and where we don't fund what we 
need to fund to break the cycle of violence and abuse.
    And so we worry about putting children in foster care. I 
worry also, in safe foster care, which is critically important. 
Why are they going to foster care in record numbers? That is 
another statistic that we haven't even talked about here.
    So we need solutions. That is why Senator Murkowski and I 
have passionately shepherded a bill through the Senate and we 
hope it will get great traction in the House to try and find 
systematic response, some legitimate response. I can only tell 
you as an attorney general in the 1990s, these numbers 
shouldn't shock me. Because I saw the exact same thing in the 
1990s. This is not a new problem. Suicide is a new problem and 
a new epidemic.
    But what is a solution to a devastation of a human being. 
And you see it in these numbers. So I am here to ask you, just 
give us one idea, and we will start down at that end, one thing 
that would make a difference in the work that you do every day 
in trying to protect kids.
    Mr. Godfrey. Probably the single most valuable thing is 
trained personnel to respond and intervene. That requires, 
predictably, funding.
    Senator Heitkamp. System funding.
    Mr. Godfrey. Correct. And so while there are people who are 
willing to do that work and it is very, as one would imagine, 
very challenging subject matter to deal with, there are people 
willing to do it if the funds are there to train them and 
support them and help them be successful in what they do.
    In Alaska specifically that requires teams that can 
mobilize on short notice in small planes to go to communities 
and villages that are only accessible by air or boat.
    Senator Heitkamp. I will tell you that through my work with 
Lisa, I can only say I thought my problems with remoteness were 
serious. I can't even wrap my mind around the problem that you 
have protecting a child in a village that is literally a three-
hour plane ride away from any help.
    Judge?
    Ms. Harrold. Remoteness is truly an issue in Alaska, 
because I do work with a lot of Alaska grantees. I go up there 
a couple of times a year. Still, the remoteness in rural areas 
in the lower 48 too are also an issue. Sometimes they don't get 
reported. So there continues to be abuse. Also, high suicide 
rates are becoming more common in youth in Native communities.
    Funding is always a help for culturally-appropriate 
programs.
    Senator Heitkamp. And I want to conclude with the Chairman. 
Chairman, can you offer any suggestions?
    Mr. Stafne. Yes. I think you had the answer yourself. 
Consistent funding. With consistent funding, we would be able 
to track qualified people. No one wants to take a job where you 
don't know if after 30 days, 60 days, after six months or even 
a year whether you are going to have a job. If you do ride that 
out and last a year, maybe you get trained. And you get offered 
a steady job somewhere else.
    Senator Heitkamp. I just want to make this point to 
conclude, that it is ironic that when you look at what might 
happen in Williston or Watford City, you have State and local 
assistance. We are the primary. This government, the U.S. 
government, is primarily responsible for providing the network 
of support and the support services for Native American 
children.
    And I don't know how you can listen to what you have told 
us today and what we know, what we hear over and over again, 
and not give this government an F in protecting the children in 
Indian Country. So we will continue to work to continue to 
believe that we can change outcomes if we all pull together for 
the children.
    Thank you so much.
    The Chairman. Thank you, Senator Heitkamp. Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman, for holding this 
hearing on such a critical issue.
    Chairman Stafne, it is good to see you here today. It is 
great having the Office here as well, I am glad to have you as 
a partner working on behalf of Montana and on behalf of Montana 
Indian Country. We appreciate it. Thank you for your insightful 
testimony.
    Senator Heitkamp expressed how I feel about these 
staggering statistics. The statistics you pointed out are 
equally frightening. On the Fort Peck Reservation you said that 
violent crime rates are five times higher than the rest of 
Montana, almost three times higher than the rest of the United 
States.
    You also mentioned that Native children are two and a half 
times more likely to suffer trauma than non-Indian children and 
violence accounts for 75 percent, violence accounts for 75 
percent of the deaths of Indian children between the ages of 12 
and 20. This strikes home as a daddy of four kids. It is one 
thing to look at statistics. But each one of these children is 
a son or a daughter, a grandson or granddaughter, a niece or 
nephew of somebody that cares deeply.
    So given these tragic statistics, how can Congress better 
work with tribes like Fort Peck to reduce the number of tribal 
members, especially tribal children, suffering from these 
physical and psychological traumas?
    Mr. Stafne. I think a lot of it has to do with what Senator 
Heitkamp said, consistent funding. We need qualified people to 
help. We can advertise a job, we hardly get any applicants, 
qualified applicants. We have to hire someone to train them. 
And once they get their training, they move on.
    Senator Daines. Is that because the offering salaries are 
too low?
    Mr. Stafne. Yes, I think so. The salary is lower, because 
we are trying to save money. We are probably using a grant. 
When that grant money runs out, we have no more money to pay 
that person. They move on. That happens all the time.
    Senator Daines. You mentioned a number of critical services 
which are currently available to survivors of physical or 
psychological, economic and sexual abuse. What services don't 
yet exist that would help these victims in Native communities 
recover and return to health?
    Mr. Stafne. Oh, boy. I don't know. I want to say services 
where we could, I know they exist, but in our land they are 
non-existent, partially because we don't have the funding. 
Alcohol plays the biggest part in all these crimes, I think. If 
we could somehow cure our people of the alcohol problems, a lot 
of these situations would not exist.
    Senator Daines. Thank you, Mr. Chairman.
    I want to shift gears here and ask Mr. Cruzan a question. I 
appreciate your being here today. I remember when you and I met 
over a year ago in my House office, we discussed a number of 
important issues regarding law enforcement in Indian Country. I 
have spent some time on our reservations across Montana, we 
have a lot of open positions, unable to fill them, for law 
enforcement. According to the Office of Personnel Management, 
completing a background check for one applicant under the BIA 
Office of Justice Services takes an average of 105 days. I know 
we talked about in some cases we will have men and women 
returning from Iraq or Afghanistan who have worn the Nation's 
uniform, have had security clearances and yet come back, they 
want to serve back in their home, Indian Country, and we have 
difficulty getting them cleared.
    Additionally, we have been told delays to fill vacancies 
have taken as long as a year or sometimes 18 months. It looks 
like we have a serious need for efficiency improvements to 
improve on the process.
    Where are we there? Can you outline the steps? What are we 
doing to try to reduce that time?
    Mr. Cruzan. Absolutely, Senator, thank you again for that 
question. The process now has changed, I think, since we spoke 
to improve the efficiency. Because of Indian preference that 
the BIA has, we are able to now what we call, I don't think our 
HR professionals call it this, but it is commonly referred to 
as direct hire. So if a Native American applicant comes in and 
says, I am interested in a BIA career, we ask for their resume, 
their form 4432, which is their Indian preference, 214, if they 
were in the military and their college transcript if they have 
them.
    We can do a quick, cursory background check, provide that 
information to our HR and they can literally do a tentative 
offer within that week. There are instances now of employees 
actually working for us now that have gone through this 
process.
    Another exciting thing that we have just sort of fleshed 
out with our Federal law enforcement training center partners 
and the Department of Interior HR and our own is we want the 
ability to make an offer, not wait necessarily for the entire 
adjudicated background to occur before we schedule them for 
training. So they can sort of run concurrent.
    There is a risk there, if for some reason there were an 
issue in a background that they weren't suitable for law 
enforcement, we would lose that time and that money. But I am 
told it is only about 3 percent of the people who we hire who 
are through that background process that don't make it through 
the background check.
    So I am excited about that. I am very anxious to see how 
that works out.
    The issue with the veterans, to me, honestly, we haven't 
gotten an answer that we want. We do think that these men and 
women who are serving in higher percentages in Indian Country, 
coming home, who have backgrounds cleared, we would be very 
interested in discussing ways for them to transition.
    Senator Daines. I would hope so. We have these programs, 
Helmets to Hardhats, a way to hire veterans. They have put 
their lives on the line over in Iraq and Afghanistan, they have 
already been cleared with background checks. The problem we 
face is, if we delay that, our best people move on and find a 
different job. They can't just sit idle waiting for a 
background check. I know we have to strike that balance, but I 
am thankful for the progress being made. I would particularly 
like to see more progress on helping veterans returning here. 
They are great role models to bring back home as well.
    Mr. Cruzan. Thank you, Senator.
    Senator Daines. Thank you.
    The Chairman. Thank you, Senator Daines. Senator Franken?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman, for this, and Mr. 
Co-Chairman, for this very important hearing.
    I wish all of our colleagues in the Senate could be here. 
Those of us who are on this Committee know very well what 
Indian youth face in Indian Country. And Senator Heitkamp 
talked about the 1990s and all these different kind of 
pathologies existing then. Those are the parents now. And these 
things repeat themselves.
    We talk about trauma. The trauma alters the way your brain 
processes things, makes it impossible or near impossible to do 
well in school. Chairman Stafne talked about alcohol. We know 
you said that 40 percent of the crime is drug-related.
    You start thinking of all these, and when you were asked 
what could help us here, you said funding. Funding. And I think 
of where, and this problem of funding is right. You need to 
attract people to these jobs and have them be real jobs.
    Doctors, when they get out of medical school, where do they 
want to go? They want to go to a big city emergency room where 
they can practice on a lot of people. I would think if you want 
to get to know how to deal with kids who have been traumatized 
that this is the place to work, this is the place to learn. And 
we need to fund you.
    But if you look at all the different things we hear about 
here, we hear about, where does the problem start? What is the 
entry point? Jobs. Housing. How many of these crimes against 
these kids happen when there are multiple families living in a 
house? Anybody?
    Mr. Cruzan. Senator, I would say that would be a factor, 
certainly. I couldn't give you a percentage, but certainly, 
yes.
    Senator Franken. How much of it is involved with drugs and 
alcohol? These kids, we fail them on just the schools, on 
teachers. We fail them, we fail Indian Country on law 
enforcement. We can't keep people in law enforcement there 
because they don't have housing. How do you attract someone to 
do this kind of job where there is not good housing?
    In VAWA, we allowed, we gave tribal courts jurisdiction on 
assault, sexual assault crimes when the perpetrator is non-
Indian. Chairman Stafne, it sounds like you have started to do 
that.
    Mr. Stafne. Yes, we have met all the requirements and we 
are utilizing that system now.
    Senator Franken. What is that experience like? Has that 
started yet? Have you prosecuted anyone?
    Mr. Stafne. We started, I haven't been over to the court, 
so I haven't heard. But that is probably good news. If it was 
bad, it would have come to me. The good news never comes. The 
bad news sure does, though.
    Senator Franken. Well, you get a lot of bad news all the 
time. So that seems to be working?
    Mr. Stafne. I think so, yes.
    Senator Franken. Well, I am glad we did that. I am a little 
like Senator Heitkamp, I will do everything I can to work with 
you and Senator Murkowski. I applaud you for your work on 
children. Thank you for traveling all this way to come here and 
tell us this. I wish I had something to say other than, as far 
as I am concerned, you can't get enough funding. We will do 
everything we can in this Committee.
    But we need to talk to our colleagues who aren't on this 
Committee and don't hear this every week. Because they don't 
know, I don't think they know. Thank you.
    The Chairman. Thank you, Senator Franken. Senator Lankford?

               STATEMENT OF HON. JAMES LANKFORD, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Lankford. Thank you. I thank all of you for being 
here and being part of this conversation. What you bring to it 
is incredibly painful. Judge, it is great to see you. It is 
always nice to have another Oklahoma face around, and to be 
able to have what you have done, and in your incredibly busy 
schedule, one that has you traveling all over the Country, 
contributing and working on these issues. Thanks for making 
time to be here and to be able to contribute to this 
conversation as well. Thank you for all your service there.
    Ms. Harrold. And thank you for serving on this Committee. 
On behalf of all the tribes in Oklahoma, we appreciate your 
service here.
    Senator Lankford. Thank you. Let's talk about some success 
stories. That is one of the things I like to come back to. 
There are 566 tribes around the Country. My question is, who 
have you heard of that is having success in dealing with these 
issues? What are they doing and who is seeing a percentage drop 
in abuse? What do you see that is unique there?
    I am confident we have several good success stories. Is 
there anyone who wants to jump in on that of any of the areas?
    Mr. Cruzan. Senator, I am happy to do that. Speaking 
specifically about violent crime, we did. We have been saying 
for a long time, if adequately resourced in Indian Country, we 
could have a significant impact on violent crime. This is going 
back to 2010 and current, so I will be brief.
    The high priority performance goal initiative was to reduce 
violent crime by a percentage, 5 was the number over a 24-month 
period. The initiative was very simple: increased presence has 
a dramatic decrease on crime. As I was saying earlier, at the 
12-month mark of this 24-month initiative, we saw a greater 
than 50 percent increase in violent crime, which was 
disturbing. But it wasn't until we began talking to tribal 
leaders that they said, it is not more crime that is occurring, 
it is more crime that is being reported, because there are 
resources out there to do something about it.
    So four years later, we continue at those locations to see 
crime below where it was at that time. The initiative we are 
doing now, as the Chairman said, we see that as well. Alcohol 
and drug abuse is a huge problem.
    Senator Lankford. Let me ask about that, because that has 
been a repetitive theme. Who has the most successful in Indian 
Country dealing with drug and alcohol issues? That has come up 
numerous times and this circles back to, as you said, not just 
a cultural issue or just an isolation issue, but a drug and 
alcohol issue as well. So that being a root cause, who is 
successful at that?
    Mr. Cruzan. I think there are some tribes in Arizona that 
do it well. Quite frankly, they have the resources to be able 
to. What we have in Indian Country are not violent offenders 
first. We have alcohol and substance abusers first who commit 
violent crimes. So some of these tribes that do have the 
resources to provide alternatives to incarceration, i.e., 
treatment, rehabilitation, I think are seeing some tremendous 
successes.
    I could give you some specific names.
    Senator Lankford. That actually would be helpful. You know 
Oklahoma well, also, and you also know what is happening all 
over the Country. So I am interested to know, where are we 
seeing success. We oftentimes talk about this as a problem, and 
there are serious issues.
    But we have 566 laboratories all over the Country of 
different tribes that are actually engaged, that are trying it. 
And with some of them are success stories. I want to be able to 
isolate, how did they make that work, how did they make that 
connect. Sometimes that might be finances, sometimes it might 
be something else. I would be interested to know.
    Mr. Cruzan. If I may, I would be happy to work with you or 
your staff to get you specific examples and point to true 
success stories to potentially be pilots or models for us to 
follow in Indian Country.
    Senator Lankford. Any other input from anyone on the drug 
and alcohol issue specifically, or other success stories on 
violent crime?
    Mr. Godfrey. I will speak to both questions briefly. I 
can't speak to a model necessarily that I am aware of that is 
working. What I can do is speak to some of what I have observed 
in my time dealing with victims of violent crime in rural 
Alaska. The thing that is most effective is responsiveness and 
lack of responsiveness. When I am thinking of with victims, and 
I will say victims of violent crime and then specifically 
sexual assault victims and sexual abuse of minor victims, is if 
they don't feel that what happened to them is serious and it 
was very bad and somebody cares, our opportunity to restore 
them emotionally, spiritually and mentally probably passes.
    But beyond that, they also are more likely to perpetuate 
that as they grow older, whether it is a boy seeing Mom's 
boyfriend or husband beating her up when he drinks, but he only 
gets that way when he drinks whiskey and he only drinks whiskey 
once a month, so grin and bear it. That is acceptable behavior 
for him. But that a daughter would see that that is acceptable 
for her to be treated that way and stay in that household.
    But that is a domestic violence. As far as the sexual abuse 
goes, same thing. If the message is not conveyed, that you're 
important, what happened is very serious and we are going to 
prosecute this person and we are going to get him in jail and 
then justice is served so the healing can continue to go 
forward and happen.
    So what I see as most effective is highly-trained, highly-
devoted response teams that get in there and respond. Sometimes 
it is law enforcement themselves that are multi-disciplined, 
because of being in Alaska and the rural nature of the State. I 
can't sit here and cite any program.
    I can cite another thing that this board I chair has been 
able to do, and that is, provide some out of the box types of 
compensation for various types of recovery. We rely on a 
licensed therapist that is dealing with the victim to recommend 
for us and make their case, their professional case why this 
would be helping the healing of this child or this teenager. 
That has allowed us to do things out of the box. Our enabling 
statute in Alaska gives us the latitude and liberty to do that. 
But we don't come up with the ideas ourselves, professionals 
do. And they make the case, then we fund it.
    One of my fellow panelists was discussing culturally-
relevant healing. I couldn't agree with that more. In Alaska 
there are numerous culture camps. While it doesn't necessarily 
mean culture camp specific for victims of violent crime where 
children came from a family of alcoholism, it is the holistic 
approach of cultural camps and the spiritual and emotional and 
mental support and healing that takes place, and tying them 
back to the ancestral land and the ways.
    Someone was talking about talking circles, all of those 
things. Technology is cut out. You go to a culture camp and you 
are isolated there with the elders and the wisdom that they 
share. And you do practices like catching animals, trapping, 
mending nets, fishing and other things that your ancestors have 
done historically. For a lot of these children that go there, 
and many of them go because they were, they had a scholarship 
or grant to do there, but it wasn't because they were a victim 
of crime. That stuff comes out when they talk about the abuse 
they are suffering at home. It is a catharsis.
    That type of thing is out of the box, but it has a very 
high rate of success, when these kids feel valued and tied in 
to their culture and their ancestors and where they come from.
    As far as alcoholism goes, in Alaska we have some villages 
that will vote to be dry or damp or wet. Basically that is 
three levels of prohibition or non-prohibition on alcohol. 
Obviously, if you are dry, it is hard to get the alcohol and 
consume it in the village without lots of planning in advance. 
And so I don't know that it resolves alcoholism, but it 
certainly takes away the implement, which is alcohol, that 
leads to very destructive behavior.
    Senator Lankford. Thank you. I yield back.
    The Chairman. Thank you very much, Senator Lankford. 
Senator Tester?
    Senator Tester. Thank you, Mr. Chairman.
    I just want to thank you all for your testimony. It has 
been said before but I will say it again, I very much 
appreciate your insight into this.
    Mr. Godfrey, thank you. You have talked about a number of 
things and I think the very first question that was asked, you 
talked about funding. Just now you talked about rapid response, 
which doesn't come without money.
    Senator Lankford, I appreciate your line of questions about 
looking for success stories. I could almost guess that the 
success stories come with tribes that probably have gaming and 
probably have resources. That would be my guess. For those that 
don't, we have problems. And if we have ones out there that 
have success with the amount of money that we appropriate, I do 
want to see that, and I think we all would love to see that in 
particular.
    If they are having success because of gaming and having 
those kinds of dollars, not everybody has access to those 
dollars. I can tell you, there isn't a tribe in Montana that 
has access to gaming money to the extent that it is going to a 
damned bit of good. So I appreciate your testimony.
    I would ask you, Chairman Stafne, you said your police 
staff is about half of what it should be. I believe that is 
correct?
    Mr. Stafne. That is correct. That is information I got from 
our captain.
    Senator Tester. Do you have any idea, of those staff 
members, those police members you have, how many are funded by 
grants and how many are funded by the Bureau?
    Mr. Stafne. No, I don't. I could get that information to 
you.
    Senator Tester. And I don't expect you to have it, by the 
way. But I guess the question I have for you, Darren, when I 
point a finger at you there are three pointing back at me, so 
you know that. The question is, how under budget is your police 
staff for Indian Country. Chairman Stafne said he has half the 
number he needs. A fair number of those are funded by grants 
where there is no predictability. What kind of budget shortfall 
are we looking at?
    Mr. Cruzan. Yes, sir. The Tribal Law and Order Act requires 
BIA to provide Congress an unmet needs report. The last one 
that came out showed that about 48 percent met.
    Senator Tester. Forty-eight percent met. So for Chairman 
Stafne to say he has about half as many officers, he's above 
average?
    Mr. Cruzan. Yes, absolutely right. So I don't know his 
exact numbers, but it would not surprise me for that to be 
exactly right.
    Senator Tester. So as we look at this, and look, we are 
always worried, we will always need to continue to be worried 
about money that we appropriate and doesn't get spent in the 
right way. But in this particular situation, it would seem to 
me that if we gave you a few more bucks, we wouldn't have to 
worry about waste, because you guys are so damned underfunded 
right now that you can't get to where you need to be. Is that 
right?
    Mr. Cruzan. I am not sure how to answer that. I will tell 
you this, that being a good steward of the government's money 
is very important to me. Yes, I think it would be well spent 
and money well-directed.
    Senator Tester. And this is compounded because we are in a 
process right now where we are going to apply another round of 
sequestration to Indian Country and to everybody else that is 
not in the Defense Department. So things ain't going to get 
better for you guys, right? Is that what you would say?
    Mr. Cruzan. That is what I would say if sequestration, 
another hit would be coming, yes.
    Senator Tester. Okay. Well, we started this thing out in 
the opening statements, the testimony here is sobering. The 
testimony here is almost criminal, to be honest with you. We 
are right now with another generation in Indian Country. And I 
just don't think it is going to get better unless we give you 
guys the tools to make it better. Do you see another way?
    Mr. Cruzan. No, sir.
    Senator Tester. I want to express my appreciation to the 
Chairman for having this hearing. I also want to express my 
appreciation for the set-aside victims fund. It is at 5 
percent; we can talk about where that needs to be and I don't 
know that we will get good metrics for it. Because if you guys 
have 5 percent of the crimes reported now, it is probably a 
heck of a lot higher if you were staffed up.
    So it may have to be, we may have to try to arm wrestle the 
States for a few more bucks. But the bottom line is, I think 
the problem is even bigger than the Victims Fund. The problem 
is, we have to start a little earlier. I want to thank you, 
Judge, for the work you do. Mr. Godfrey, for your coming down 
from Alaska, I thank you very much. The testimony was 
incredible. You are answering questions, I really appreciate 
it.
    And for A.T. Stafne, the Chair of the Fort Peck Tribe, who 
is probably going to hang his cleats up afterward, it is always 
good to have you here in Washington, D.C. You are probably just 
as happy to stay at home, I know that, because you live in a 
beautiful part of the world. But it is always good to have you 
here, Rusty, thank you.
    Mr. Stafne. Thank you. I enjoy working with people like 
you.
    The Chairman. Thank you, Senator Tester. Senator Murkowski?
    Senator Murkowski. Thank you, Mr. Chairman. Thank you for 
calling this very important hearing.
    I have been on the Indian Affairs Committee since I came to 
the Senate. And every few years we have a hearing very similar 
to what we have heard today. As Senator Heitkamp reminded us, 
this is not new. These are issues that we have been facing for 
years, perhaps just at a higher profile.
    But Mr. Chairman, I really hope that as an outcome from 
today's hearing and what we have had put in front of us again 
and the statistics that we have been reminded of yet again 
about the horrible violent crime rates that we see among 
American Indians and Alaska Natives, two and a half times 
higher than national average, Native youth experiencing violent 
crimes at a rate of ten times the national average, we just say 
these statistics over and over and over again.
    I at home remind people that our Alaska Native women are 
sexually assaulted at a rate of 12 times the national average. 
It is almost like you just become numb.
    But think about those victims and how numb they are. 
Because in far too many cases, they have asked that their 
voices be heard, they have tried to speak up. But the services 
have not been made available to them.
    In Alaska, we talk about the issues of jurisdiction and 
whether or not we have enough State troopers or whether we have 
the VPSOs and whether or not they should be armed. But you 
know, at the end of the day, and Mr. Godfrey, you spoke to 
this, we need to have rapid response.
    But if the rapid response doesn't yield anything that 
equates to justice at the end, what have we done to let them 
believe that they do have value, that their speaking up will 
yield a different outcome instead of just yet another instance 
of victimization perhaps by the same person?
    So if we look to the small things that we might be able to 
do to make a difference, prosecuting, well, you can't prosecute 
if you haven't collected the evidence, rape kits. I understand, 
Mr. Godfrey, that back home in the State, we have a backlog for 
rape kits waiting to be analyzed in the State, from the crime 
lab there, they say 150 plus backlog.
    We have a lack of staff in the State, have a two-year 
training adding to the backlog. Sexual assault kits not tested 
on a first-in, first-out, but by most critical classification, 
leaving victims to wait. So you have a situation where even if 
you have gone to the extent to collect the evidence needed, you 
are not seeing a rapid response.
    But even worse, I was at an event last evening talking 
about the situation out in Bethel. I believe you may have been 
discussing that when I came in, and I apologize that I did not 
hear all of your testimony. But I understand that in Bethel, 
YKHC has stopped collecting evidence from rape victims, or had 
stopped because of a funding issue. A community of 6,000 
people, as you know, and the outlying villages, where there is 
nobody to collect the evidence.
    So if you can't collect the evidence, there will be no 
rapid response, there will be no prosecution, there will be no 
justice for that victim. So he or she just gives up, just gives 
up, because we haven't been able to take the first step.
    Mr. Godfrey, can you confirm whether or not we have 
resolved the situation in Bethel? Are they now collecting 
evidence from victims of rape? Have we addressed that?
    Mr. Godfrey. Yes, Senator. The Governor's Special Advisor 
on Crime Prevention and Policy has dealt with that. The 
administration running the hospital has seen the light, if you 
will. Unfortunately, their problem had been one in which 
philosophically they made a comment and indicated that they 
thought that was a law enforcement function, not a medical 
function, so they don't know why they should have been doing 
them in the first place. But the trained personnel they had had 
moved on, and they didn't train up anyone else behind that, 
those trained SART response personnel.
    Senator Murkowski. May I just ask that question, then, the 
major hospital in the largest community in the region, you had 
one trained person?
    Mr. Godfrey. Well, it has been resolved. All I know is the 
last, one of the last certified persons to do those tests has 
left the community. And they didn't train up anyone else. They 
have revised it now and have multiple that are going to be 
going through phased training, so they have redundancy in 
place.
    But yes, there was a block of time and I don't know how 
long that was, where literally, if you had someone come in to 
do that collection, to do a SART exam, they had to go to 
Anchorage. And you hit on it, Senator, that is problematic for 
so many reasons, one of them being, the longer somebody waits 
to have evidence collected off their body the more degradation 
it goes through. So the less viable it is as evidence and more 
than likely, you don't make a prosecution.
    The highest rates of recidivism in crime generally is the 
sexual assault perpetrator. That person is going to do that 
again, maybe that person they did it do or someone else or a 
series of others. So you really need the prosecution just for 
justice purposes, you really need it to help the victim get 
whole. But the message the victim gets, if you don't get them 
into a timely response, is my goodness, if you have a sexual 
assault victim that literally was just raped last night, and 
the first thing you tell them, well, don't shower, we have to 
collect evidence. And now you are saying, oh, don't shower for 
another 12 hours until we get you to Anchorage. But the only 
thing she wants to do is shower, obviously.
    What is the message? What happens to their psyche? How are 
they going to heal and recover? And the despair that sets in, 
that is where the alcoholism and self-destructive behavior and 
suicide comes in. When that happens at a young age, and the 
message you get from the community or society or tribe is, you 
don't matter enough, what happened to you is not important 
enough for us to prosecute and put this person in jail or to 
get you the counseling and therapy you require to become whole 
again to try to start your life new and healthy again.
    There are so many reasons that is wrong, when you can't 
have a SART team, from a psychological and emotional aspect, as 
well as the criminal justice aspect. And by the way, I would 
say that when a hospital says, well, it is a law enforcement 
function, not medical, many rapes involve blunt force trauma, 
contusions, lacerations, things like that, those are all 
medical. Those are all medically relevant.
    I appreciate your taking specific attention on that, 
Senator.
    Senator Murkowski. It concerns me to such a great deal and 
again, the instance we are talking about is one of our regional 
hubs. We have so many villages, we have so many sub-regional 
clinics where we don't have trained personnel. We don't have 
the SART kits. We then have a backlog at the State.
    We have a problem in our State, and I apologize to those 
who are outside of Alaska. I know you have been working this 
issue constructively. But we as Alaskans, at the Federal level 
and at the State level, must address these deficiencies that 
are so obvious and so glaring, where there is a solution. We 
have a lot of problems that extend from all of this. But if we 
can't give victims some level of certainty, some level of hope 
that their perpetrator is going to be held accountable, we are 
never going to make any headway.
    Mr. Chairman, I have gone over my time. I would like to ask 
very quickly a question to Mr. Cruzan. This is based on the 
Committee memorandum that was distributed to us. In a footnote 
to our memo, it indicates that the President has proposed to 
divert money from the Crime Victims Fund to be used for 
purposes other than crime victim services without ensuring that 
even the most basic needs of crime victims are met and the 
continued viability of the services of the CVF. Why would they 
do that?
    Mr. Cruzan. Senator, I guess I don't completely understand 
the question.
    Senator Murkowski. Well, I didn't, either. I have been 
trying to get some more information about it. But basically 
what I understand is that it was in the President's budget that 
he sought to take money from the CVF fund to be used for 
purposes other than crime victim services. Now, we have talked 
about what can we do to make a difference. Unfortunately, so 
much of this comes back to money. Again, if there can be 
resources in the Crime Victims Fund, I would think that would 
help us.
    So if we have funds that are in there, but the 
Administration has chosen to take them out to use them for 
other purposes, how can they do that, in light of everything 
that we have heard?
    Mr. Cruzan. Senator, I think that might be a Department of 
Justice question.
    Senator Murkowski. Will you look into it for me?
    Mr. Cruzan. I certainly will, yes, ma'am.
    Senator Murkowski. I think we all recognize that we don't 
need to be robbing from those very, very limited and meager 
pots of funding that could be used to help our victims.
    Thank you, Mr. Chairman, and I apologize for going over.
    The Chairman. That is quite all right, very, very important 
questions that need to be answered.
    Mr. Godfrey, just to follow up a little bit on Senator 
Murkowski's questions, in your written testimony you said that 
more than half of all the people living in the Tanana Chiefs 
Conference Village are victims of violent crime, more than half 
are victims. And also more than half of all people in the 
villages are perpetrators of the crime. It is an interesting 
level of crime in the community to have more than half of both 
perpetrator and more than half as victims.
    Based on your experience, do you think we could decrease 
crime, the victimization and the criminal behavior as well by 
expanding access to crime victim services or a better way to 
deal with this? It just seems an amazing situation at hand.
    Mr. Godfrey. It is remarkable. And when you look at that, 
implicit in that percentage of victims and perpetrators is 
those victims become perpetrators, obviously. Intervention at a 
younger age and education at a younger age, especially in the 
isolated communities where it is harder for information and 
specialists and advocates in those fields to have a presence, a 
consistent presence.
    I think a five-year old, four-year old, six, seven, eight, 
nine-year old, I didn't want to get into a policy discussion on 
this, but I think that if a child in that age range is educated 
about appropriate touch and inappropriate touch and what is 
acceptable and what is not, they don't then find it so easy to 
accept that behavior that is happening to them because an uncle 
or grandpa or their older brother or cousin or dad comes in 
their room once a week and does something like that.
    I would think it is stigmatized in rural parts of Alaska 
the way it is at large. Nobody would ever want to be called a 
pedophile. And yet the stigmatization that I think we 
throughout the Country generally see when someone has that 
label, a child abuser or something like that, it is kept so 
quiet in rural Alaska. I have seen numerous instances where the 
victim, when she was 13 or 14, and this has been going on since 
she was 6, say, well, my mom walked in and saw my cousin doing 
it to me, but then she turned around and walked out. And 
another time she walked in and saw my grandpa, turned around 
and walked out. And one time I brought it up and she said, we 
don't talk about that. We don't talk about that.
    I have also seen where an older woman told her child, it 
happened to me, it happens to all of us. That is not something 
you talk about. You just live, you will be fine just like me. 
And I am looking at those in police reports, when I am 
adjudicating these claims.
    So I feel like intervening at a younger age, before it 
becomes not embraced, but tolerated by young children, that 
that is just the way life is.
    The Chairman. The follow-up question is, Judge Barker 
Harrold, as you opened your testimony, you said that you were a 
victim and now here you are as a judge. Your written testimony 
refers to the risk of revictimization. I want to ask if you 
could describe in a little more detail how and why the gaps in 
victim services so often lead to this revictimization.
    Ms. Harrold. When there is not victim services people in a 
community, there is no one to help them. I have worked with a 
lot of Alaska Native groups. In remote villages in Alaska, for 
example, a lot of times those crimes don't get reported because 
it is a small village and sometimes they get intimidated by 
others that don't want to report it. Because going out to a 
remote village can take 24 hours or 48 hours depending on the 
weather.
    But the same thing is true in a lot of the lower 48 as 
well, because if they know there is no victim services and no 
one to help them get protection, and it is not a negative to 
law enforcement, law enforcement is focused on arresting and 
investigating more than working with crime victims because of 
what they do, that would be a helpful thing to have, a 
collaboration, have an advocate work with law enforcement to 
have that.
    But if people know that there are no services available, 
they are not going to repot it because they don't know how it 
is going to happen.
    The Chairman. Senator Murkowski, did you have a follow-up?
    Senator Murkowski. Very quickly, Mr. Chairman. And it is a 
follow-up to a comment Mr. Godfrey just made about awareness 
and teaching children, our young people, about what is 
acceptable, what is not acceptable. A little bit of controversy 
right now in the State over legislation that is being 
considered. I know the Governor is very support of this, Erin's 
Law.
    How important do you think legislation like that, that 
effectively puts in place sexual assault prevention education, 
so that we do have this awareness?
    Mr. Godfrey. I think that is extremely valuable. I lived in 
Bethel as a child, I went to school in Bethel, I spent a number 
of years there. My father was a State trooper assigned to that 
post. I remember not learning about that good touch, bad touch 
stuff in elementary school there, when I reflect back.
    But I do remember when I moved to the urban area, Anchorage 
area, that they did have that as part of the curriculum, a 
short thing. It wasn't in-depth. But I do recall that a very 
young age friends of mine, in third and fourth grade, making 
comments that just shocked me, because I was kind of naive. I 
was a kid, I was innocent.
    And I asked a friend, why is your sister, because she had 
been held back from sixth grade, why is your sister so nice 
sometimes at recess, and then sometimes she just gets crazy for 
no reason? And he told me, I never forgot, because it was an 
eye opener for me at that age, he goes, she gets that way, her 
counselor said she's always going to be that way because a 
cousin and uncle raped her. So we just learn to put up with it. 
He was cavalier about it. And I was like, whoa, I have never 
known anyone who knew anyone that was raped before, in fourth 
grade. That wasn't as uncommon from that point forward in my 
life, living in Bethel.
    But going to school, moving to the Anchorage area, I didn't 
have classmates talk like that. I didn't have classmates 
bragging about things they said they were doing that third 
graders wouldn't do. Maybe you would say that when you are in 
high school.
    And then I moved to the urban area and my buddies were 
talking age appropriate. It was sort of strange.
    I do know we didn't have that type of education in Bethel, 
and that type of good touch, bad touch or whatever you want to 
call the curriculum. But if someone doesn't illuminate for 
young children, this is not right, don't allow this to happen 
to you, someone shouldn't treat you this way, and they spend 
most of their time in a household and the message is, this is 
happening to me, this must be what happens, and they don't talk 
about it.
    And by the way, Alaska Natives are culturally reserved 
people when it comes to communicating. So it is not like they 
are going to be predisposed to wanting to talk about it in any 
way. But if there is a cultural silence and keeping it behind 
closed doors, that is literally what they do. They leave the 
house and it is never talked about. When we go back home, that 
uncle, that brother, that grandfather, that father, does it. 
There are numerous victims I have come across that have been 
victimized by three or four different men in the community that 
she was related to. Those men typically were abused at some 
point when they were younger as well.
    The only thing I see that would combat that short of having 
the police living in a household, which is ridiculous, is you 
educate these kids and counter the message, that message that 
is happening in the household, the message through actions. 
Obviously the father is not saying, this is what I am going to 
do to you, he does it. Counter that in the educational 
environment where the State has access and where the tribes may 
have access to those children to create some sort of tension 
between the action taking place in the household, behind closed 
doors, and what society should find acceptable.
    Senator Murkowski. Mr. Chairman, thank you for allowing me 
to ask another question. I think that given the statistics that 
we face in our State and really as you look at Indian Country 
across the Country, it would seem to me that we would be 
doubling down on our efforts to focus on the prevention, to 
focus on the awareness, as whole communities, starting with our 
young people, letting them know that this is not acceptable, 
that you do not have to tolerate that. And that it is okay to 
talk about it, because it is as we talk about it that the 
victims will heal and those who are perpetrators will know that 
this is not acceptable and it will not be allowed in our 
communities.
    So there is a lot of discussion about whether or not we 
should require this in our schools. Until we can turn our 
statistics around in the State, I think we have to. Because in 
some of our small communities, where our school boards are 
making these decisions, it may be that some of those school 
board members are part of our problem. And they don't want to 
see these things, prevention, education, included in the 
schools.
    It is one small thing that we can be doing.
    Mr. Godfrey. Senator, if I may add briefly, you nailed it 
right there. There are people with a vested interest in a small 
community, because if they are not perpetrating it themselves, 
they know their brother or their husband is, or they have a 
family member that is, and they don't want that seen in the 
light of day, they don't want the troopers coming in and taking 
them.
    My fellow panelists discussed that, the small community 
dynamic at work, even if I want to, even if you strike when the 
iron is hot and you want to get law enforcement and you get 
that person when they are willing to, the dynamic of familial 
ties in those small communities, often there are two or three 
dominant family names. And when you put report this person, 
half or more of that community will turn on you.
    I have seen cases where moms or grandmothers say, if you 
report it, you know those families aren't going to take you to 
fish camp and they are not going to bring you berries in the 
fall. How are you going to feed the kids this fall when he is 
incarcerated if you do that? Using mental coercion and 
manipulation to keep them from doing that.
    Senator Murkowski. You are speaking truth.
    Ms. Harrold. One more thing about your question about 
revictimization, Chairman, is that if an offender isn't held 
accountable, they think they can go ahead and keep doing that. 
So that happens a lot.
    When I was a victim in the 1970s, I went through domestic 
violence for three years. There was no services or anything and 
I didn't know who could help. There was no shelter or anything 
like that, like the services there are now.
    There is also years, centuries ago, many years ago where it 
was not uncommon for people, women to get raped or molested or 
something when they were younger, and then as they got older, 
those victims, sometimes they say to their children or 
grandchildren, that happened to me, you just expect to be raped 
at least once before you get 18. So sometimes that is a bad 
message because there has been no services to address those.
    So that is different ways how revictimization occurs and 
having services, victim services in communities and tribal 
communities and people know that they are available, helps to 
give those victims a way to seek assistance and get relief and 
healing and hold offenders accountable.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Chairman Stafne, you have been here listening to all of 
this. I just want to ask a question about your written 
testimony, referring to substance and alcohol abuse as major 
drivers of the significant rise in violent crime at Fort Peck 
and elsewhere. Are there specific services that you think would 
be most helpful in cases where the substance abuse is leading 
to part of this victimization?
    Mr. Stafne. Absolutely, yes. And we do have success 
stories, I guess. But they are rare. I get very discouraged at 
the number of people that go to treatment. As soon as they get 
out of treatment, or maybe that very night, we see them out 
there tipping the bottle again, probably with drugs. Drugs are 
more secretive, they are not like alcoholics.
    But every once in a while you get a good report. And we are 
staffed by persons who have gone to treatment and that 
treatment finally took effect on them. There are good people 
working to get the other alcoholics or abusers referred to 
them, that they need to create a new life, a new life for your 
family, your children.
    But it takes a lot of time, but we do have success stories, 
I am glad to report. We certainly employ the people, when they 
do come back, we try and give them gainful employment to help 
them. Sometimes it works. That is when it is a happy time, when 
you find somebody that it finally happens, and they realize 
that they need to change their life.
    The Chairman. Thank you. I appreciate your testimony, all 
of you. Mr. Cruzan, let me finish with you. First, you may have 
noted previously, with other chairmen, we would have an 
Administration person come to testify and then so frequently 
they would leave and not hear this compelling testimony. I want 
to thank you for listening so attentively.
    When Mr. Godfrey was talking, you were focused. I know it 
is not just you but your staff that is with you. I know you 
have taken these things to heart, what you have heard today. 
That is one of the things we have changed in this chairmanship, 
is to make sure that when people are here to testify, there is 
also an Administration person here at the table who will then 
stay to hear the stories that I think are so compelling. And 
you hear that from both sides of the aisle.
    I don't if you want to reflect a little bit on what you 
have heard, what you are going to take away from today's 
hearing. I was impressed with how focused you were on listening 
to these three experts who know this better than any of us and 
had a message to share. I am glad that you and your staff heard 
it.
    Mr. Cruzan. Thank you, Chairman. I can sum it up in my 
philosophy. The people closest to the issues most of the time, 
almost every time, are going to know the solution, are going to 
have the solution to the problem, if the people in the 
positions with the ability to help will ask.
    So I think that is what we do. I don't think it is a 
Federal Government solution alone, I don't think it is a State 
government solution alone. I don't think it is a tribal 
government solution alone. I think we are better when we work 
together. And that is the philosophy that we have.
    I thank you for holding this hearing and I look forward to 
working closely with my partners here and the Committee to 
address this issue. It is without question, the Committee is on 
target. Victims in Indian Country and again, I don't need to 
tell you that, we have heard it, it is staggering.
    I am very honored to have been here today.
    The Chairman. I want to thank all of you for your 
testimony. Members can also submit questions, and that may 
occur as other members who weren't able to be here heard what 
went on today, they may also submit follow-up questions. The 
hearing record will remain open for two weeks. I want to thank 
all of you for your time, your testimony. The hearing is 
adjourned.
    [Whereupon, at 4:10 p.m., the hearing was adjourned.]

                            A P P E N D I X

Prepared Statement of Hon. Darla LaPointe, Chairwoman, Winnebago Tribal 
                                Council
    Dear Senator Barrasso and Senator Tester:
    On behalf of the Winnebago Tribe of Nebraska, I submit these 
remarks in advance of the Senate Committee on Indian Affairs' June 10, 
2015 oversight hearing addressing the need for victim services in 
Indian Country. I ask for the support of the Committee in helping crime 
victims in our tribal communities get the services they need and 
deserve but currently lack. The Committee can do this by supporting 
legislative language to ensure an allocation from the Crime Victims 
Fund each year for federally recognized tribes. Doing so will make the 
Crime Victim Fund available to Native American crime victims, improving 
their life-chances and the well-being of their families and 
communities.
Adequate Funds Means Consistent Funds
    Consistent as well as adequate funding is sorely needed to help 
crime victims and their communities in Indian Country. Unlike state and 
territorial governments, tribes can only access the Crime Victims Fund 
through state pass-through grants or limited grants from the Department 
of Justice. But last year the states passed-through less than 0.2 
percent of CVF funding, and only to 20 tribes. With 566 federally 
recognized tribes in the United States, this meant that 96 percent of 
Indian Country lacked access to the Crime Victims Fund in FY 2014, 
despite its disproportionate need.
    True, some tribes had access to other funds for victim services 
programs. We at Winnebago, for example, received CTAS grants from the 
Children's Justice Act Partnership for Indian Communities Program and 
from the Comprehensive Tribal Victim Assistance Program in 2013 and 
2014. But those were the first such grants Winnebago had received since 
1996, and even they did not address all of our needs. To be adequate, 
funding for victim services must also be consistent. Without regular 
and predictable annual funding, the benefits from assisting crime 
victims in one year will be eroded or lost in the next.
Current Need
    The Winnebago Tribe is headquartered on the Winnebago Reservation 
in rural Nebraska, 20 miles south of Sioux City and 80 miles north of 
Omaha. Our 120,000 acre reservation is home to over 2500 tribal 
members, whose number is expected to double in the next 25 years.
Domestic Violence
    In January of this year 10 cases of domestic violence were reported 
in our community in addition to 5 cases of sexual violence (not 
including incidents involving children), 3 suicide attempts and 4 
sexual assaults. These are significant numbers in a community of our 
size.
    Few things disrupt our hearts, our homes and our communities more 
than domestic violence, whose effects reach beyond its immediate 
victims. If forced to leave home with their children, survivors of 
domestic violence face immediate challenges like finding a new housing, 
getting a new job, and ensuring their children's schooling stays on 
track. These challenges are never straightforward, and can involve a 
host of smaller needs: What good is temporary housing without dishes in 
the kitchen or blankets on the bed? How are survivors of domestic 
violence expected to travel to new jobs, especially in rural Nebraska? 
How, for that matter, can they get their children to and from school 
without taking time off from work?
    These are some of the victim services the Winnebago Tribe would 
like to provide to victims of domestic violence in our community. Right 
now we can't. At the moment we can only afford 3 staff members. Their 
dedication moves them to do double and triple duty sometimes, but also 
risks burning them out. Recruiting staff is also a challenge. Up till 
this year, the director of domestic violence services office had been 
vacant for two years.
    Other services don't go far enough. Our transitional housing 
assistance is only available for 30 days. That didn't help one young 
tribal member who was forced from her home with her 7 children by an 
abusive spouse, and who had to spend two months in a nearby women's 
shelter run by a local ministry. Our current program also offers no 
assistance in things like the rent deposit for a new home or other 
basic needs like silverware, dishes or furniture, the lack of which can 
worsen the emotional stress of victims and their families and compound 
their suffering.
Culturally Appropriate Healing Services
    At Winnebago, we currently have a single mental health counselor-
therapist to serve our tribe's 2500-plus members. That's clearly 
inadequate, both for the community's needs and for the counselor's own 
well-being. As valuable as non-Native programs can be, they also often 
focus on the individual at the expense of the community.
    In addition to the services of counseling professionals, we would 
like to see our victim services programs draw upon traditional 
spiritual resources. Sweat lodges, church support groups, ceremonials 
and other traditional practices not only help heal the individual 
victims, they help mend the fabric of our community tom apart by crime. 
The Department of Justice Office of Victim Services recognizes the 
importance of culturally relevant victim services, which have been 
successful throughout Indian Country. Funds should be made available 
not just to provide traditional healing practices like sweats and 
quilts, but to provide transportation when needed to make them 
available to those who need them. But again, given our rural location, 
transportation can loom large as an obstacle in implementing such 
programs successfully.
Conclusion
    Establishing an annual tribal allocation from the Crime Victims 
Fund will guarantee consistent and adequate funding for crime victim 
services within Indian Country. Knowing funding will be available each 
year will allow the Winnebago Tribe to plan ways to better serve the 
victims of crime and build a stronger community for the long run. In 
the short term it could mean adequate staffing for existing programs 
and new programs for needs that urgently need to be addressed, like 
transportation; housing assistance; legal aid and counseling. In the 
long term, it would allow us to develop new programs that are 
consistent with our community's traditional practices and beliefs, like 
spiritual healing; counseling for staff members who provide victim 
assistance; family violence services; appropriate training for service 
providers; and assisting victims of crime from our community who have 
to navigate legal processes and social services in surrounding, off-
reservation communities.
                                 ______
                                 
 Prepared Statement of Joye E. Frost, Director, Office for Victims of 
                   Crime, U.S. Department of Justice
    Chairman Barrasso, Vice-Chairman Tester and distinguished Members 
of the Committee, thank you for the opportunity to submit a statement 
for the record on behalf of the U.S. Department of Justice regarding 
the need for improved victim services in Indian Country. I am Joye 
Frost, Director of the Office for Victims of Crime (OVC) within the 
Department of Justice's Office of Justice Programs (OJP). Our mission 
is to strengthen our Nation's capacity to assist crime victims and to 
provide leadership in changing attitudes, policies, and practices to 
promote justice and healing for all victims of crime. OVC administers 
the Crime Victims Fund, an innovative method for using fines and 
penalties from federal criminals to fund services for victims.
    As the Committee is well aware, American Indian and Alaska Native 
populations suffer significantly higher crime rates than the rest of 
the Nation. \1\ Both Congress and the U.S. Department of Justice have 
recognized these pronounced needs. OVC has long administered the 
Comprehensive Tribal Victim Assistance Discretionary Grant Program to 
help tribes or develop, establish, and operate multidisciplinary, 
trauma-informed services for tribal victims of crime. Through the 
Children's Justice Act, OVC also provides funding to tribes to improve 
the investigation, prosecution and management of child abuse cases.
---------------------------------------------------------------------------
    \1\ Criminal Victimization, 2010, National Crime Victimization 
Survey Bulletin, September 2011, NCJ 235508 http://bjs.ojp.usdoj.gov/
content/pub/pdf/cv10.pdf.
---------------------------------------------------------------------------
    Starting in Fiscal Year 2010, these two programs became part of the 
Department's Coordinated Tribal Assistance Solicitation (CTAS) which 
offers tribes a more streamlined, comprehensive grant process. CTAS 
gives tribes the flexibility needed to better address their criminal 
justice and public safety needs. In Fiscal Year 2014, the Department 
awarded CTAS grants to 169 American Indian tribes, Alaska Native 
villages, tribal consortia and tribal designees. The grants provide 
more than $87 million to enhance law enforcement practices and sustain 
crime prevention and intervention efforts in nine purpose areas 
including public safety and community policing; justice systems 
planning; alcohol and substance abuse; corrections and correctional 
alternatives; violence against women; juvenile justice; and tribal 
youth programs.
    Even with our long-standing efforts we know that victims in Indian 
Country remain chronically underserved. \2\ That's why Indian Country 
is a key component of OVC's VISION 21 Initiative, a nationwide effort 
to expand the vision and impact of the victim assistance field in the 
21st century. In 2013, OVC released VISION 21: Transforming Victim 
Services Final Report, the first comprehensive assessment of the victim 
assistance field in nearly 15 years. The report was a product of a 
broad spectrum of service providers, advocates, criminal justice 
professionals, allied practitioners, and policymakers who addressed 
crime victim issues through a broad range of perspectives.
---------------------------------------------------------------------------
    \2\ OVC Builds Capacity to Serve Crime Victims in Indian Country, 
Office for Victims of Crime Fact Sheet, http://www.ovc.gov/pubs/
TribalVictimsofCrime/intro.html.
---------------------------------------------------------------------------
    The report stated that ``Among those most in need of support are 
American Indians and Alaska Natives,'' and further emphasized ``the 
urgency of finding ways to deliver services more successfully or, in 
the case of legal assistance, to deliver services at all. Complex 
jurisdictional issues, along with the cultural diversity of tribes and 
the basic reality of geography, pose a significant challenge. Rural 
Indian reservations may cover vast areas, and the villages of many 
Alaska Natives may be remote, even inaccessible, in winter.'' The 
report recognized the need to provide adequate support for victim 
assistance in Indian Country.
    OVC has acted on the report's recommendations. In FY 2014, we 
awarded grants through VISION 21 to the Blackfeet Tribal Business 
Council; the Tulalip Tribes of Washington; and Wiconi Wawokiya, which 
serves the Crow Creek reservation, for tribal community wellness 
centers. These centers will go beyond the traditional model of victim 
assistance to draw on tribal culture and traditions in developing a 
more comprehensive community-oriented strategy. The strategy will 
include a full range of intervention, treatment, health and wellness, 
prevention, educational and economic development, and cultural 
resources.
    In FY 2015 OVC issued a solicitation for the Vision 21: Tribal 
Victim Services Resource Mapping Project. This program addresses a 
critical barrier preventing tribal crime victims from receiving 
services--a lack of information. Our grantee will collect information 
about services available to American Indian and Alaskan Native crime 
victims at all levels, including tribal, state, regional and federal. 
The grantee will then develop this data into a state-of-the-art mapping 
and referral tool, which will be available to the public. OVC is also 
providing over $13.6 million in discretionary grant funding to tribes 
and tribal NGOs through CTAS in FY 2015.
    Additionally OVC is directing over $830,000 to the BIA for victim 
assistance positions and almost $3.5 million to tribal NGOs to support 
training, technical assistance and capacity building this fiscal year. 
OVC continues to support numerous innovative demonstration projects in 
Indian Country, ranging from telemedicine to increase sexual assault 
victims' access to expert medical forensic care to mental health and 
culturally appropriate services for students in Flandreau Indian School 
to a tribal liaison project in Oklahoma that has increased the number 
of tribal applications for VOCA formula funding as well as compensation 
claims from tribal communities.
    Through a statutory funding set-aside, OVC provides critical 
support to crime victims in Indian Country through FBI Victim 
Assistance Specialists, as well as staff in local U.S. Attorney's 
Offices (USAOs). In 2010, OVC increased funding to the FBI Office of 
Victim Assistance to support 12 additional positions in Indian Country; 
in 2015, OVC is funding seven additional positions dedicated solely to 
Indian Country and five positions dedicated to serving Indian Country 
part-time. OVC is also providing the Executive Office for United States 
Attorneys EOUSA funding this fiscal year for 12 additional positions 
specifically to serve Indian Country.
    Our sister grant-making component, the Department's Office on 
Violence Against Women (OVW), also provides funding for tribes and 
victim services in Indian Country through three tribal programs 
authorized by the Violence Against Women Act and subsequent 
legislation. First, the Tribal Governments Program, which is 
administered through CTAS, supports tribal efforts to respond to 
domestic violence, dating violence, sexual assault, and stalking; 
enhance victim safety; and develop education and prevention strategies. 
Second, the Tribal Sexual Assault Services Program supports tribal 
services for American Indian and Alaska Native sexual assault victims. 
Third, the Tribal Coalitions Program supports the development and 
operation of nonprofit, nongovernmental tribal organizations that 
provide education, support, and technical assistance to member Indian 
service providers and tribes to enhance their response to victims of 
domestic violence, dating violence, sexual assault, stalking, and sex 
trafficking. In FY 2014, with funding from these three programs as well 
as other OVW programs, OVW made 91 awards totaling over $46 million to 
tribes and tribal organizations.
    In addition, OVW provides technical assistance and training to 
tribes and tribal service providers to enhance their ability to serve 
victims of domestic violence, dating violence, sexual assault, 
stalking, and sex trafficking. Three of these projects illustrate these 
OVW-funded technical assistance initiatives. The National Indian 
Country Clearinghouse on Sexual Assault operates a website that 
provides a one-stop shop for information on sexual violence against 
American Indian and Alaska Natives and includes a toll-free helpline to 
provide personalized assistance to Indian Country justice and service 
professionals. The Southwest Center for Law and Policy's SAFESTAR 
project features a novel approach to providing sexual assault services 
in rural and geographically remote areas by training community-based 
lay health care providers (such as traditional midwives, medicine 
people, and community health aides) to collect and preserve forensic 
evidence in sexual assault cases, triage sexual assault-related 
injuries and health concerns, and provide referrals to sexual assault 
services. The Tribal Law and Policy Institute provides training and 
technical assistance to tribal coalitions to increase their capacity to 
address sexual assault and sex trafficking in their communities.
    The Department also helps tribal victims of crime by implementing 
the Violence Against Women Reauthorization Act of 2013 (VAWA 2013), 
which is a high priority. A key provision of VAWA 2013 is the special 
domestic violence jurisdiction for qualifying tribes. The Department, 
along with agency partner the Bureau of Indian Affairs, has worked with 
tribes to help those seeking to assert jurisdiction under the ``special 
domestic violence criminal jurisdiction.'' The effective date of the 
provisions authorizing qualifying tribes to exercise this jurisdiction 
throughout Indian Country was March 7, 2015. However, the Act provided 
for pilot projects prior to that date.
    In short, the United States continues to prosecute domestic 
violence and violent crime in Indian Country--including the enforcement 
of the new VAWA 2013 assault charges--but it also promotes and 
encourages tribal prosecutors to bring domestic violence charges in 
their own courts when appropriate.
    To that end, collaboration between the United States Attorneys' 
offices and tribal prosecutors' offices is continuous and essential. 
The Department's enhanced Tribal Special Assistant United States 
Attorney (SAUSA) program continues to be an important tool contributing 
to improved collaboration. Tribal SAUSAs, who are cross-deputized 
tribal prosecutors, are able to prosecute crimes in both tribal court 
and federal court as appropriate. These Tribal SAUSAs serve to 
strengthen a tribal government's ability to fight crime and to increase 
the USAO's coordination with tribal law enforcement personnel. The work 
of Tribal SAUSAs also helps to accelerate tribal criminal justice 
system's implementation of the Tribal Law and Order Act and VAWA 2013.
    Our commitment to crime victims in Indian County and to improving 
tribal public safety and criminal justice comes through loud and clear 
in the FY 2016 President's Budget for the Department of Justice. It 
includes a 7 percent set-aside from OJP's discretionary funds to be 
made available for grant or reimbursement programs for flexible tribal 
justice assistance grants. The set-aside will provide a consistent 
source of significant, tribal-specific grant funding that can be 
distributed through a flexible tribal assistance grants model based on 
the lessons learned from CTAS. It will also allow OJP increased 
flexibility in awarding funds and streamlining reporting requirements. 
The funding provided by the set-aside will enable the tribes to focus 
on identifying their most important criminal justice priorities and 
developing innovative, evidence-based responses to address these 
priorities. Based on the funding levels requested in the FY 2016 
President's Budget, OJP estimates that this set-aside will provide 
$114.4 million to support new and existing tribal justice assistance 
programs in FY 2016.
    The FY 2016 President's budget also includes $20 million from the 
Crime Victims Fund for tribal assistance to continue and expand on our 
efforts to act on the VISION 21 recommendations. This would greatly 
enhance our work with our tribal partners and the OVW to develop 
evidence-based, culturally appropriate victims' services programs for 
the nation's tribal communities.
    Furthermore, the FY 2016 President's budget requests $5 million for 
a new tribal Special Domestic Violence Criminal Jurisdiction program 
authorized by Congress in VAWA 2013. This program would provide grants 
to tribal governments and their designees to support tribal efforts to 
exercise special domestic violence criminal jurisdiction over non-
Indian offenders who commit violence against Indian spouses, intimate 
partners or dating partners, or who violate protection orders, in 
Indian Country. The Department needs this program to assist tribes in 
implementing the tribal provisions of VAWA 2013; the funds may be used 
by tribes to implement a broad range of criminal justice reforms, 
including updating criminal codes, providing counsel to indigent 
defendants, and supporting victims.
    The Department of Justice, OJP, and OVC will not waiver in their 
dedication to improving the lives of crime victims in Indian Country, 
and we would welcome any discussion of how our efforts can be improved.
    This concludes my statement, Mr. Chairman. Thank you for the 
opportunity to submit this statement on behalf of the U.S. Department 
of Justice.
                                 ______
                                 
Prepared Statement of Robert Starbard, Tribal Administrator/CEO, Hoonah 
                           Indian Association
    Dear Chairman Barrasso,
    Thank you for the opportunity to provide written comments regarding 
the Oversight Hearing on ``Addressing the Needs for Victim Services in 
Indian Country'' held on June 10, 2015. Hoonah Indian Association, a 
federally recognized tribe, respectfully requests that 42 U.S.C. 10602 
(b) be amended to include, ``Federally recognized Indian tribes'' as 
eligible for the Victim Crimes Compensation fund. It is further our 
request that a minimum of 10 percent of authorized funds be 
Congressionally appropriated to American Indian and Alaska Native 
Tribal governments for the reasons described below.
A Change to VOCA is needed to Support Local Tribal Responses to High 
        Crime Rates on Tribal Lands as Recommended by the Indian Law & 
        Order Commission Report, ``A Roadmap for Making Native America 
        Safer''
    American Indian and Alaska Natives experience the highest crime 
victimization rates in the country.

  <bullet> American Indian and Alaska Natives are 2.5 times more likely 
        to experience violent crime than other Americans.

  <bullet> Approximately 34 percent of American Indian and Alaska 
        Native women are raped and 61 percent are assaulted in their 
        lifetime. One some reservations, the murder rate is 10 times 
        the national average.

  <bullet> Due to exposure to violence, Native children experience 
        rates of post-traumatic stress disorder at the same levels as 
        Iraq and Afghanistan war veterans.

    Despite these devastating rates of victimization in tribal 
communities, Indian tribes have largely been left out of the Crime 
Victims Fund (CVF), which is the federal government's principle means 
of providing resources for crime victims.
    It is beyond debate that Alaska Native women are suffering extreme 
rates of domestic violence and sexual assault--rates that are 
disproportionately higher than that suffered by other women in the 
state and across the nation. There is much work that needs to be done 
immediately to combat this crisis, to protect Alaska Native women from 
violence, to increase and strengthen local life-saving services and 
justice to Native women survivors of this violence. Providing essential 
accessible resources to Indian Tribes that reach the villages in Alaska 
will account for successful and fair administration of crime victim 
funding. It is also crucial for the equitable distribution of life-
saving resources to Alaska tribal governments.
    Unlike state and territorial governments, who receive an annual 
formula distribution from the CVF, Indian tribes are only able to 
access CVF funds via pass-through grants from the states or by 
competing for very limited resources administered by the U.S. 
Department of Justice. According to data from the Office for Victims of 
Crime, in 2014, the states passed through $872,197.00--0.2 percent of 
available funds--to programs serving tribal victims. Of the 566 
federally recognized tribes in the country, fewer than 20 received pass 
through grants from their respective state. It is painfully obvious 
that the current method of distributing federal victim services funding 
is not working for the 229 tribes in Alaska.
    The competitive grants from USDOJ have been equally problematic. 
Fewer than ten tribes receive these grants each year for a three-year 
term, with no guarantee that this funding will be renewed. 
Unfortunately, without additional action by Congress, Indian tribal 
governments will continue to have no direct access to critical CVF 
funds.
Appropriate Funding is needed to provide adequate Native Village-based 
        Services
    The villages in Alaska experience high victimization rates, 
geographic remoteness, high poverty and cost of living, and an 
underdeveloped Alaska Native village-based victim services 
infrastructure that is the result of the historic exclusion of tribes 
from the CVF programs. While we know need is high, it is difficult to 
calculate the precise amount needed to fully meet the needs of victims 
in Alaska Native villages. Below are some examples of funding needs for 
tribal victim services and how CVF funds could be spent.
Tribal Domestic Violence and Sexual Assault Services
    Native American women are assaulted at rates two and a half times 
the national average. Alaska Native women are disproportionately 
victimized at the highest rates across the country. According to the 
Indian Law and Order Commission report, A Roadmap for Making Native 
America Safe, Chapter 2, Reforming Justice for Alaska Natives: The Time 
Is Now, Alaska Native women are ``over-represented in the domestic 
violence victim population by 250 percent; they comprise 19 percent of 
the population, but 47 percent of reported rape victims.''
    While some tribes provide services for domestic violence and sexual 
assault victims, resources for doing so are woefully inadequate. NEED: 
For FY 2014, the USDOJ's Office on Violence Against Women received 
applications from tribal governments requesting approximately $55.6 
million for domestic violence and sexual assault services in its two 
primary tribal grant programs. OVW provided $33.26 million, suggesting 
an unmet need of at least $22 million.
Tribal Domestic Violence Shelters
    There are currently fewer than 40 tribal domestic violence shelters 
in operation. In the State of Alaska, there is only one Native village-
based Native women's shelter located in the entire state--the Emmonak 
Women's Shelter, which has been operating since 1979 and has been 
woefully underfunded. More often than not, the Emmonak Women's Shelter 
has not received federal or state funding and remained operational with 
volunteer assistance and donations. Those programs that do exist 
reported an unmet need of over 60,000 shelter bed nights in 2013. NEED: 
Building a shelter program in an additional 50 villages and tribal 
communities at a cost of $300,000/year would cost $15 million.
Sexual Assault Forensic Examiners.
    The rate of sexual violence in Indian Country, including all of 
Alaska's tribes far exceeds rates of sexual violence in other 
communities in the United States. More than two-thirds of tribal lands, 
however, are more than 60 minutes away from the nearest sexual assault 
forensic examiner. With over 229 Indian tribes represented in Alaska, 
the vast majority of villages are located in the remote parts of Alaska 
where there are no roads; access is by boat, snow machine or airplane 
depending on climatic conditions. For Native women in Alaska, forensic 
exams typically are only located in hub regions, which means she must 
travel by plane to a major hub that may be over 200 air miles away. 
NEED: To fund one trained examiner in half of the 566 tribal 
communities at $50,000 for salary and benefits would cost $14 million.
Services for Sex Trafficking Victims
    Sex trafficking victims need specially designed services, including 
victim advocates to connect sexually exploited youth throughout the 
state with culturally appropriate support and services they need; 
shelters and housing; and training for criminal justice and child 
protective services professionals who come into contact with such 
victims.
    According to the State of Alaska Task Force on the Crimes of Human 
Trafficking, Promoting Prostitution and Sex Trafficking 2013 report, 
there is ``a lot of gaps in information due to the underground nature 
of the crime and the tendency of trafficking victims not to self-
report.'' Although lacking in data, the Task Force acknowledges that 
``trafficking have occurred (and likely are occurring) in Alaska, which 
is why the State of Alaska has gone to great lengths to create a task 
force to look at the prevalence of the crimes of human trafficking and 
sex trafficking in Alaska; the former Governor introduced an omnibus 
bill addressing trafficking (which strengthened penalties for 
trafficking); and in 2012 the Alaska legislature amended its sex and 
human trafficking statutes. NEED: To fund one trafficking advocate 
expert in half of the 566 tribal communities at $50,000 for salary and 
benefits would cost $14 million.
Services for the Survivors of Homicide Victims
    Services for the surviving spouses, children, and other affected 
family members and partners of the victims of homicides are rarely 
funded but sorely needed. Between 2004-2007, Alaska Natives were 2.5 
times as likely to die by homicide than Alaskans who reported ``White'' 
as their race, and 2.9 times as likely to die by homicide than all 
Whites in the United States.
    Much needed services include criminal justice advocacy, assistance 
in applying for victim compensation, funding to travel to trials that 
are out of state, legal assistance, financial counseling if the 
murdered victim was the sole provider, mental health counseling or 
other therapy, and similar services. NEED: Iowa is the rare state that 
has committed to supporting regional services for survivors of homicide 
and other violent crimes. In FY 2014, the state used $393,441 in 
federal grant funds to support 4 regional programs for survivors of 
homicide and other violent crimes. Creating 25 such programs for tribal 
victims would cost approximately $2.5 million.
There is Wide Support for a Creation of a Tribal Funding Stream from 
        the CVF
    Last year, NCAI, the largest national organization of American 
Indian and Alaska Native tribal governments, adopted Resolution ANC-14-
048 urging Congress to establish a 10 percent allocation from CVF 
disbursements for tribes.
    Recognizing the disproportionate need for victim services in tribal 
communities, the Office for Victims of Crime's Vision 21 report also 
called for increasing resources to tribal communities in order to 
``ensure that victims in Indian Country are no longer a footnote to 
this country's response to crime victims.''
    The USDOJ's report on American Indian and Alaska Native Children 
Exposed to Violence similarly called for a 10 percent tribal allocation 
from the CVF in its 2014 report. A 10 percent tribal allocation from 
the CVF has also been supported by the National Task Force to End 
Sexual and Domestic Violence, a coalition of more than a thousand 
organizations that advocate on behalf of victims of domestic violence, 
dating violence, sexual assault and stalking.
Conclusion
    No dedicated tribal funding stream currently exists under the VOCA 
for Indian tribes to administer programs to compensate and provide 
assistance to tribal victims of crime. This lack of funding to Indian 
tribes is unacceptable given the extremely high rates of violence 
including the severity of violence committed against tribal victims of 
crime. The USDOJ statistics document the well-known fact that violence 
against Indian women is more than double that of any other population 
of women; yet local services are lacking or do not exist in many tribal 
communities and Alaska Native villages. While states and territories 
receive an annual formula amount from the VOCA fund, the reality is 
that Indian tribes do not receive such an allocation and this must be 
remedied immediately. We urge an amendment to VOCA to direct 10 percent 
of the annual disbursement from the Crime Victims Fund to tribal 
governments. Thank you for this opportunity and for your leadership.
                                 ______
                                 
Prepared Statement of Hon. Thomas Rodriguez, Chairman, La Jolla Band of 
                            Luiseno Indians
    Dear Chairman Barrasso,
    Thank you for the opportunity to provide written comments regarding 
the Oversight Hearing on ``Addressing the Needs for Victim Services in 
Indian Country'' held on June ro, 2015. The La Jolla Band of Luiseno 
Indians respectfully requests that 42 U.S.C. 10602 (b) be amended to 
include, ``Federally recognized Indian tribes'' as eligible for the 
Victim Crimes Compensation fund and that a minimum of ro% of authorized 
funds be Congressionally appropriated to American Indian and Alaska 
Native Tribal governments for the following reasons described below.
A Change to VOCA is needed to Support Local Tribal Responses to High 
        Crime Rates on Tribal Lands as Recommended by the Indian Law & 
        Order Commission Report, ``A Roadmap for Making Native America 
        Safer''
    American Indian and Alaska Natives experience the highest crime 
victimization rates in the country.

  <bullet> American Indian and Alaska Natives are 2.5 times more likely 
        to experience violent crime than other Americans.

  <bullet> Approximately 34 percent of American Indian and Alaska 
        Native women are raped and 61 percent are assaulted in their 
        lifetime. One some reservations, the murder rate is 10 times 
        the national average.

  <bullet> Due to exposure to violence, Native children experience 
        rates of post-traumatic stress disorder at the same levels as 
        Iraq and Afghanistan war veterans.

    Despite these devastating rates of victimization in tribal 
communities, Indian tribes have largely been left out of the Crime 
Victims Fund (CVF), which is the federal government's principle means 
of providing resources for crime victims.
    It is beyond debate that Alaska Native women are suffering extreme 
rates of domestic violence and sexual assault--rates that are 
disproportionately higher than that suffered by other women in the 
state and across the nation. There is much work that needs to be done 
immediately to combat this crisis, to protect Alaska Native women from 
violence, to increase and strengthen local life-saving services and 
justice to Native women survivors of this violence. Providing essential 
accessible resources to Indian Tribes that reach the villages in Alaska 
will account for successful and fair administration of crime victim 
funding. It is also crucial for the equitable distribution of life-
saving resources to Alaska tribal governments.
    Unlike state and territorial governments, who receive an annual 
formula distribution from the CVF, Indian tribes are only able to 
access CVF funds via pass-through grants from the states or by 
competing for very limited resources administered by the U.S. 
Department of Justice. According to data from the Office for Victims of 
Crime, in 2014, the states passed through $872,197.00--0.2 percent of 
available funds--to programs serving tribal victims. Of the 566 
federally-recognized tribes in the country, fewer than 20 received pass 
through grants from the state, and smaller, resource challenged tribes, 
such as those in California and Alaska, too often don't have the 
capacity to compete for discretionary grant funding.
    The competitive grants from USDOJ have been equally problematic. 
Fewer than ten tribes receive these grants each year for a three-year 
term, with no guarantee that this funding will be renewed. 
Unfortunately, without additional action by Congress, Indian tribal 
governments will continue to have no direct access to critical CVF 
funds.
Appropriate Funding is needed to provide adequate Native Village-based 
        Services
    Tribes experience high victimization rates, geographic remoteness, 
high poverty, and an underdeveloped tribal-based victim services 
infrastructure that is the result of the historic exclusion of tribes 
from the CVF programs. While we know need is high, it is difficult to 
calculate the precise amount needed to fully meet the needs of tribal 
victims . Below are some examples of funding needs for tribal victim 
services and how CVF funds could be spent.
Tribal Domestic Violence and Sexual Assault Services
    Native American women are assaulted at rates two and a half times 
the national average. While some tribes provide services for domestic 
violence and sexual assault victims, resources for doing so are 
woefully inadequate. NEED: For FY 2014, the USDOJ's Office on Violence 
Against Women received applications from tribal governments requesting 
approximately $55.6 million for domestic violence and sexual assault 
services in its two primary tribal grant programs. OVW provided $33.26 
million, suggesting an unmet need of at least $22 million.
Tribal Domestic Violence Shelters
    There are currently fewer than 40 tribal domestic violence shelters 
in operation. In the State of California, we have three Native women's 
shelters--operated by the Round Valley Indian Tribes (Mendocino county) 
and the Strong Hearted Native Women's Coalition (San Diego and 
Riverside counties). Those programs that do exist reported an unmet 
need of over 6o,000 shelter bed nights in 2013. NEED: Building a 
shelter program in an additional 4 tribal communities at a cost of 
$300,000/year would cost $1,200,000.
Sexual Assault Forensic Examiners
    The rate of sexual violence in Indian Country, including all of 
Alaska's tribes far exceeds rates of sexual violence in other 
communities in the United States. More than two-thirds of tribal lands, 
however, are more than 60 minutes away from the nearest sexual assault 
forensic examiner and transportation services are often limited, if 
available at all. For Native women in Alaska, forensic exams typically 
are only located in hub regions, which means she must travel by plane 
to a major hub that may be over 200 air miles away. NEED: To fund one 
trained examiner in half of the 566 tribal communities at $50,000 for 
salary and benefits would cost $14 million.
Services for Sex Trafficking Victims
    Sex trafficking victims need specially designed services, including 
victim advocates to connect sexually exploited youth throughout the 
state with culturally appropriate support and services they need; 
shelters and housing; and training for criminal justice and child 
protective services professionals who come into contact with such 
victims. NEED: To fund one trafficking advocate expert in half of the 
566 tribal communities at $50,000 for salary and benefits would cost 
$14 million.
Services for the Survivors of Homicide Victims
    Services for the survivors of homicide victims are rarely funded 
but sorely needed, for surviving spouses, children, and other affected 
family members and partners.
    Much needed services include criminal justice advocacy, assistance 
in applying for victim compensation, funding to travel to trials that 
are out of state, legal assistance, financial counseling if the 
murdered victim was the sole provider, mental health counseling or 
other therapy, and similar services. NEED: Iowa is the rare state that 
has committed to supporting regional services for survivors of homicide 
and other violent crimes. In FY 2014, the state used $393,441 in 
federal grant funds to support 4 regional programs for survivors of 
homicide and other violent crimes. Creating 25 such programs for tribal 
victims would cost approximately $2.5 million.
There is Wide Support for a Creation of a Tribal Funding Stream from 
        the CVF
    Last year, NCAI, the largest national organization of American 
Indian and Alaska Native tribal governments, adopted Resolution ANC-14-
048 urging Congress to establish a 10 percent allocation from CVF 
disbursements for tribes. Recognizing the disproportionate need for 
victim services in tribal communities, the Office for Victims of 
Crime's Vision 21 report also called for increasing resources to tribal 
communities in order to ``ensure that victims in Indian Country are no 
longer a footnote to this country's response to crime victims.''
    The Attorney General's Task Force on American Indian and Alaska 
Native Children Exposed to Violence similarly called for a 10 percent 
tribal allocation from the CVF in its 2014 report. A 10 percent tribal 
allocation from the CVF has also been supported by the National Task 
Force to End Sexual and Domestic Violence, a coalition of more than a 
thousand organizations that advocate on behalf of victims of domestic 
violence, dating violence, sexual assault and stalking.
Conclusion
    No dedicated tribal funding stream currently exists under the VOCA 
for Indian tribes to administer programs to compensate and provide 
assistance to tribal victims of crime. This lack of funding to Indian 
tribes is unacceptable given the extremely high rates of violence 
including the severity of violence committed against tribal victims of 
crime. The USDOJ statistics document the well-known fact that violence 
against Indian women is more than double that of any other population 
of women; yet local services are lacking or do not exist in many tribal 
communities and Alaska Native villages. While states and territories 
receive an annual formula amount from the VOCA fund, the reality is 
that Indian tribes do not receive such an allocation and this must be 
remedied immediately. We urge an amendment to VOCA to direct 10 percent 
of the annual disbursement from the Crime Victims Fund to tribal 
governments. Thank you for this opportunity and for your leadership.
                                 ______
                                 
Prepared Statement of Carmen O'Leary, Director, Native Women's Society 
                          of the Great Plains
    Dear Chairman Barrasso,
    The following are the written comments from our organization, 
Native Women's Society of the Great Plains, regarding the Oversight 
Hearing on ``Addressing the Needs for Victim Services in Indian 
Country'' held on June 10, 2015. As a tribal organization that works 
directly with tribal victim service providers and tribal programs who 
work with victims of domestic violence, sexual assault, stalking, 
dating violence and other crimes, we see the devastating effects these 
crimes have on women and their loved ones. For victims to truly heal, 
it is critical that they have access to culturally appropriate crisis 
and recovery services, which can be made available to tribes and tribal 
programs under funding provided by the Crimes Victim Fund (CVF). For 
the following reasons described below, we ask that the unmet needs of 
victims on tribal lands be adequately reviewed and considered as a 
matter of public policy for long-term solutions and strategy that 
ensure that tribal victims of crimes are able to access the CVF.
A Change to VOCA Will Support Local Tribal Responses to High Crime 
        Rates on Tribal Lands
    American Indian and Alaska Natives experience the highest crime 
victimization rates in the country.


  <bullet> American Indian and Alaska Natives are 2.5 times more likely 
        to experience violent crime than other Americans. \1\

    \1\ Rennison, C. (2001). Violent Victimization and Race, 1993-98. 
U.S. DOJ, Bureau of Justice Statistics, March, (NCJ 176354).
---------------------------------------------------------------------------

  <bullet> Approximately 34 percent of American Indian and Alaska 
        Native women are raped and 61 percent are assaulted in their 
        lifetime. \2\ One some reservations, the murder rate is 10 
        times the national average. \3\

    \2\ Tjaden, P. & Thonennes. (2000). The Prevalence, Incidence, and 
Consequences of Violence Against Women: findings from the National 
Violence Survey Against Women. National Institute of Justice & the 
Centers for Disease Control & Prevention. http://www.ncjrs.gov/
txtfiles1/nij/183781.txt
    \3\ Ronet, Bachman, et al, Violence Against American Indian and 
Alaska Native Women and the Criminal Justice Response: What is Known 
(National Institute of Justice 2007).
---------------------------------------------------------------------------

  <bullet> Approximately 1 out of 10 American Indians 12 and older 
        become victims of violent crime annually. \4\
---------------------------------------------------------------------------
    \4\ 2004 report, American Indians and Crime, A BJS Statistical 
Profile, 1992-2002

    Despite these devastating rates of victimization in tribal 
communities, Indian tribes have largely been left out of the Crime 
Victims Fund (CVF), which is the federal government's principle means 
of providing resources for crime victims.
    Unlike state and territorial governments, who receive an annual 
formula distribution from the CVF, Indian tribes are only able to 
access CVF funds via pass-through grants from the states or by 
competing for very limited resources administered by the U.S. 
Department of Justice. The current method of distributing federal 
victim services funding to tribal governments is simply not working for 
the Tribes in the Great Plains area where the coalition's membership 
serve women. According to data from the Office for Victims of Crime, in 
2014, the states passed through $872,197.00--0.2 percent of available 
funds--to programs serving tribal victims. Of the 566 federally-
recognized tribes in the country, fewer than 20 received pass through 
grants from their respective state.
    The competitive grants from USDOJ have been equally problematic. 
Fewer than ten tribes receive these grants each year for a three-year 
term, with no guarantee that this funding will be renewed. 
Unfortunately, without additional action by Congress, Indian tribal 
governments will continue to have no direct access to critical CVF 
funds.
Appropriate Funding Will Help Provide Adequate Native Village-based 
        Services
    Indian Tribes experience high victimization rates, geographic 
remoteness, high poverty and cost of living, and an underdeveloped 
tribally based victim services infrastructure that is the result of the 
historic exclusion of tribes from the CVF programs. While we know need 
is high, it is difficult to calculate the precise amount needed to 
fully meet the needs of victims on tribal lands. Below are some 
examples of funding needs for tribal victim services and how CVF funds 
could be spent.
Tribal Domestic Violence and Sexual Assault Services
    Native American women are assaulted at rates two and a half times 
the national average. While some tribes provide services for domestic 
violence and sexual assault victims, resources for doing so are 
woefully inadequate.
Tribal Domestic Violence Shelters
    There are currently fewer than 40 tribal domestic violence shelters 
in operation. Those programs that do exist reported an unmet need of 
over 60,000 shelter bed nights in 2013.
Sexual Assault Forensic Examiners
    The rate of sexual violence in Indian Country, including all of 
Alaska's tribes far exceeds rates of sexual violence in other 
communities in the United States. More than two-thirds of tribal lands, 
however, are more than 60 minutes away from the nearest sexual assault 
forensic examiner.
Services for Sex Trafficking Victims
    Sex trafficking victims need specially designed services, including 
victim advocates to connect sexually exploited youth throughout the 
state with culturally appropriate support and services they need; 
shelters and housing; and training for criminal justice and child 
protective services professionals who come into contact with such 
victims.
Services for the Survivors of Homicide Victims
    Services for the survivors of homicide victims are rarely funded 
but sorely needed, for surviving spouses, children, and other affected 
family members and partners. Much needed services include criminal 
justice advocacy, assistance in applying for victim compensation, 
funding to travel to trials that are out of state, legal assistance, 
financial counseling if the murdered victim was the sole provider, 
mental health counseling or other therapy, and similar services.
There is Wide Support for a Creation of a Tribal Funding Stream from 
        the CVF
    Last year, NCAI, the largest national organization of American 
Indian and Alaska Native tribal governments, adopted Resolution ANC-14-
048 which supports an allocation from CVF disbursements for tribes.
    Recognizing the disproportionate need for victim services in tribal 
communities, the Office for Victims of Crime's Vision 21 report also 
called for increasing resources to tribal communities in order to 
``ensure that victims in Indian Country are no longer a footnote to 
this country's response to crime victims.'' \5\
---------------------------------------------------------------------------
    \5\ Office of Justice Programs, U.S. Department of Justice, Vision 
21: Transforming Victim Services Final Report, (Washington, DC: OVC, 
2014).
---------------------------------------------------------------------------
    The USDOJ's report on American Indian and Alaska Native Children 
Exposed to Violence similarly called for a tribal allocation from the 
CVF in its 2014 report. \6\
---------------------------------------------------------------------------
    \6\ Office of Justice Programs, United States Department of 
Justice, Attorney General's Advisory Committee on American Indian/
Alaska Native Children Exposed to Violence: Ending Violence so Children 
Can Thrive.
---------------------------------------------------------------------------
    A tribal allocation from the CVF has also been supported by the 
National Task Force to End Sexual and Domestic Violence, a coalition of 
more than a thousand organizations that advocate on behalf of victims 
of domestic violence, dating violence, sexual assault and stalking. \7\
---------------------------------------------------------------------------
    \7\ NTF Letter to Appropriators, April 15, 2015, available at 
http://4vawa.org/4vawa/2015/4/21/ntf-urges-for-increase-funding-for-
federal-programs-that-address-domestic-violence-sexual-assault-dating-
violence-and-stalking.
---------------------------------------------------------------------------
Conclusion
    No dedicated tribal funding stream currently exists under the VOCA 
for Indian tribes to administer programs to compensate and provide 
assistance to tribal victims of crime. This lack of funding to Indian 
tribes is unacceptable given the extremely high rates of violence 
including the severity of violence committed against tribal victims of 
crime. The USDOJ statistics document the well-known fact that violence 
against Indian women is more than double that of any other population 
of women; yet local services are lacking or do not exist in many tribal 
communities and Alaska Native villages. While states and territories 
receive an annual formula amount from the VOCA fund, the reality is 
that Indian tribes do not receive such an allocation and this must be 
remedied immediately. We request a policy shift that will provide for, 
through an amendment to VOCA, an annual disbursement from the Crime 
Victims Fund to tribal governments. Thank you for this opportunity to 
present a summary of recent findings on this issue and for your 
leadership.
                                 ______
                                 
Prepared Statement of Hon. Michael Sam, Chief, Native Village of Tetlin
    Dear Chairman Barrasso,
    Thank you for the opportunity to provide written comments regarding 
the Oversight Hearing on ``Addressing the Needs for Victim Services in 
Indian Country'' held on June 10, 2015. The Native Village of Tetlin 
respectfully requests that 42 U.S.C. 10602 (b) be amended to include, 
``Federally recognized Indian tribes'' as eligible for the Victim 
Crimes Compensation fund. It is further our request that a minimum of 
10 percent of authorized funds be Congressionally appropriated to 
American Indian and Alaska Native Tribal governments for the reasons 
described below.
A Change to VOCA is needed to Support Local Tribal Responses to High 
        Crime Rates on Tribal Lands as Recommended by the Indian Law & 
        Order Commission Report, ``A Roadmap for Making Native America 
        Safer''
    American Indian and Alaska Natives experience the highest crime 
victimization rates in the country.

  <bullet> American Indian and Alaska Natives are 2.5 times more likely 
        to experience violent crime than other Americans.

  <bullet> Approximately 34 percent of American Indian and Alaska 
        Native women are raped and 61 percent are assaulted in their 
        lifetime. One some reservations, the murder rate is 10 times 
        the national average.

  <bullet> Due to exposure to violence, Native children experience 
        rates of post-traumatic stress disorder at the same levels as 
        Iraq and Afghanistan war veterans.

    Despite these devastating rates of victimization in tribal 
communities, Indian tribes have largely been left out of the Crime 
Victims Fund (CVF), which is the federal government's principle means 
of providing resources for crime victims.
    It is beyond debate that Alaska Native women are suffering extreme 
rates of domestic violence and sexual assault--rates that are 
disproportionately higher than that suffered by other women in the 
state and across the nation. There is much work that needs to be done 
immediately to combat this crisis, to protect Alaska Native women from 
violence, to increase and strengthen local life-saving services and 
justice to Native women survivors of this violence. Providing essential 
accessible resources to Indian Tribes that reach the villages in Alaska 
will account for successful and fair administration of crime victim 
funding. It is also crucial for the equitable distribution of life-
saving resources to Alaska tribal governments.
    Unlike state and territorial governments, who receive an annual 
formula distribution from the CVF, Indian tribes are only able to 
access CVF funds via pass-through grants from the states or by 
competing for very limited resources administered by the U.S. 
Department of Justice. According to data from the Office for Victims of 
Crime, in 2014, the states passed through $872,197.00--0.2 percent of 
available funds--to programs serving tribal victims. Of the 566 
federally recognized tribes in the country, fewer than 20 received pass 
through grants from their respective state.
    The competitive grants from USDOJ have been equally problematic. 
Fewer than ten tribes receive these grants each year for a three-year 
term, with no guarantee that this funding will be renewed. 
Unfortunately, without additional action by Congress, Indian tribal 
governments will continue to have no direct access to critical CVF 
funds.
Appropriate Funding is needed to provide adequate Native Village-based 
        Services
    The villages in Alaska experience high victimization rates, 
geographic remoteness, high poverty and cost of living, and an 
underdeveloped Alaska Native village-based victim services 
infrastructure that is the result of the historic exclusion of tribes 
from the CVF programs. While we know need is high, it is difficult to 
calculate the precise amount needed to fully meet the needs of victims 
in Alaska Native villages. Below are some examples of funding needs for 
tribal victim services and how CVF funds could be spent.
Tribal Domestic Violence and Sexual Assault Services
    Native American women are assaulted at rates two and a half times 
the national average. Alaska Native women are disproportionately 
victimized at the highest rates across the country. According to the 
Indian Law and Order Commission report, A Roadmap for Making Native 
America Safe, Chapter 2, Reforming Justice for Alaska Natives: The Time 
Is Now, Alaska Native women are ``over-represented in the domestic 
violence victim population by 250 percent; they comprise 19 percent of 
the population, but 47 percent of reported rape victims.''
    While some tribes provide services for domestic violence and sexual 
assault victims, resources for doing so are woefully inadequate. NEED: 
For FY 2014, the USDOJ's Office on Violence Against Women received 
applications from tribal governments requesting approximately $55.6 
million for domestic violence and sexual assault services in its two 
primary tribal grant programs. OVW provided $33.26 million, suggesting 
an unmet need of at least $22 million.
Tribal Domestic Violence Shelters
    There are currently fewer than 40 tribal domestic violence shelters 
in operation. In the State of Alaska, there is only one Native village-
based Native women's shelter located in the entire state--the Emmonak 
Women's Shelter, which has been operating since 1979 and has been 
woefully underfunded. More often than not, the Emmonak Women's Shelter 
has not received federal or state funding and remained operational with 
volunteer assistance and donations. Those programs that do exist 
reported an unmet need of over 60,000 shelter bed nights in 2013. NEED: 
Building a shelter program in an additional 50 villages and tribal 
communities at a cost of $300,000/year would cost $15 million.
Sexual Assault Forensic Examiners
    The rate of sexual violence in Indian Country, including all of 
Alaska's tribes far exceeds rates of sexual violence in other 
communities in the United States. More than two-thirds of tribal lands, 
however, are more than 60 minutes away from the nearest sexual assault 
forensic examiner. With over 229 Indian tribes represented in Alaska, 
the vast majority of villages are located in the remote parts of Alaska 
where there are no roads; access is by boat, snow machine or airplane 
depending on climatic conditions. For Native women in Alaska, forensic 
exams typically are only located in hub regions, which means she must 
travel by plane to a major hub that may be over 200 air miles away. 
NEED: To fund one trained examiner in half of the 566 tribal 
communities at $50,000 for salary and benefits would cost $14 million.
Services for Sex Trafficking Victims
    Sex trafficking victims need specially designed services, including 
victim advocates to connect sexually exploited youth throughout the 
state with culturally appropriate support and services they need; 
shelters and housing; and training for criminal justice and child 
protective services professionals who come into contact with such 
victims.
    According to the State of Alaska Task Force on the Crimes of Human 
Trafficking, Promoting Prostitution and Sex Trafficking 2013 report, 
there is ``a lot of gaps in information due to the underground nature 
of the crime and the tendency of trafficking victims not to self-
report.'' Although lacking in data, the Task Force acknowledges that 
``trafficking have occurred (and likely are occurring) in Alaska, which 
is why the State of Alaska has gone to great lengths to create a task 
force to look at the prevalence of the crimes of human trafficking and 
sex trafficking in Alaska; the former Governor introduced an omnibus 
bill addressing trafficking (which strengthened penalties for 
trafficking); and in 2012 the Alaska legislature amended its sex and 
human trafficking statutes. NEED: To fund one trafficking advocate 
expert in half of the 566 tribal communities at $50,000 for salary and 
benefits would cost $14 million.
Services for the Survivors of Homicide Victims
    Services for the surviving spouses, children, and other affected 
family members and partners of the victims of homicides are rarely 
funded but sorely needed. Between 2004-2007, Alaska Natives were 2.5 
times as likely to die by homicide than Alaskans who reported ``White'' 
as their race, and 2.9 times as likely to die by homicide than all 
Whites in the United States.
    Much needed services include criminal justice advocacy, assistance 
in applying for victim compensation, funding to travel to trials that 
are out of state, legal assistance, financial counseling if the 
murdered victim was the sole provider, mental health counseling or 
other therapy, and similar services. NEED: Iowa is the rare state that 
has committed to supporting regional services for survivors of homicide 
and other violent crimes. In FY 2014, the state used $393,441 in 
federal grant funds to support 4 regional programs for survivors of 
homicide and other violent crimes. Creating 25 such programs for tribal 
victims would cost approximately $2.5 million.
There is Wide Support for a Creation of a Tribal Funding Stream from 
        the CVF
    Last year, NCAI, the largest national organization of American 
Indian and Alaska Native tribal governments, adopted Resolution ANC-14-
048 urging Congress to establish a 10 percent allocation from CVF 
disbursements for tribes.
    Recognizing the disproportionate need for victim services in tribal 
communities, the Office for Victims of Crime's Vision 21 report also 
called for increasing resources to tribal communities in order to 
``ensure that victims in Indian Country are no longer a footnote to 
this country's response to crime victims.''
    The USDOJ's report on American Indian and Alaska Native Children 
Exposed to Violence similarly called for a 10 percent tribal allocation 
from the CVF in its 2014 report. A 10 percent tribal allocation from 
the CVF has also been supported by the National Task Force to End 
Sexual and Domestic Violence, a coalition of more than a thousand 
organizations that advocate on behalf of victims of domestic violence, 
dating violence, sexual assault and stalking.
Conclusion
    No dedicated tribal funding stream currently exists under the VOCA 
for Indian tribes to administer programs to compensate and provide 
assistance to tribal victims of crime. This lack of funding to Indian 
tribes is unacceptable given the extremely high rates of violence 
including the severity of violence committed against tribal victims of 
crime. The USDOJ statistics document the well-known fact that violence 
against Indian women is more than double that of any other population 
of women; yet local services are lacking or do not exist in many tribal 
communities and Alaska Native villages. While states and territories 
receive an annual formula amount from the VOCA fund, the reality is 
that Indian tribes do not receive such an allocation and this must be 
remedied immediately. We urge an amendment to VOCA to direct 10 percent 
of the annual disbursement from the Crime Victims Fund to tribal 
governments. Thank you for this opportunity and for your leadership.
                                 ______
                                 
 Prepared Statement of Jane Root, Executive Director, Wabanaki Women's 
                               Coalition
    Dear Chairman Barrasso,
    Thank you for the opportunity to provide written comments regarding 
the Oversight Hearing on ``Addressing the Needs for Victim Services in 
Indian Country'' held on June 10, 2015. As a tribal organization that 
works directly with tribal victim service providers and/or tribal 
programs who work with victims of domestic violence, sexual assault, 
stalking, dating violence and other crimes, we see the devastating 
effects these crimes have on tribal victims and tribal communities in 
which they live. For victims to truly heal, it is critical that they 
have access to culturally appropriate crisis and recovery services, 
which can be made available to tribes and tribal programs under funding 
provided by the Crimes Victim Fund (CVF). For the following reasons 
described below, we ask that the unmet needs of victims on tribal lands 
be adequately reviewed and considered as a matter of public policy for 
long-term solutions and strategy that ensure that tribal victims of 
crimes are able to access the CVF.
A Change to VOCA Will Support Local Tribal Responses to High Crime 
        Rates on Tribal Lands
    American Indian and Alaska Natives experience the highest crime 
victimization rates in the country.


  <bullet> American Indian and Alaska Natives are 2.5 times more likely 
        to experience violent crime than other Americans. \1\

    \1\ Rennison, C. (2001). Violent Victimization and Race, 1993-98. 
U.S. DOJ, Bureau of Justice Statistics, March, (NCJ 176354).
---------------------------------------------------------------------------

  <bullet> Approximately 34 percent of American Indian and Alaska 
        Native women are raped and 61 percent are assaulted in their 
        lifetime. \2\ One some reservations, the murder rate is 10 
        times the national average. \3\

    \2\ Tjaden, P. & Thonennes. (2000). The Prevalence, Incidence, and 
Consequences of Violence Against Women: findings from the National 
Violence Survey Against Women. National Institute of Justice & the 
Centers for Disease Control & Prevention. http://www.ncjrs.gov/
txtfiles1/nij/183781.txt
    \3\ Ronet, Bachman, et al, Violence Against American Indian and 
Alaska Native Women and the Criminal Justice Response: What is Known 
(National Institute of Justice 2007).
---------------------------------------------------------------------------

  <bullet> Approximately 1 out of 10 American Indians 12 and older 
        become victims of violent crime annually. \4\
---------------------------------------------------------------------------
    \4\ 2004 report, American Indians and Crime, A BJS Statistical 
Profile, 1992-2002

    Despite these devastating rates of victimization in tribal 
communities, Indian tribes have largely been left out of the Crime 
Victims Fund (CVF), which is the federal government's principle means 
of providing resources for crime victims.
    Unlike state and territorial governments, who receive an annual 
formula distribution from the CVF, Indian tribes are only able to 
access CVF funds via pass-through grants from the states or by 
competing for very limited resources administered by the U.S. 
Department of Justice. The current method of distributing federal 
victim services funding to tribal governments is simply not working for 
the Tribes in the Great Plains area where the coalition's membership 
serve women. According to data from the Office for Victims of Crime, in 
2014, the states passed through $872,197.00--0.2 percent of available 
funds--to programs serving tribal victims. Of the 566 federally-
recognized tribes in the country, fewer than 20 received pass through 
grants from their respective state.
    The competitive grants from USDOJ have been equally problematic. 
Fewer than ten tribes receive these grants each year for a three-year 
term, with no guarantee that this funding will be renewed. 
Unfortunately, without additional action by Congress, Indian tribal 
governments will continue to have no direct access to critical CVF 
funds.
Appropriate Funding Will Help Provide Adequate Native Village-based 
        Services
    Indian Tribes experience high victimization rates, geographic 
remoteness, high poverty and cost of living, and an underdeveloped 
tribally based victim services infrastructure that is the result of the 
historic exclusion of tribes from the CVF programs. While we know need 
is high, it is difficult to calculate the precise amount needed to 
fully meet the needs of victims on tribal lands. Below are some 
examples of funding needs for tribal victim services and how CVF funds 
could be spent.
Tribal Domestic Violence and Sexual Assault Services
    Native American women are assaulted at rates two and a half times 
the national average. While some tribes provide services for domestic 
violence and sexual assault victims, resources for doing so are 
woefully inadequate. The USDOJ CTAS grants are highly competitive and 
can't begin to fund all the need for services in Indian Country.
Tribal Domestic Violence Shelters
    There are currently fewer than 40 tribal domestic violence shelters 
in operation. Those programs that do exist reported an unmet need of 
over 60,000 shelter bed nights in 2013. There are two Tribal Domestic 
and Sexual Violence shelters in Maine but there is need for two more as 
the Tribes are located hours from each other.
Sexual Assault Forensic Examiners
    The rate of sexual violence in Indian Country, including all of 
Alaska's tribes far exceeds rates of sexual violence in other 
communities in the United States. More than two-thirds of tribal lands, 
however, are more than 60 minutes away from the nearest sexual assault 
forensic examiner.
Services for Sex Trafficking Victims
    Sex trafficking victims need specially designed services, including 
victim advocates to connect sexually exploited youth throughout the 
state with culturally appropriate support and services they need; 
shelters and housing; and training for criminal justice and child 
protective services professionals who come into contact with such 
victims.
Services for the Survivors of Homicide Victims
    Services for the survivors of homicide victims are rarely funded 
but sorely needed, for surviving spouses, children, and other affected 
family members and partners. Much needed services include criminal 
justice advocacy, assistance in applying for victim compensation, 
funding to travel to trials that are out of state, legal assistance, 
financial counseling if the murdered victim was the sole provider, 
mental health counseling or other therapy, and similar services.
There is Wide Support for a Creation of a Tribal Funding Stream from 
        the CVF
    Last year, NCAI, the largest national organization of American 
Indian and Alaska Native tribal governments, adopted Resolution ANC-14-
048 which supports an allocation from CVF disbursements for tribes.
    Recognizing the disproportionate need for victim services in tribal 
communities, the Office for Victims of Crime's Vision 21 report also 
called for increasing resources to tribal communities in order to 
``ensure that victims in Indian Country are no longer a footnote to 
this country's response to crime victims.'' \5\
---------------------------------------------------------------------------
    \5\ Office of Justice Programs, U.S. Department of Justice, Vision 
21: Transforming Victim Services Final Report, (Washington, DC: OVC, 
2014).
---------------------------------------------------------------------------
    The USDOJ's report on American Indian and Alaska Native Children 
Exposed to Violence similarly called for a tribal allocation from the 
CVF in its 2014 report. \6\
---------------------------------------------------------------------------
    \6\ Office of Justice Programs, United States Department of 
Justice, Attorney General's Advisory Committee on American Indian/
Alaska Native Children Exposed to Violence: Ending Violence so Children 
Can Thrive.
---------------------------------------------------------------------------
    A tribal allocation from the CVF has also been supported by the 
National Task Force to End Sexual and Domestic Violence, a coalition of 
more than a thousand organizations that advocate on behalf of victims 
of domestic violence, dating violence, sexual assault and stalking. \7\
---------------------------------------------------------------------------
    \7\ NTF Letter to Appropriators, April 15, 2015, available at 
http://4vawa.org/4vawa/2015/4/21/ntf-urges-for-increase-funding-for-
federal-programs-that-address-domestic-violence-sexual-assault-dating-
violence-and-stalking.
---------------------------------------------------------------------------
Conclusion
    No dedicated tribal funding stream currently exists under the VOCA 
for Indian tribes to administer programs to compensate and provide 
assistance to tribal victims of crime. This lack of funding to Indian 
tribes is unacceptable given the extremely high rates of violence 
including the severity of violence committed against tribal victims of 
crime. The USDOJ statistics document the well-known fact that violence 
against Indian women is more than double that of any other population 
of women; yet local services are lacking or do not exist in many tribal 
communities and Alaska Native villages. While states and territories 
receive an annual formula amount from the VOCA fund, the reality is 
that Indian tribes do not receive such an allocation and this must be 
remedied immediately. We request a policy shift that will provide for, 
through an amendment to VOCA, an annual disbursement from the Crime 
Victims Fund to tribal governments. Thank you for this opportunity to 
present a summary of recent findings on this issue and for your 
leadership.
                                 ______
                                 
  Prepared Statement of Germaine Omish-Guachena, Executive Director, 
             Strong Hearted Native Women's Coalition, Inc.
    Dear Chairman Barrasso,
    Thank you for the opportunity to provide written comments regarding 
the Oversight Hearing on ``Addressing the Needs for Victim Services in 
Indian Country'' held on June 10, 2015. As a tribal organization that 
works directly with tribal victim service providers and/or tribal 
programs who work with victims of domestic violence, sexual assault, 
stalking, dating violence and other crimes, we see the devastating 
effects these crimes have on tribal victims and tribal communities in 
which they live. For victims to truly heal, it is critical that they 
have access to culturally appropriate crisis and recovery services, 
which can be made available to tribes and tribal programs under funding 
provided by the Crimes Victim Fund (CVF). For the following reasons 
described below, we ask that the unmet needs of victims on tribal lands 
be adequately reviewed and considered as a matter of public policy for 
long-term solutions and strategy that ensure that tribal victims of 
crimes are able to access the CVF.
A Change to VOCA Will Support Local Tribal Responses to High Crime 
        Rates on Tribal Lands
    American Indian and Alaska Natives experience the highest crime 
victimization rates in the country.


  <bullet> American Indian and Alaska Natives are 2.5 times more likely 
        to experience violent crime than other Americans. \1\

    \1\ Rennison, C. (2001). Violent Victimization and Race, 1993-98. 
U.S. DOJ, Bureau of Justice Statistics, March, (NCJ 176354).
---------------------------------------------------------------------------

  <bullet> Approximately 34 percent of American Indian and Alaska 
        Native women are raped and 61 percent are assaulted in their 
        lifetime. \2\ One some reservations, the murder rate is 10 
        times the national average. \3\

    \2\ Tjaden, P. & Thonennes. (2000). The Prevalence, Incidence, and 
Consequences of Violence Against Women: findings from the National 
Violence Survey Against Women. National Institute of Justice & the 
Centers for Disease Control & Prevention. http://www.ncjrs.gov/
txtfiles1/nij/183781.txt
    \3\ Ronet, Bachman, et al, Violence Against American Indian and 
Alaska Native Women and the Criminal Justice Response: What is Known 
(National Institute of Justice 2007).
---------------------------------------------------------------------------

  <bullet> Approximately 1 out of 10 American Indians 12 and older 
        become victims of violent crime annually. \4\
---------------------------------------------------------------------------
    \4\ 2004 report, American Indians and Crime, A BJS Statistical 
Profile, 1992-2002

    Despite these devastating rates of victimization in tribal 
communities, Indian tribes have largely been left out of the Crime 
Victims Fund (CVF), which is the federal government's principle means 
of providing resources for crime victims.
    Unlike state and territorial governments, who receive an annual 
formula distribution from the CVF, Indian tribes are only able to 
access CVF funds via pass-through grants from the states or by 
competing for very limited resources administered by the U.S. 
Department of Justice. The current method of distributing federal 
victim services funding to tribal governments is simply not working for 
the Tribes in the Great Plains area where the coalition's membership 
serve women. According to data from the Office for Victims of Crime, in 
2014, the states passed through $872,197.00--0.2 percent of available 
funds--to programs serving tribal victims. Of the 566 federally-
recognized tribes in the country, fewer than 20 received pass through 
grants from their respective state.
    The competitive grants from USDOJ have been equally problematic. 
Fewer than ten tribes receive these grants each year for a three-year 
term, with no guarantee that this funding will be renewed. 
Unfortunately, without additional action by Congress, Indian tribal 
governments will continue to have no direct access to critical CVF 
funds.
Appropriate Funding Will Help Provide Adequate Native Village-based 
        Services
    Tribal communities have sovereignty to establish tribal laws, 
however, California is a PL280state that requires state court 
participation. This Act transferred federal criminal jurisdiction tothe 
State of California without any resources to support the increased 
responsibility ofresponding to crimes occurring upon Indian lands. The 
impact upon the lives of Native womenon Indian reservations is the lack 
of adequate criminal and civil justice and culturally sensitiveservices 
to protect women. Often local and tribal law enforcement personnel are 
themselves notfamiliar with the myriad of jurisdictional issues, 
especially in relation to people living on theIndian reservations. As a 
result, many service professionals are confused or unsure of the 
uniquebarriers and challenges victims face when attempting to break 
free from a violent perpetrator.
    Strong Hearted Native Women's Coalition, Inc. was founded in 2005 
to bring awareness againstSexual Assault, Domestic Violence, Youth 
Violence, and Stalking in North County of the SanDiego County. Native 
women from the Indian reservations of Rincon, Pauma, Mesa Grande,Santa 
Ysabel, La Jolla, San Pasqual, Los Coyotes, Pala, and Inaja/Cosmit 
make-up our coalitionmembership. Over the years, our coalition has 
expanded to include tribes from all of SouthernCalifornia as well as 
other tribes throughout the state of California.
    Our coalition is a member organization of a newly formed national 
organization, the Alliance ofTribal Coalitions to End Violence, 
(ATCEV), which consists of all the OVW tribal coalitionsthroughout the 
country, allowing for a national resource. We are working in our 
communities toassist in the essential change needed to reduce Sexual 
Assault, Domestic Violence, YouthViolence, Human Trafficking, and 
Stalking to Native American women, their families, and theircommunity.
    Indian Tribes experience high victimization rates, geographic 
remoteness, high poverty and costof living, and an underdeveloped 
tribally based victim services infrastructure that is the result ofthe 
historic exclusion of tribes from the CVF programs. While we know need 
is high, it isdifficult to calculate the precise amount needed to fully 
meet the needs of victims on tribal lands.Below are some examples of 
funding needs for tribal victim services and how CVF funds couldbe 
spent.
Tribal Domestic Violence and Sexual Assault Services
    Native American women are assaulted at rates two and a half times 
the national average. While some tribes provide services for domestic 
violence and sexual assault victims, resources for doing so are 
woefully inadequate.
Tribal Domestic Violence Shelters
    There are currently fewer than 40 tribal domestic violence shelters 
in operation. Those programs that do exist reported an unmet need of 
over 60,000 shelter bed nights in 2013. Our coalition recently open our 
shelter doors in September of 2014 and has been full the whole time. We 
struggle to meet the needs of all our ``guests'' in our Kiicha House. 
We rely on very limited funding.
Sexual Assault Forensic Examiners
    The rate of sexual violence in Indian Country, including all of 
Alaska's tribes far exceeds rates of sexual violence in other 
communities in the United States. More than two-thirds of tribal lands, 
however, are more than 60 minutes away from the nearest sexual assault 
forensic examiner. Our coalition has been working with two Tribal SART 
working groups and we have been attempting to work with our local San 
Diego County Sheriff's Department and the San Diego District Attorney's 
office to work on a way to make this happen. We have the facilities and 
the equipment through both Indian Health Services facilities in San 
Diego County. Both the San Diego County Sheriff's Department and the 
San Diego District Attorney's office have given the working groups 
opposition in assisting us. This endeavor would give the County of San 
Diego two more SANE facilities in the county and would be located on 
the two reservations where the Indian Health facilities are located, 
which brings the SANE facility closer to our Native communities.
Services for Sex Trafficking Victims
    Sex trafficking victims need specially designed services, including 
victim advocates to connect sexually exploited youth throughout the 
state with culturally appropriate support and services they need; 
shelters and housing; and training for criminal justice and child 
protective services professionals who come into contact with such 
victims.
Services for the Survivors of Homicide Victims
    Services for the survivors of homicide victims are rarely funded 
but sorely needed, for surviving spouses, children, and other affected 
family members and partners. Much needed services include criminal 
justice advocacy, assistance in applying for victim compensation, 
funding to travel to trials that are out of state, legal assistance, 
financial counseling if the murdered victim was the sole provider, 
mental health counseling or other therapy, and similar services.
There is Wide Support for a Creation of a Tribal Funding Stream from 
        the CVF
    Last year, NCAI, the largest national organization of American 
Indian and Alaska Native tribal governments, adopted Resolution ANC-14-
048 which supports an allocation from CVF disbursements for tribes.
    Recognizing the disproportionate need for victim services in tribal 
communities, the Office for Victims of Crime's Vision 21 report also 
called for increasing resources to tribal communities in order to 
``ensure that victims in Indian Country are no longer a footnote to 
this country's response to crime victims.'' \5\
---------------------------------------------------------------------------
    \5\ Office of Justice Programs, U.S. Department of Justice, Vision 
21: Transforming Victim Services Final Report, (Washington, DC: OVC, 
2014).
---------------------------------------------------------------------------
    The USDOJ's report on American Indian and Alaska Native Children 
Exposed to Violence similarly called for a tribal allocation from the 
CVF in its 2014 report. \6\
---------------------------------------------------------------------------
    \6\ Office of Justice Programs, United States Department of 
Justice, Attorney General's Advisory Committee on American Indian/
Alaska Native Children Exposed to Violence: Ending Violence so Children 
Can Thrive.
---------------------------------------------------------------------------
    A tribal allocation from the CVF has also been supported by the 
National Task Force to End Sexual and Domestic Violence, a coalition of 
more than a thousand organizations that advocate on behalf of victims 
of domestic violence, dating violence, sexual assault and stalking. \7\
---------------------------------------------------------------------------
    \7\ NTF Letter to Appropriators, April 15, 2015, available at 
http://4vawa.org/4vawa/2015/4/21/ntf-urges-for-increase-funding-for-
federal-programs-that-address-domestic-violence-sexual-assault-dating-
violence-and-stalking.
---------------------------------------------------------------------------
    Law enforcement response to these shocking rates of domestic and 
sexual violence can be crucial to providing safety, resources, and 
protection for survivors and their families. An important foundation 
for an appropriate response by law enforcement is for peace offices to 
have a clear understand of PL 280 and its implications for their work 
in these communities. AB 373 (Medina) would have helped to ensure that 
officers who may be responding to calls for service on tribal lands 
have the information they need about PL 280. AB 373, would have 
required peace officers employed by the agency who work in, or adjacent 
to, Indian tribal lands, or who may be responsible for responding to 
calls for service on, or adjacent to, Indian tribal lands, to receive 
training on Public Law 280 (PL 280). We believe this is a common-sense 
requirement that will help increase safety for tribal victims and 
enhance law enforcement's response to these calls for service. In 2015 
our coalition helped to support Assembly Bill 373 (Medina), which did 
not pass because law enforcement does not want to pay for it and so 
they opposed this bill.
Conclusion
    No dedicated tribal funding stream currently exists under the VOCA 
for Indian tribes to administer programs to compensate and provide 
assistance to tribal victims of crime. This lack of funding to Indian 
tribes is unacceptable given the extremely high rates of violence 
including the severity of violence committed against tribal victims of 
crime. The USDOJ statistics document the well-known fact that violence 
against Indian women is more than double that of any other population 
of women; yet local services are lacking or do not exist in many tribal 
communities and Alaska Native villages. While states and territories 
receive an annual formula amount from the VOCA fund, the reality is 
that Indian tribes do not receive such an allocation and this must be 
remedied immediately. We request a policy shift that will provide for, 
through an amendment to VOCA, an annual disbursement from the Crime 
Victims Fund to tribal governments. Thank you for this opportunity to 
present a summary of recent findings on this issue and for your 
leadership.
                                 ______
                                 
 Prepared Statement of the National Congress of American Indians (NCAI)
    On behalf of the National Congress of American Indians (NCAI), we 
are pleased to present testimony to the Senate Committee on Indian 
Affairs on ``Addressing the Need for Victim Services in Indian 
Country.'' American Indians and Alaska Natives experience the highest 
crime victimization rates in the country. When crime occurs, victims 
and survivors have a variety of needs that may include mental health 
counseling, appropriate medical care, support during criminal justice 
proceedings, and emergency financial and housing assistance. Complex 
jurisdictional issues, along with the cultural diversity of tribes and 
the basic reality of geography, pose a significant challenge for crime 
victims in need of services in Indian Country. Since the passage of the 
Victims of Crime Act (VOCA) in 1984, the federal government has 
provided significant support to crime victim services programs across 
the country. As is unfortunately too often the case, Indian Country has 
largely been left out of this effort. Crime victims on tribal lands 
still struggle to access even the most basic services. As the Committee 
considers this important issue, we urge you to support amendments to 
VOCA that would appropriately recognize the important role tribal 
governments play in providing services to crime victims in their 
communities.
Crime Victims Fund
    Since its creation in 1984 through VOCA, the Crime Victims Fund 
(CVF) has been the federal government's primary funding source for 
supporting crime victim compensation and assistance. Each year millions 
of dollars are deposited into the fund from the penalties assessed 
against convicted criminals. The CVF was founded on the basic premise 
that money from federal criminals should be used to help crime victims. 
The VOCA statute allocates funds made available from the CVF for a host 
of purposes, including a small discretionary tribal grant program 
through the Children's Justice Act to improve the investigation and 
prosecution of child abuse cases in tribal communities. There is 
generally about $2.7 million available for 566 Indian tribes each year 
in this program. The bulk of CVF funds are distributed to state and 
territorial governments as a formula grant, which they then sub-grant 
to victim assistance programs in their jurisdiction. Tribal 
governments, however, do not receive a similar formula distribution 
from the CVF. Other than the tribal CJA program, Indian tribes are able 
to access CVF funds for victim services only via sub-grants from the 
states, or by competing for very limited resources that the Department 
of Justice chooses to make available from its discretionary allocation. 
Both of these mechanisms have failed to provide adequate funding for 
tribal victim services programs.
    NCAI recently submitted a request to the Office for Victims of 
Crime (OVC) under the Freedom of Information Act asking for information 
about sub-grants made by states to programs serving American Indian and 
Alaska Native victims over the past five years. NCAI received the 
attached spreadsheets in response, * which show that pass-through 
funding has proven wholly unsuccessful in distributing funds to tribal 
victim service providers. According to data from OVC, from 2010-2014, 
the states passed through 0.5 percent of available funds to programs 
serving tribal victims, less than $2.5 million annually. New Mexico, 
where American Indians make up 10.7 percent of the population, 
subgranted less than 1 percent of total available funds to programs 
serving Indian victims during that time period. Oklahoma, a state that 
is frequently held up as a place where the VOCA sub-grant process is 
working and where the Indian population is 12.9 percent, has never sub-
granted more than 5.5 percent of its funds to programs serving Indians 
victims. And in Alaska, where Alaska Natives make up 19.4 percent of 
the population, the state of Alaska reports that from 2010-2013 it sub-
granted between 0 and 3.9 percent of funds received through VOCA to 
programs serving Native victims. The vast majority of existing tribal 
victim service programs we have spoken to report that they are not able 
to access these funds at all.
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    Given that pass-through funding is not reaching tribal victims, 
tribal governments must largely rely upon the discretionary grant 
funding made available by OVC. OVC originally established a Victim 
Assistance in Indian Country (VAIC) discretionary grant program in 1989 
in response to revelations about multiple victim molestations 
perpetrated by Bureau of Indian Affairs teachers in several reservation 
communities. \1\ In attempting to identify services for the child 
victims, OVC realized that ``funding to on reservation victim 
assistance programs was virtually non-existent.'' \2\ VAIC funding was 
awarded for a three year period to state applicants who had partnered 
with tribal programs. OVC hoped that structuring the grant program to 
require state-tribal collaboration would help integrate tribal programs 
into the state VOCA programs and that the states would continue to fund 
the tribal programs after the federal grant ended. The states did not 
continue funding tribal programs at the conclusion of the three-year 
grant, however, and in 1998 OVC discontinued the failed pass-through 
model and began funding tribal programs directly. \3\ Today this 
program is known as the Comprehensive Tribal Victim Assistance Program 
(TVAP).
---------------------------------------------------------------------------
    \1\ CCAN, ``History of Federal Victim Assistance Services and 
Programs in Indian Country,'' Upon the Back of a Turtle, (1998), 
available at http://www.icctc.org/B-Ch%204%20victim%20asst%20svcs.pdf
    \2\ Id.
    \3\ Id.
---------------------------------------------------------------------------
    While the TVAP is an improvement over the pass-through model used 
previously, its success is hampered by the low level of funding 
available and the short-term discretionary nature of the grants. 
Approximately $3 million has been available annually through this 
program in recent years. Tribes must compete against one another to 
access these funds, and fewer than 10 tribes receive these grants each 
year for a three-year term, with no guarantee that this funding will be 
renewed. \4\ Too often when a grant ends, tribal programs must 
completely shut down. As the Committee considers this critical issue, 
our foremost request is that tribal victims services are not set up as 
another short-term grant program. Tribal governments need sustainable 
funding to meet the needs of victims into the foreseeable future, not a 
short-term program at risk of disappearing soon after it is fully 
established.
---------------------------------------------------------------------------
    \4\ OVC reports that with the significant increase in disbursements 
from the Crime Victims Fund for FY 2015 they will be funding 24 tribal 
programs for FY 2015, instead of the usual 8 programs. We anticipate 
that total funding will be about $10 million.
---------------------------------------------------------------------------
    Last year, NCAI adopted Resolution ANC-14-048 (attached) urging 
Congress to create an ``above-the-cap'' reserve in the Victims of Crime 
Act for tribal governments, or alternatively, to establish a 10 percent 
allocation from CVF disbursements for tribal governments. The Attorney 
General's Task Force on American Indian and Alaska Native Children 
Exposed to Violence similarly called for a 10 percent tribal allocation 
from the CVF in its 2014 report. \5\ A 10 percent tribal allocation 
from the CVF has also been supported by the National Task Force to End 
Sexual and Domestic Violence, a coalition of more than a thousand 
organizations that advocate on behalf of victims of domestic violence, 
dating violence, sexual assault and stalking. \6\ OVC has also 
recognized the disproportionate need for victim services in tribal 
communities. Its Vision 21 report singled out tribal communities and 
called for increasing resources in order to ``ensure that victims in 
Indian Country are no longer a footnote to this country's response to 
crime victims.'' \7\
---------------------------------------------------------------------------
    \5\ Office of Justice Programs, United States Department of 
Justice, Attorney General's Advisory Committee on American Indian/
Alaska Native Children Exposed to Violence: Ending Violence so Children 
Can Thrive, (Washington, D.C.: OJJOP, November 2014) (http://
www.washingtonpost.com/r/2010-2019/WashingtonPost/2014/11/17/Nati. . ., 
accessed June 8, 2015).
    \6\ NTF Letter to Appropriators, April 15, 2015, available at 
http://4vawa.org/4vawa/2015/4/21/ntf-urges-for-increasefunding-for-
federal-programs-that-address-domestic-violence-sexual-assault-dating-
violence-and-stalking.
    \7\ Office of Justice Programs, U.S. Department of Justice, Vision 
21: Transforming Victim Services Final Report, (Washington, DC: OVC, 
2014).
---------------------------------------------------------------------------
    In recent years, annual disbursements from the CVF have been about 
$700 million. Collections, however, reached as high as $2.8 billion in 
2013, leaving a balance in the fund of more than $13 billion. There has 
been significant pressure on Congress to make this money available for 
crime victims, and Congress significantly increased the disbursements 
from the CVF for FY 2015 to $2.3 billion. Despite this three-fold 
increase, none of the money was directed to Indian tribes. There is 
language in the FY 2016 Budget Resolution that will likely result in 
even higher disbursements this year. Without additional action by 
Congress, however, Indian tribal governments will continue to have no 
direct access to critical CVF funds, and victims in Indian Country will 
once again be left behind.
Need for Victims Services
    American Indians and Alaska Natives experience the highest rates of 
violent victimization in the country. The rate of aggravated assault 
among American Indians and Alaska Natives is roughly twice that of the 
country as a whole (600.2 per 100,000 versus 323.6 per 100,000). \8\ 
The Bureau of Justice Statistics has estimated that 1 out of 10 
American Indians 12 and older become victims of violent crime annually. 
\9\ At the same time, the historic lack of funding for tribal victims 
services programs means that the infrastructure for providing victims 
services in tribal communities is woefully underdeveloped. The services 
that are available are provided by a complicated and fragmented system 
that includes federal, state, tribal, and private actors. Programs 
struggle to find stable sources of funding and often close when grant 
funds run out. There is no comprehensive compilation of the services 
that are available in Indian Country, nor a comprehensive analysis of 
the gaps. The information that is available, however, makes clear that 
many of the most vulnerable Native victims do not have access to the 
services they need.
---------------------------------------------------------------------------
    \8\ Rennison, C. (2001). Violent Victimization and Race, 1993-98. 
U.S. DOJ, Bureau of Justice Statistics, March, (NCJ176354).
    \9\ 2004 report, American Indians and Crime, A BJS Statistical 
Profile, 1992-2002
---------------------------------------------------------------------------
Child Advocacy Centers
    Children's Advocacy Centers (CACs), for example, are a recognized 
best practice for providing a child-focused, multidisciplinary response 
to child abuse, especially child sexual abuse. Children who receive 
services at CACs are twice as likely to receive specialized medical 
exams and significantly more likely to receive referrals for 
specialized mental health treatment. \10\ American Indian and Alaska 
Native children are 50 percent more likely to experience child abuse 
and sexual abuse than white children. \11\ Due to exposure to violence, 
Native children experience post-traumatic stress disorder at a rate of 
22 percent--the same levels as Iraq and Afghanistan war veterans and 
triple the rate of the rest of the population. \12\
---------------------------------------------------------------------------
    \10\ Randall Cooper, ``Children's Advocacy Centers and Indian 
Country,'' Update: National Center for Prosecution of Child Abuse, vol. 
24, no 2 (2014), available at http://www.ndaa.org/pdf/
Update%20Vol24_No2.pdf.
    \11\ Children's Bureau, U.S. Department of Health and Human 
Services, Child Maltreatment 2011, 28 (2012). Rates of child 
maltreatment in certain states are even more alarming. According to 
data from the Department of Health & Human Services, Native children in 
Alaska experience maltreatment at a rate more than six and a half times 
the rate for white children. In North Dakota, the rate of maltreatment 
for Native children is more than three times the rate for white 
children.
    \12\ Attorney General's Advisory Committee on American Indian/
Alaska Native Children Exposed to Violence, supra note 3, at 38.
---------------------------------------------------------------------------
    Despite the increased victimization risk for Native American 
children, very few CACs exist on tribal lands. While some tribal 
communities may be served by CACs off the reservation, the average 
driving distance to a CAC from tribal lands is 62 miles. For more than 
100 tribal communities, the driving distance is between 100 and 300 
miles. \13\ For example, a child abuse victim on the Rosebud 
Reservation in South Dakota must travel two and a half hours across the 
state (or more in bad weather) to reach a CAC. \14\ Even where tribal 
CACs exist, tribes struggle to find stable funding to maintain the 
programs. For example, the Eastern Shoshone Tribe opened a CAC on the 
Wind River Reservation in 2013 after an existing CAC operated by the 
Northern Arapaho Tribe ran out of funding and closed. \15\ The new CAC 
is dependent on a three-year federal grant with no guarantee that 
funding will be renewed after the grant period ends.
---------------------------------------------------------------------------
    \13\ Randall Cooper, ``Children's Advocacy Centers and Indian 
Country,'' Update: National Center for Prosecution of Child Abuse, vol. 
24, no 2 (2014), available at http://www.ndaa.org/pdf/
Update%20Vol24_No2.pdf
    \14\ Id.
    \15\ Rebecca Martinez, ``Child Advocacy Center Opens on Wind River 
Reservation,'' Wyoming Public Media, January 24, 2013, available at 
http://wyomingpublicmedia.org/post/child-advocacy-center-opens-wind-
river-reservation.
---------------------------------------------------------------------------
Domestic Violence Shelters
    Nearly 61 percent of Native women are assaulted during their 
lifetime. One local study found that 1 in 12 Native women experience 
violence perpetrated by their husband every year. \16\ On some 
reservations, the murder rate of Native women is 10 times the national 
average. \17\ Domestic violence shelters provide essential services to 
victims of domestic violence. In addition to emergency housing for a 
woman and her children fleeing abuse, they often provide counseling, 
advocacy, legal services, and referrals to other services. There are 
currently fewer than 40 tribal domestic violence shelters in operation. 
Those programs that do exist struggle to find sufficient funding to 
maintain their operations. The domestic violence shelter on the Pine 
Ridge reservation, for example, closed 8 years ago. Advocates report 
that in order to access shelter, they must transfer victims-and often 
their children-at least 100 miles one way to a shelter in Rapid City. 
When shelter space is not available in Rapid City, advocates drive 
victims 700 miles to Sioux Falls. \18\
---------------------------------------------------------------------------
    \16\ R. Bachman, et al, ``Violence Against American Indian and 
Alaska Native Women and the Criminal Justice Response: What is Known,'' 
(2008), available at https://www.ncjrs.gov/pdffiles1/nij/grants/
223691.pdf.
    \17\ R. Bachman, et al, ``Violence Against American Indian and 
Alaska Native Women and the Criminal Justice Response: What is Known,'' 
(2008), available at https://www.ncjrs.gov/pdffiles1/nij/grants/
223691.pdf.
    \18\ Conversation with advocates from the Pine Ridge reservation on 
June 2, 2015 at the Women Are Sacred conference.
---------------------------------------------------------------------------
    The Emmonak Women's Shelter, the only domestic violence shelter 
located in an Alaska Native village, has faced similar challenges. Like 
so many victim services programs in Indian Country, the shelter is 
reliant on short-term, discretionary funding from the federal 
government in order to remain operational. This two-bedroom shelter 
serves 500 women a year from 13 surrounding Native communities. Given 
the geographic isolation of the region, it is generally the only option 
for local women seeking to escape abuse. In operation since 1978, the 
shelter was forced to temporarily close in 2005 after the state of 
Alaska eliminated funding for this and a number of other rural services 
for Alaska Natives. Even while closed, battered women sought refuge 
there. Met with locked doors, women climbed surrounding trees and even 
hid in trash cans to escape their abusers. The shelter was able to 
reopen months later after securing funding from a tribal non-profit, 
and months after that, it received its first federal grant. \19\ The 
shelter temporarily closed again in 2012 after running out of its DOJ 
funding due to high fuel costs during an especially brutal winter. The 
shelter was able to reopen after obtaining $30,000 in private donations 
and a $50,000 emergency grant from the Bureau of Indian Affairs. Staff 
took pay cuts and rationed fuel in order to conserve the little funding 
they had. \20\
---------------------------------------------------------------------------
    \19\ Timothy Williams, In Remote Alaska, Financing Puts a Rare 
Refuge at Risk, N.Y. TIMES, May 23, 2012, at A3.
    \20\ Timothy Williams, With Grant, an Alaska Women's Shelter, N.Y. 
TIMES, July 6, 2012, at A15.
---------------------------------------------------------------------------
Sexual Assault Forensic Examiners and Sexual Assault Response Teams
    Access to services for sexual assault survivors is similarly 
limited. Approximately 34 percent of Native women are raped in their 
lifetime, and nearly half will experience sexual violence other than 
rape within their lifetime. \21\ When Native women are raped, they are 
more likely to experience other physical violence during the attack, 
their attacker is more likely to have a weapon, and they are more 
likely to have injuries requiring medical attention. \22\
---------------------------------------------------------------------------
    \21\ The National Intimate Partner and Sexual Violence Survey 
(NISVS): 2010 summary report, Atlanta, GA: National Center for Injury 
Prevention and Control, Centers for Disease Control and Prevention 
(2011).
    \22\ R. Bachman, et al, ``Violence Against American Indian and 
Alaska Native Women and the Criminal Justice Response: What is Known,'' 
(2008), p. 36, available at https://www.ncjrs.gov/pdffiles1/nij/grants/
223691.pdf.
---------------------------------------------------------------------------
    Sexual Assault Examiner (SAE) and Sexual Assault Response Team 
(SART) programs have been shown to improve both the care of survivors 
of sexual assault and criminal justice outcomes in sexual assault 
cases. \23\ SAEs and SARTs are instrumental in facilitating immediate 
access to appropriate health care and other services for victims and 
for minimizing re-victimization by the justice system. A 2014 study 
used GIS mapping to evaluate proximity of trained forensic examiners to 
650 census-identified Native American lands. The study found that more 
than two-thirds of Native American lands are more than 60 minutes away 
from the nearest sexual assault forensic examiner. \24\
---------------------------------------------------------------------------
    \23\ Jennifer Giroux, Ashley Juraska, Eric Wood & Lindsey Wood, 
Sexual Assault Services coverage on Native American Land, 10 Journal of 
Forensic Nursing, 92, 92 (2014).
    \24\ Id.
---------------------------------------------------------------------------
Conclusion
    We expect that disbursements from the CVF this year may well exceed 
$2.5 billion. Particularly at a time when funding is significantly 
increasing, it would be unconscionable to continue to ignore the needs 
of the most victimized population in the United States. Now is the time 
to make sure that crime victims in tribal communities have access to 
the crime victim assistance and compensation that they desperately 
need. Creating a dedicated tribal funding allocation from the CVF would 
provide a stable source of funding for Indian tribes to develop the 
victims services infrastructure that is taken for granted in much of 
the rest of the country. We look forward to continuing to work with the 
Committee to address this issue.
    Attachment
   The National Congress of American Indians--Resolution #ANC-14-048
TITLE: Support for a dedicated Tribal Set-Aside in the Victims of Crime 
        Act (VOCA) Fund
    WHEREAS, we, the members of the National Congress of American 
Indians of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the Indian 
people, to preserve Indian cultural values, and otherwise promote the 
health, safety and welfare of the Indian people, do hereby establish 
and submit the following resolution; and
    WHEREAS, the National Congress of American Indians (NCAI) was 
established in 1944 and is the oldest and largest national organization 
of American Indian and Alaska Native tribal governments; and
    WHEREAS, the Crime Victims Fund, administered by the Office for 
Victims of Crime (OVC) within DOJ's Office of Justice Programs (OJP), 
was initially established to address the need for victim services 
programs, and to assist tribal, state, and local governments in 
providing appropriate services to their communities; and
    WHEREAS, Congress passed the Victims of Crimes Act thirty years ago 
and did not include Indian tribes in the original distribution of 
funds; and
    WHEREAS, the Fund is financed by collections of fines, penalty 
assessments, and bond forfeitures from defendants convicted of Federal 
crimes, but until now, tribes have only been eligible to receive a very 
small portion of the discretionary funding from the Fund; and
    WHEREAS, in FY 2000, Congress began limiting the amount of Fund 
deposits that could be obligated each year. This was to provide a 
stable level of funding available for these programs in future years 
despite annual fluctuations in Fund deposits; and
    WHEREAS, in $2.8 billion and as a result the Fund now holds 
balances in excess of $10 billion enough under the current spending cap 
to last 12 years; and
    WHEREAS, OVC and OJP officials have recognized the great need to 
strengthen victims services on tribal lands and, thus, are proposing 
this new set-aside to help meet that need; and
    WHEREAS, the new tribal funding is requested as part of OVC's 
Vision 21 Initiative, a strategic planning initiative based on an 18-
month national assessment by OJP that systematically engaged the crime 
victim advocacy field and other stakeholder groups in assessing current 
and emerging challenges and opportunities facing the field; and
    WHEREAS, Indian nations and tribal service providers require 
essential resources to respond to violence perpetrated against American 
Indian and Alaska Native women, as well as to provide services to women 
victims seeking assistance.
    NOW THEREFORE BE IT RESOLVED, that the NCAI does hereby support the 
increase in the amount of money released from the Crime Victim's Fund 
to include a dedicated funding stream for Indian tribes to meet the 
dire needs of tribal victims; and
    BE IT FURTHER RESOLVED, that the NCAI does hereby support the 
creation of an ``above the cap'' reserve in the Victims of Crime Act 
(VOCA), or alternatively, a 10 percent VOCA tribal set-aside, that 
would fund tribes and tribal government programs and non-profit, non-
governmental tribal organizations, located within the jurisdictional 
boundaries of an Indian reservation, Alaska Native Villages, and Indian 
areas that provide services to Native women victimized by domestic and/
or sexual violence; and
    BE IT FINALLY RESOLVED, that this resolution shall be the policy of 
NCAI until it is withdrawn or modified by subsequent resolution.
CERTIFICATION
    The foregoing resolution was adopted by the General Assembly at the 
2014 Mid-Year Session of the National Congress of American Indians, 
held at the Dena'ina Civic & Convention Center, June 8-11, 2014 in 
Anchorage, Alaska, with a quorum present.
                                 ______
                                 
 Prepared Statement of Hon. Casimero Aceveda Jr. President, Organized 
                            Village of Kake
    Dear Chairman Barrasso,
    Thank you for the opportunity to provide written comments regarding 
the Oversight Hearing on ``Addressing the Needs for Victim Services in 
Indian Country'' held on June 10, 2015. The Organized Village of Kake 
respectfully requests that 42 U.S.C. 10602 (b) be amended to include, 
``Federally recognized Indian tribes'' as eligible for the Victim 
Crimes Compensation fund. It is further our request that a minimum of 
10 percent of authorized funds be Congressionally appropriated to 
American Indian and Alaska Native Tribal governments for the reasons 
described below.
A Change to VOCA is needed to Support Local Tribal Responses to High 
        Crime Rates on Tribal Lands as Recommended by the Indian Law & 
        Order Commission Report, ``A Roadmap for Making Native America 
        Safer''
    American Indian and Alaska Natives experience the highest crime 
victimization rates in the country.

  <bullet> American Indian and Alaska Natives are 2.5 times more likely 
        to experience violent crime than other Americans.

  <bullet> Approximately 34 percent of American Indian and Alaska 
        Native women are raped and 61 percent are assaulted in their 
        lifetime. One some reservations, the murder rate is 10 times 
        the national average.

  <bullet> Due to exposure to violence, Native children experience 
        rates of post-traumatic stress disorder at the same levels as 
        Iraq and Afghanistan war veterans.

    Despite these devastating rates of victimization in tribal 
communities, Indian tribes have largely been left out of the Crime 
Victims Fund (CVF), which is the federal government's principle means 
of providing resources for crime victims.
    It is beyond debate that Alaska Native women are suffering extreme 
rates of domestic violence and sexual assault--rates that are 
disproportionately higher than that suffered by other women in the 
state and across the nation. There is much work that needs to be done 
immediately to combat this crisis, to protect Alaska Native women from 
violence, to increase and strengthen local life-saving services and 
justice to Native women survivors of this violence. Providing essential 
accessible resources to Indian Tribes that reach the villages in Alaska 
will account for successful and fair administration of crime victim 
funding. It is also crucial for the equitable distribution of life-
saving resources to Alaska tribal governments.
    Unlike state and territorial governments, who receive an annual 
formula distribution from the CVF, Indian tribes are only able to 
access CVF funds via pass-through grants from the states or by 
competing for very limited resources administered by the U.S. 
Department of Justice. According to data from the Office for Victims of 
Crime, in 2014, the states passed through $872,197.00--0.2 percent of 
available funds--to programs serving tribal victims. Of the 566 
federally recognized tribes in the country, fewer than 20 received pass 
through grants from their respective state.
    The competitive grants from USDOJ have been equally problematic. 
Fewer than ten tribes receive these grants each year for a three-year 
term, with no guarantee that this funding will be renewed. 
Unfortunately, without additional action by Congress, Indian tribal 
governments will continue to have no direct access to critical CVF 
funds.
Appropriate Funding is needed to provide adequate Native Village-based 
        Services
    The villages in Alaska experience high victimization rates, 
geographic remoteness, high poverty and cost of living, and an 
underdeveloped Alaska Native village-based victim services 
infrastructure that is the result of the historic exclusion of tribes 
from the CVF programs. While we know need is high, it is difficult to 
calculate the precise amount needed to fully meet the needs of victims 
in Alaska Native villages. Below are some examples of funding needs for 
tribal victim services and how CVF funds could be spent.
Tribal Domestic Violence and Sexual Assault Services
    Native American women are assaulted at rates two and a half times 
the national average. Alaska Native women are disproportionately 
victimized at the highest rates across the country. According to the 
Indian Law and Order Commission report, A Roadmap for Making Native 
America Safe, Chapter 2, Reforming Justice for Alaska Natives: The Time 
Is Now, Alaska Native women are ``over-represented in the domestic 
violence victim population by 250 percent; they comprise 19 percent of 
the population, but 47 percent of reported rape victims.''
    While some tribes provide services for domestic violence and sexual 
assault victims, resources for doing so are woefully inadequate. NEED: 
For FY 2014, the USDOJ's Office on Violence Against Women received 
applications from tribal governments requesting approximately $55.6 
million for domestic violence and sexual assault services in its two 
primary tribal grant programs. OVW provided $33.26 million, suggesting 
an unmet need of at least $22 million.
Tribal Domestic Violence Shelters
    There are currently fewer than 40 tribal domestic violence shelters 
in operation. In the State of Alaska, there is only one Native village-
based Native women's shelter located in the entire state--the Emmonak 
Women's Shelter, which has been operating since 1979 and has been 
woefully underfunded. More often than not, the Emmonak Women's Shelter 
has not received federal or state funding and remained operational with 
volunteer assistance and donations. Those programs that do exist 
reported an unmet need of over 60,000 shelter bed nights in 2013. NEED: 
Building a shelter program in an additional 50 villages and tribal 
communities at a cost of $300,000/year would cost $15 million.
Sexual Assault Forensic Examiners
    The rate of sexual violence in Indian Country, including all of 
Alaska's tribes far exceeds rates of sexual violence in other 
communities in the United States. More than two-thirds of tribal lands, 
however, are more than 60 minutes away from the nearest sexual assault 
forensic examiner. With over 229 Indian tribes represented in Alaska, 
the vast majority of villages are located in the remote parts of Alaska 
where there are no roads; access is by boat, snow machine or airplane 
depending on climatic conditions. For Native women in Alaska, forensic 
exams typically are only located in hub regions, which means she must 
travel by plane to a major hub that may be over 200 air miles away. 
NEED: To fund one trained examiner in half of the 566 tribal 
communities at $50,000 for salary and benefits would cost $14 million.
Services for Sex Trafficking Victims
    Sex trafficking victims need specially designed services, including 
victim advocates to connect sexually exploited youth throughout the 
state with culturally appropriate support and services they need; 
shelters and housing; and training for criminal justice and child 
protective services professionals who come into contact with such 
victims.
    According to the State of Alaska Task Force on the Crimes of Human 
Trafficking, Promoting Prostitution and Sex Trafficking 2013 report, 
there is ``a lot of gaps in information due to the underground nature 
of the crime and the tendency of trafficking victims not to self-
report.'' Although lacking in data, the Task Force acknowledges that 
``trafficking have occurred (and likely are occurring) in Alaska, which 
is why the State of Alaska has gone to great lengths to create a task 
force to look at the prevalence of the crimes of human trafficking and 
sex trafficking in Alaska; the former Governor introduced an omnibus 
bill addressing trafficking (which strengthened penalties for 
trafficking); and in 2012 the Alaska legislature amended its sex and 
human trafficking statutes. NEED: To fund one trafficking advocate 
expert in half of the 566 tribal communities at $50,000 for salary and 
benefits would cost $14 million.
Services for the Survivors of Homicide Victims
    Services for the surviving spouses, children, and other affected 
family members and partners of the victims of homicides are rarely 
funded but sorely needed. Between 2004-2007, Alaska Natives were 2.5 
times as likely to die by homicide than Alaskans who reported ``White'' 
as their race, and 2.9 times as likely to die by homicide than all 
Whites in the United States.
    Much needed services include criminal justice advocacy, assistance 
in applying for victim compensation, funding to travel to trials that 
are out of state, legal assistance, financial counseling if the 
murdered victim was the sole provider, mental health counseling or 
other therapy, and similar services. NEED: Iowa is the rare state that 
has committed to supporting regional services for survivors of homicide 
and other violent crimes. In FY 2014, the state used $393,441 in 
federal grant funds to support 4 regional programs for survivors of 
homicide and other violent crimes. Creating 25 such programs for tribal 
victims would cost approximately $2.5 million.
There is Wide Support for a Creation of a Tribal Funding Stream from 
        the CVF
    Last year, NCAI, the largest national organization of American 
Indian and Alaska Native tribal governments, adopted Resolution ANC-14-
048 urging Congress to establish a 10 percent allocation from CVF 
disbursements for tribes.
    Recognizing the disproportionate need for victim services in tribal 
communities, the Office for Victims of Crime's Vision 21 report also 
called for increasing resources to tribal communities in order to 
``ensure that victims in Indian Country are no longer a footnote to 
this country's response to crime victims.''
    The USDOJ's report on American Indian and Alaska Native Children 
Exposed to Violence similarly called for a 10 percent tribal allocation 
from the CVF in its 2014 report. A 10 percent tribal allocation from 
the CVF has also been supported by the National Task Force to End 
Sexual and Domestic Violence, a coalition of more than a thousand 
organizations that advocate on behalf of victims of domestic violence, 
dating violence, sexual assault and stalking.
Conclusion
    No dedicated tribal funding stream currently exists under the VOCA 
for Indian tribes to administer programs to compensate and provide 
assistance to tribal victims of crime. This lack of funding to Indian 
tribes is unacceptable given the extremely high rates of violence 
including the severity of violence committed against tribal victims of 
crime. The USDOJ statistics document the well-known fact that violence 
against Indian women is more than double that of any other population 
of women; yet local services are lacking or do not exist in many tribal 
communities and Alaska Native villages. While states and territories 
receive an annual formula amount from the VOCA fund, the reality is 
that Indian tribes do not receive such an allocation and this must be 
remedied immediately. We urge an amendment to VOCA to direct 10 percent 
of the annual disbursement from the Crime Victims Fund to tribal 
governments. Thank you for this opportunity and for your leadership.
                                 ______
                                 
   Prepared Statement of Hon. Carl Jerue, Chief, Anvik Tribal Council
    Dear Chairman Barrasso,
    Thank you for the opportunity to provide written comments regarding 
the Oversight Hearing on ``Addressing the Needs for Victim Services in 
Indian Country'' held on June 10, 2015. The Village of Anvik 
respectfully requests that 42 U.S.C. 10602 (b) be amended to include, 
``Federally recognized Indian tribes'' as eligible for the Victim 
Crimes Compensation fund. It is further our request that a minimum of 
10 percent of authorized funds be Congressionally appropriated to 
American Indian and Alaska Native Tribal governments for the reasons 
described below.
A Change to VOCA is needed to Support Local Tribal Responses to High 
        Crime Rates on Tribal Lands as Recommended by the Indian Law & 
        Order Commission Report, ``A Roadmap for Making Native America 
        Safer''
    American Indian and Alaska Natives experience the highest crime 
victimization rates in the country.

  <bullet> American Indian and Alaska Natives are 2.5 times more likely 
        to experience violent crime than other Americans.

  <bullet> Approximately 34 percent of American Indian and Alaska 
        Native women are raped and 61 percent are assaulted in their 
        lifetime. One some reservations, the murder rate is 10 times 
        the national average.

  <bullet> Due to exposure to violence, Native children experience 
        rates of post-traumatic stress disorder at the same levels as 
        Iraq and Afghanistan war veterans.

    Despite these devastating rates of victimization in tribal 
communities, Indian tribes have largely been left out of the Crime 
Victims Fund (CVF), which is the federal government's principle means 
of providing resources for crime victims.
    It is beyond debate that Alaska Native women are suffering extreme 
rates of domestic violence and sexual assault--rates that are 
disproportionately higher than that suffered by other women in the 
state and across the nation. There is much work that needs to be done 
immediately to combat this crisis, to protect Alaska Native women from 
violence, to increase and strengthen local life-saving services and 
justice to Native women survivors of this violence. Providing essential 
accessible resources to Indian Tribes that reach the villages in Alaska 
will account for successful and fair administration of crime victim 
funding. It is also crucial for the equitable distribution of life-
saving resources to Alaska tribal governments.
    Unlike state and territorial governments, who receive an annual 
formula distribution from the CVF, Indian tribes are only able to 
access CVF funds via pass-through grants from the states or by 
competing for very limited resources administered by the U.S. 
Department of Justice. According to data from the Office for Victims of 
Crime, in 2014, the states passed through $872,197.00--0.2 percent of 
available funds--to programs serving tribal victims. Of the 566 
federally recognized tribes in the country, fewer than 20 received pass 
through grants from their respective state.
    The competitive grants from USDOJ have been equally problematic. 
Fewer than ten tribes receive these grants each year for a three-year 
term, with no guarantee that this funding will be renewed. 
Unfortunately, without additional action by Congress, Indian tribal 
governments will continue to have no direct access to critical CVF 
funds.
Appropriate Funding is needed to provide adequate Native Village-based 
        Services
    The villages in Alaska experience high victimization rates, 
geographic remoteness, high poverty and cost of living, and an 
underdeveloped Alaska Native village-based victim services 
infrastructure that is the result of the historic exclusion of tribes 
from the CVF programs. While we know need is high, it is difficult to 
calculate the precise amount needed to fully meet the needs of victims 
in Alaska Native villages. Below are some examples of funding needs for 
tribal victim services and how CVF funds could be spent.
Tribal Domestic Violence and Sexual Assault Services
    Native American women are assaulted at rates two and a half times 
the national average. Alaska Native women are disproportionately 
victimized at the highest rates across the country. According to the 
Indian Law and Order Commission report, A Roadmap for Making Native 
America Safe, Chapter 2, Reforming Justice for Alaska Natives: The Time 
Is Now, Alaska Native women are ``over-represented in the domestic 
violence victim population by 250 percent; they comprise 19 percent of 
the population, but 47 percent of reported rape victims.''
    While some tribes provide services for domestic violence and sexual 
assault victims, resources for doing so are woefully inadequate. NEED: 
For FY 2014, the USDOJ's Office on Violence Against Women received 
applications from tribal governments requesting approximately $55.6 
million for domestic violence and sexual assault services in its two 
primary tribal grant programs. OVW provided $33.26 million, suggesting 
an unmet need of at least $22 million.
Tribal Domestic Violence Shelters
    There are currently fewer than 40 tribal domestic violence shelters 
in operation. In the State of Alaska, there is only one Native village-
based Native women's shelter located in the entire state--the Emmonak 
Women's Shelter, which has been operating since 1979 and has been 
woefully underfunded. More often than not, the Emmonak Women's Shelter 
has not received federal or state funding and remained operational with 
volunteer assistance and donations. Those programs that do exist 
reported an unmet need of over 60,000 shelter bed nights in 2013. NEED: 
Building a shelter program in an additional 50 villages and tribal 
communities at a cost of $300,000/year would cost $15 million.
Sexual Assault Forensic Examiners
    The rate of sexual violence in Indian Country, including all of 
Alaska's tribes far exceeds rates of sexual violence in other 
communities in the United States. More than two-thirds of tribal lands, 
however, are more than 60 minutes away from the nearest sexual assault 
forensic examiner. With over 229 Indian tribes represented in Alaska, 
the vast majority of villages are located in the remote parts of Alaska 
where there are no roads; access is by boat, snow machine or airplane 
depending on climatic conditions. For Native women in Alaska, forensic 
exams typically are only located in hub regions, which means she must 
travel by plane to a major hub that may be over 200 air miles away. 
NEED: To fund one trained examiner in half of the 566 tribal 
communities at $50,000 for salary and benefits would cost $14 million.
Services for Sex Trafficking Victims
    Sex trafficking victims need specially designed services, including 
victim advocates to connect sexually exploited youth throughout the 
state with culturally appropriate support and services they need; 
shelters and housing; and training for criminal justice and child 
protective services professionals who come into contact with such 
victims.
    According to the State of Alaska Task Force on the Crimes of Human 
Trafficking, Promoting Prostitution and Sex Trafficking 2013 report, 
there is ``a lot of gaps in information due to the underground nature 
of the crime and the tendency of trafficking victims not to self-
report.'' Although lacking in data, the Task Force acknowledges that 
``trafficking have occurred (and likely are occurring) in Alaska, which 
is why the State of Alaska has gone to great lengths to create a task 
force to look at the prevalence of the crimes of human trafficking and 
sex trafficking in Alaska; the former Governor introduced an omnibus 
bill addressing trafficking (which strengthened penalties for 
trafficking); and in 2012 the Alaska legislature amended its sex and 
human trafficking statutes. NEED: To fund one trafficking advocate 
expert in half of the 566 tribal communities at $50,000 for salary and 
benefits would cost $14 million.
Services for the Survivors of Homicide Victims
    Services for the surviving spouses, children, and other affected 
family members and partners of the victims of homicides are rarely 
funded but sorely needed. Between 2004-2007, Alaska Natives were 2.5 
times as likely to die by homicide than Alaskans who reported ``White'' 
as their race, and 2.9 times as likely to die by homicide than all 
Whites in the United States.
    Much needed services include criminal justice advocacy, assistance 
in applying for victim compensation, funding to travel to trials that 
are out of state, legal assistance, financial counseling if the 
murdered victim was the sole provider, mental health counseling or 
other therapy, and similar services. NEED: Iowa is the rare state that 
has committed to supporting regional services for survivors of homicide 
and other violent crimes. In FY 2014, the state used $393,441 in 
federal grant funds to support 4 regional programs for survivors of 
homicide and other violent crimes. Creating 25 such programs for tribal 
victims would cost approximately $2.5 million.
There is Wide Support for a Creation of a Tribal Funding Stream from 
        the CVF
    Last year, NCAI, the largest national organization of American 
Indian and Alaska Native tribal governments, adopted Resolution ANC-14-
048 urging Congress to establish a 10 percent allocation from CVF 
disbursements for tribes.
    Recognizing the disproportionate need for victim services in tribal 
communities, the Office for Victims of Crime's Vision 21 report also 
called for increasing resources to tribal communities in order to 
``ensure that victims in Indian Country are no longer a footnote to 
this country's response to crime victims.''
    The USDOJ's report on American Indian and Alaska Native Children 
Exposed to Violence similarly called for a 10 percent tribal allocation 
from the CVF in its 2014 report. A 10 percent tribal allocation from 
the CVF has also been supported by the National Task Force to End 
Sexual and Domestic Violence, a coalition of more than a thousand 
organizations that advocate on behalf of victims of domestic violence, 
dating violence, sexual assault and stalking.
Conclusion
    No dedicated tribal funding stream currently exists under the VOCA 
for Indian tribes to administer programs to compensate and provide 
assistance to tribal victims of crime. This lack of funding to Indian 
tribes is unacceptable given the extremely high rates of violence 
including the severity of violence committed against tribal victims of 
crime. The USDOJ statistics document the well-known fact that violence 
against Indian women is more than double that of any other population 
of women; yet local services are lacking or do not exist in many tribal 
communities and Alaska Native villages. While states and territories 
receive an annual formula amount from the VOCA fund, the reality is 
that Indian tribes do not receive such an allocation and this must be 
remedied immediately. We urge an amendment to VOCA to direct 10 percent 
of the annual disbursement from the Crime Victims Fund to tribal 
governments. Thank you for this opportunity and for your leadership.
                                 ______
                                 
  Prepared Statement of Darlene M. Pete, Tribal Administrator, Native 
                         Village of Nunam Iqua
    Dear Chairman Barrasso,
    Thank you for the opportunity to provide written comments regarding 
the Oversight Hearing on ``Addressing the Needs for Victim Services in 
Indian Country'' held on June 10, 2015. The Native Village of Nunam 
Iqua respectfully requests that 42 U.S.C. 10602 (b) be amended to 
include, ``Federally recognized Indian tribes'' as eligible for the 
Victim Crimes Compensation fund. It is further our request that a 
minimum of 10 percent of authorized funds be Congressionally 
appropriated to American Indian and Alaska Native Tribal governments 
for the reasons described below.
A Change to VOCA is needed to Support Local Tribal Responses to High 
        Crime Rates on Tribal Lands as Recommended by the Indian Law & 
        Order Commission Report, ``A Roadmap for Making Native America 
        Safer''
    American Indian and Alaska Natives experience the highest crime 
victimization rates in the country.

  <bullet> American Indian and Alaska Natives are 2.5 times more likely 
        to experience violent crime than other Americans.

  <bullet> Approximately 34 percent of American Indian and Alaska 
        Native women are raped and 61 percent are assaulted in their 
        lifetime. One some reservations, the murder rate is 10 times 
        the national average.

  <bullet> Due to exposure to violence, Native children experience 
        rates of post-traumatic stress disorder at the same levels as 
        Iraq and Afghanistan war veterans.

    Despite these devastating rates of victimization in tribal 
communities, Indian tribes have largely been left out of the Crime 
Victims Fund (CVF), which is the federal government's principle means 
of providing resources for crime victims.
    It is beyond debate that Alaska Native women are suffering extreme 
rates of domestic violence and sexual assault--rates that are 
disproportionately higher than that suffered by other women in the 
state and across the nation. There is much work that needs to be done 
immediately to combat this crisis, to protect Alaska Native women from 
violence, to increase and strengthen local life-saving services and 
justice to Native women survivors of this violence. Providing essential 
accessible resources to Indian Tribes that reach the villages in Alaska 
will account for successful and fair administration of crime victim 
funding. It is also crucial for the equitable distribution of life-
saving resources to Alaska tribal governments.
    Unlike state and territorial governments, who receive an annual 
formula distribution from the CVF, Indian tribes are only able to 
access CVF funds via pass-through grants from the states or by 
competing for very limited resources administered by the U.S. 
Department of Justice. According to data from the Office for Victims of 
Crime, in 2014, the states passed through $872,197.00--0.2 percent of 
available funds--to programs serving tribal victims. Of the 566 
federally recognized tribes in the country, fewer than 20 received pass 
through grants from their respective state.
    The competitive grants from USDOJ have been equally problematic. 
Fewer than ten tribes receive these grants each year for a three-year 
term, with no guarantee that this funding will be renewed. 
Unfortunately, without additional action by Congress, Indian tribal 
governments will continue to have no direct access to critical CVF 
funds.
Appropriate Funding is needed to provide adequate Native Village-based 
        Services
    The villages in Alaska experience high victimization rates, 
geographic remoteness, high poverty and cost of living, and an 
underdeveloped Alaska Native village-based victim services 
infrastructure that is the result of the historic exclusion of tribes 
from the CVF programs. While we know need is high, it is difficult to 
calculate the precise amount needed to fully meet the needs of victims 
in Alaska Native villages. Below are some examples of funding needs for 
tribal victim services and how CVF funds could be spent.
Tribal Domestic Violence and Sexual Assault Services
    Native American women are assaulted at rates two and a half times 
the national average. Alaska Native women are disproportionately 
victimized at the highest rates across the country. According to the 
Indian Law and Order Commission report, A Roadmap for Making Native 
America Safe, Chapter 2, Reforming Justice for Alaska Natives: The Time 
Is Now, Alaska Native women are ``over-represented in the domestic 
violence victim population by 250 percent; they comprise 19 percent of 
the population, but 47 percent of reported rape victims.''
    While some tribes provide services for domestic violence and sexual 
assault victims, resources for doing so are woefully inadequate. NEED: 
For FY 2014, the USDOJ's Office on Violence Against Women received 
applications from tribal governments requesting approximately $55.6 
million for domestic violence and sexual assault services in its two 
primary tribal grant programs. OVW provided $33.26 million, suggesting 
an unmet need of at least $22 million.
Tribal Domestic Violence Shelters
    There are currently fewer than 40 tribal domestic violence shelters 
in operation. In the State of Alaska, there is only one Native village-
based Native women's shelter located in the entire state--the Emmonak 
Women's Shelter, which has been operating since 1979 and has been 
woefully underfunded. More often than not, the Emmonak Women's Shelter 
has not received federal or state funding and remained operational with 
volunteer assistance and donations. Those programs that do exist 
reported an unmet need of over 60,000 shelter bed nights in 2013. NEED: 
Building a shelter program in an additional 50 villages and tribal 
communities at a cost of $300,000/year would cost $15 million.
Sexual Assault Forensic Examiners
    The rate of sexual violence in Indian Country, including all of 
Alaska's tribes far exceeds rates of sexual violence in other 
communities in the United States. More than two-thirds of tribal lands, 
however, are more than 60 minutes away from the nearest sexual assault 
forensic examiner. With over 229 Indian tribes represented in Alaska, 
the vast majority of villages are located in the remote parts of Alaska 
where there are no roads; access is by boat, snow machine or airplane 
depending on climatic conditions. For Native women in Alaska, forensic 
exams typically are only located in hub regions, which means she must 
travel by plane to a major hub that may be over 200 air miles away. 
NEED: To fund one trained examiner in half of the 566 tribal 
communities at $50,000 for salary and benefits would cost $14 million.
Services for Sex Trafficking Victims
    Sex trafficking victims need specially designed services, including 
victim advocates to connect sexually exploited youth throughout the 
state with culturally appropriate support and services they need; 
shelters and housing; and training for criminal justice and child 
protective services professionals who come into contact with such 
victims.
    According to the State of Alaska Task Force on the Crimes of Human 
Trafficking, Promoting Prostitution and Sex Trafficking 2013 report, 
there is ``a lot of gaps in information due to the underground nature 
of the crime and the tendency of trafficking victims not to self-
report.'' Although lacking in data, the Task Force acknowledges that 
``trafficking have occurred (and likely are occurring) in Alaska, which 
is why the State of Alaska has gone to great lengths to create a task 
force to look at the prevalence of the crimes of human trafficking and 
sex trafficking in Alaska; the former Governor introduced an omnibus 
bill addressing trafficking (which strengthened penalties for 
trafficking); and in 2012 the Alaska legislature amended its sex and 
human trafficking statutes. NEED: To fund one trafficking advocate 
expert in half of the 566 tribal communities at $50,000 for salary and 
benefits would cost $14 million.
Services for the Survivors of Homicide Victims
    Services for the surviving spouses, children, and other affected 
family members and partners of the victims of homicides are rarely 
funded but sorely needed. Between 2004-2007, Alaska Natives were 2.5 
times as likely to die by homicide than Alaskans who reported ``White'' 
as their race, and 2.9 times as likely to die by homicide than all 
Whites in the United States.
    Much needed services include criminal justice advocacy, assistance 
in applying for victim compensation, funding to travel to trials that 
are out of state, legal assistance, financial counseling if the 
murdered victim was the sole provider, mental health counseling or 
other therapy, and similar services. NEED: Iowa is the rare state that 
has committed to supporting regional services for survivors of homicide 
and other violent crimes. In FY 2014, the state used $393,441 in 
federal grant funds to support 4 regional programs for survivors of 
homicide and other violent crimes. Creating 25 such programs for tribal 
victims would cost approximately $2.5 million.
There is Wide Support for a Creation of a Tribal Funding Stream from 
        the CVF
    Last year, NCAI, the largest national organization of American 
Indian and Alaska Native tribal governments, adopted Resolution ANC-14-
048 urging Congress to establish a 10 percent allocation from CVF 
disbursements for tribes.
    Recognizing the disproportionate need for victim services in tribal 
communities, the Office for Victims of Crime's Vision 21 report also 
called for increasing resources to tribal communities in order to 
``ensure that victims in Indian Country are no longer a footnote to 
this country's response to crime victims.''
    The USDOJ's report on American Indian and Alaska Native Children 
Exposed to Violence similarly called for a 10 percent tribal allocation 
from the CVF in its 2014 report. A 10 percent tribal allocation from 
the CVF has also been supported by the National Task Force to End 
Sexual and Domestic Violence, a coalition of more than a thousand 
organizations that advocate on behalf of victims of domestic violence, 
dating violence, sexual assault and stalking.
Conclusion
    No dedicated tribal funding stream currently exists under the VOCA 
for Indian tribes to administer programs to compensate and provide 
assistance to tribal victims of crime. This lack of funding to Indian 
tribes is unacceptable given the extremely high rates of violence 
including the severity of violence committed against tribal victims of 
crime. The USDOJ statistics document the well-known fact that violence 
against Indian women is more than double that of any other population 
of women; yet local services are lacking or do not exist in many tribal 
communities and Alaska Native villages. While states and territories 
receive an annual formula amount from the VOCA fund, the reality is 
that Indian tribes do not receive such an allocation and this must be 
remedied immediately. We urge an amendment to VOCA to direct 10 percent 
of the annual disbursement from the Crime Victims Fund to tribal 
governments. Thank you for this opportunity and for your leadership.
                                 ______
                                 
 Prepared Statement of Hon. Melvin R. Sheldon, Jr., Chairman, Tulalip 
                          Tribes of Washington

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
 Prepared Statement of Hon. Ivan M. Ivan, Chief, Akiak Native Community
    Dear Chairman Barrasso,
    Thank you for the opportunity to provide written comments regarding 
the Oversight Hearing on ``Addressing the Needs for Victim Services in 
Indian Country'' held on June 10, 2015. The Akiak IRA Council 
respectfully requests that 42 U.S.C. 10602 (b) be amended to include, 
``Federally recognized Indian tribes'' as eligible for the Victim 
Crimes Compensation fund. It is further our request that a minimum of 
10 percent of authorized funds be Congressionally appropriated to 
American Indian and Alaska Native Tribal governments for the reasons 
described below.
A Change to VOCA is needed to Support Local Tribal Responses to High 
        Crime Rates on Tribal Lands as Recommended by the Indian Law & 
        Order Commission Report, ``A Roadmap for Making Native America 
        Safer''
    American Indian and Alaska Natives experience the highest crime 
victimization rates in the country.

  <bullet> American Indian and Alaska Natives are 2.5 times more likely 
        to experience violent crime than other Americans.

  <bullet> Approximately 34 percent of American Indian and Alaska 
        Native women are raped and 61 percent are assaulted in their 
        lifetime. One some reservations, the murder rate is 10 times 
        the national average.

  <bullet> Due to exposure to violence, Native children experience 
        rates of post-traumatic stress disorder at the same levels as 
        Iraq and Afghanistan war veterans.

    Despite these devastating rates of victimization in tribal 
communities, Indian tribes have largely been left out of the Crime 
Victims Fund (CVF), which is the federal government's principle means 
of providing resources for crime victims.
    It is beyond debate that Alaska Native women are suffering extreme 
rates of domestic violence and sexual assault--rates that are 
disproportionately higher than that suffered by other women in the 
state and across the nation. There is much work that needs to be done 
immediately to combat this crisis, to protect Alaska Native women from 
violence, to increase and strengthen local life-saving services and 
justice to Native women survivors of this violence. Providing essential 
accessible resources to Indian Tribes that reach the villages in Alaska 
will account for successful and fair administration of crime victim 
funding. It is also crucial for the equitable distribution of life-
saving resources to Alaska tribal governments.
    Unlike state and territorial governments, who receive an annual 
formula distribution from the CVF, Indian tribes are only able to 
access CVF funds via pass-through grants from the states or by 
competing for very limited resources administered by the U.S. 
Department of Justice. According to data from the Office for Victims of 
Crime, in 2014, the states passed through $872,197.00--0.2 percent of 
available funds--to programs serving tribal victims. Of the 566 
federally recognized tribes in the country, fewer than 20 received pass 
through grants from their respective state.
    The competitive grants from USDOJ have been equally problematic. 
Fewer than ten tribes receive these grants each year for a three-year 
term, with no guarantee that this funding will be renewed. 
Unfortunately, without additional action by Congress, Indian tribal 
governments will continue to have no direct access to critical CVF 
funds.
Appropriate Funding is needed to provide adequate Native Village-based 
        Services
    The villages in Alaska experience high victimization rates, 
geographic remoteness, high poverty and cost of living, and an 
underdeveloped Alaska Native village-based victim services 
infrastructure that is the result of the historic exclusion of tribes 
from the CVF programs. While we know need is high, it is difficult to 
calculate the precise amount needed to fully meet the needs of victims 
in Alaska Native villages. Below are some examples of funding needs for 
tribal victim services and how CVF funds could be spent.
Tribal Domestic Violence and Sexual Assault Services
    Native American women are assaulted at rates two and a half times 
the national average. Alaska Native women are disproportionately 
victimized at the highest rates across the country. According to the 
Indian Law and Order Commission report, A Roadmap for Making Native 
America Safe, Chapter 2, Reforming Justice for Alaska Natives: The Time 
Is Now, Alaska Native women are ``over-represented in the domestic 
violence victim population by 250 percent; they comprise 19 percent of 
the population, but 47 percent of reported rape victims.''
    While some tribes provide services for domestic violence and sexual 
assault victims, resources for doing so are woefully inadequate. NEED: 
For FY 2014, the USDOJ's Office on Violence Against Women received 
applications from tribal governments requesting approximately $55.6 
million for domestic violence and sexual assault services in its two 
primary tribal grant programs. OVW provided $33.26 million, suggesting 
an unmet need of at least $22 million.
Tribal Domestic Violence Shelters
    There are currently fewer than 40 tribal domestic violence shelters 
in operation. In the State of Alaska, there is only one Native village-
based Native women's shelter located in the entire state--the Emmonak 
Women's Shelter, which has been operating since 1979 and has been 
woefully underfunded. More often than not, the Emmonak Women's Shelter 
has not received federal or state funding and remained operational with 
volunteer assistance and donations. Those programs that do exist 
reported an unmet need of over 60,000 shelter bed nights in 2013. NEED: 
Building a shelter program in an additional 50 villages and tribal 
communities at a cost of $300,000/year would cost $15 million.
Sexual Assault Forensic Examiners
    The rate of sexual violence in Indian Country, including all of 
Alaska's tribes far exceeds rates of sexual violence in other 
communities in the United States. More than two-thirds of tribal lands, 
however, are more than 60 minutes away from the nearest sexual assault 
forensic examiner. With over 229 Indian tribes represented in Alaska, 
the vast majority of villages are located in the remote parts of Alaska 
where there are no roads; access is by boat, snow machine or airplane 
depending on climatic conditions. For Native women in Alaska, forensic 
exams typically are only located in hub regions, which means she must 
travel by plane to a major hub that may be over 200 air miles away. 
NEED: To fund one trained examiner in half of the 566 tribal 
communities at $50,000 for salary and benefits would cost $14 million.
Services for Sex Trafficking Victims
    Sex trafficking victims need specially designed services, including 
victim advocates to connect sexually exploited youth throughout the 
state with culturally appropriate support and services they need; 
shelters and housing; and training for criminal justice and child 
protective services professionals who come into contact with such 
victims.
    According to the State of Alaska Task Force on the Crimes of Human 
Trafficking, Promoting Prostitution and Sex Trafficking 2013 report, 
there is ``a lot of gaps in information due to the underground nature 
of the crime and the tendency of trafficking victims not to self-
report.'' Although lacking in data, the Task Force acknowledges that 
``trafficking have occurred (and likely are occurring) in Alaska, which 
is why the State of Alaska has gone to great lengths to create a task 
force to look at the prevalence of the crimes of human trafficking and 
sex trafficking in Alaska; the former Governor introduced an omnibus 
bill addressing trafficking (which strengthened penalties for 
trafficking); and in 2012 the Alaska legislature amended its sex and 
human trafficking statutes. NEED: To fund one trafficking advocate 
expert in half of the 566 tribal communities at $50,000 for salary and 
benefits would cost $14 million.
Services for the Survivors of Homicide Victims
    Services for the surviving spouses, children, and other affected 
family members and partners of the victims of homicides are rarely 
funded but sorely needed. Between 2004-2007, Alaska Natives were 2.5 
times as likely to die by homicide than Alaskans who reported ``White'' 
as their race, and 2.9 times as likely to die by homicide than all 
Whites in the United States.
    Much needed services include criminal justice advocacy, assistance 
in applying for victim compensation, funding to travel to trials that 
are out of state, legal assistance, financial counseling if the 
murdered victim was the sole provider, mental health counseling or 
other therapy, and similar services. NEED: Iowa is the rare state that 
has committed to supporting regional services for survivors of homicide 
and other violent crimes. In FY 2014, the state used $393,441 in 
federal grant funds to support 4 regional programs for survivors of 
homicide and other violent crimes. Creating 25 such programs for tribal 
victims would cost approximately $2.5 million.
There is Wide Support for a Creation of a Tribal Funding Stream from 
        the CVF
    Last year, NCAI, the largest national organization of American 
Indian and Alaska Native tribal governments, adopted Resolution ANC-14-
048 urging Congress to establish a 10 percent allocation from CVF 
disbursements for tribes.
    Recognizing the disproportionate need for victim services in tribal 
communities, the Office for Victims of Crime's Vision 21 report also 
called for increasing resources to tribal communities in order to 
``ensure that victims in Indian Country are no longer a footnote to 
this country's response to crime victims.''
    The USDOJ's report on American Indian and Alaska Native Children 
Exposed to Violence similarly called for a 10 percent tribal allocation 
from the CVF in its 2014 report. A 10 percent tribal allocation from 
the CVF has also been supported by the National Task Force to End 
Sexual and Domestic Violence, a coalition of more than a thousand 
organizations that advocate on behalf of victims of domestic violence, 
dating violence, sexual assault and stalking.
Conclusion
    No dedicated tribal funding stream currently exists under the VOCA 
for Indian tribes to administer programs to compensate and provide 
assistance to tribal victims of crime. This lack of funding to Indian 
tribes is unacceptable given the extremely high rates of violence 
including the severity of violence committed against tribal victims of 
crime. The USDOJ statistics document the well-known fact that violence 
against Indian women is more than double that of any other population 
of women; yet local services are lacking or do not exist in many tribal 
communities and Alaska Native villages. While states and territories 
receive an annual formula amount from the VOCA fund, the reality is 
that Indian tribes do not receive such an allocation and this must be 
remedied immediately. We urge an amendment to VOCA to direct 10 percent 
of the annual disbursement from the Crime Victims Fund to tribal 
governments. Thank you for this opportunity and for your leadership.
                                 ______
                                 
   Joint prepared statement of Ruth Flower and Hannah Evans, Friends 
                   Committee on National Legislation
    Dear Senators:
    As advocates for our respective faith traditions and the values 
they uphold, one area of particular concern for us is our nation's 
relationship with Native Americans and their tribal governments. We 
write to you today to address two concerns about the release of funds 
collected through the Crime Victims Fund.
    As you know, the Crime Victims Fund (CVF) provides critical funding 
to states for services for survivors of sexual and domestic violence. 
Collections for this fund, which come from perpetrators of violent 
crimes, have accumulated impressively. According to the Department of 
Justice, this fund had a balance of more than $13 billion in FY 2013. 
While nearly $2.8 billion was collected in 2013, the fund only released 
about $700 million each year for the past several years. For FY 2015, 
Congress released $2.36 billion, for which we are deeply grateful.
    Our concern is that the CVF is not being utilized to its fullest 
potential. Many victims do not receive the services they need because 
Congress has not mandated that the Fund disperse what it collects on an 
annual basis. A more substantial, stable source of support would enable 
local service agencies to help more victims make their lives whole 
again.
    A second concern is in regard to access to these funds by Native 
American tribal governments. Native American women are particularly 
vulnerable to violence, with violent crimes occurring on reservations 
at about 2.5 times the national average, and murders of Native women at 
10 times the national average on some reservations. Yet tribal 
governments do not have direct access to the Crime Victims Fund as 
other governments do. Tribal governments must ask states to share their 
allocation from the Crime Victims Fund, or apply for a federal grant. 
Tribal governments need a consistent and reliable source of funds for 
programs that serve victims of violence on their reservation, and 
perhaps even more importantly, for programs that prevent and address 
the root causes of violence.
    Violence has a particularly devastating impact on youth. Since 
Native Americans are victimized by crime at disproportionately high 
rates, each generation of Native youth is permanently injured by 
violence, whether they are victim themselves, or they see the effects 
of violence in their families and in their community. The funds 
provided through Crime Victims Fund and related federal grant programs 
can help to interrupt this cycle and, as much as possible, make victims 
whole.
    To address these two problems, we urge you to enact legislation 
that would require the Department of Justice to annually disperse from 
the Crime Victims Fund an amount equal to the average of the past three 
years' deposits, so that all victims of crime can adequately access the 
support they deserve.
    Secondly we ask that Congress create a dedicated funding stream 
from the Crime Victims Fund for tribal governments so that this 
particularly impacted community has direct access to funding to provide 
continuity of care to victims of crime. Finally, we ask that if 
legislation is not passed to resolve these issues, appropriators set 
aside adequate and dedicated funding from the Crime Victims Fund for 
tribal governments.
    Congress can act to ensure than no rape crisis center needs to have 
a waiting list, no safe house needs to turn away a victim--leaving her 
vulnerable to her abuser. No counseling, support, and prevention center 
would need to minimize these important types of assistance, in favor of 
emergency interventions to stop the beatings. As people of faith 
committed to ensuring all victims of crime receive adequate, 
consistent, and reliable support, we urge you to enact these simple and 
just policy recommendations.

                         American Friends Service Committee
                                  Franciscan Action Network
          Jesuit Conference of Canada and the United States
          Network: A National Catholic Social Justice Lobby
         Office of Social Justice of the Christian Reformed
                                     Church Pax Christi USA
                               Presbyterian Church (U.S.A.)
   Sisters of Mercy of the Americas--Institute Justice Team
                                   Union for Reform Judaism
    United Church of Christ, Justice and Witness Ministries
United Methodist Church-General Board of Church and Society
                  Friends Committee on National Legislation
                                 ______
                                 
 Letter Submitted by Jerry Gardner, Executive Director, Tribal Law and 
                            Policy Institute
Honorable John Culberson, Chairman
U.S. House of Representatives

Honorable Chaka Fattah, Ranking Member
House Appropriations Committee

Subcommittee on Commerce, Justice, Science & Related Agencies,
Washington, D.C.
         RE: AVAILABILITY OF CRIME VICTIMS FUND FOR TRIBAL 
                                                GOVERNMENTS

    Dear Chairman Culberson and Ranking Member Fattah,

    On behalf of the Tribal Law and Policy Institute (TLPI) , a Native 
American owned and operated non-profit organized to promote the 
enhancement of justice in Indian country and the health, well-being, 
and culture of Native peoples. I am writing to ask for your help in 
addressing a long-standing inequity that leaves American Indian/Alaska 
Native victims of crime without access to the assistance and 
compensation that others receive. Specifically, we are requesting that 
Indian tribes be included as direct recipients of the annual 
distributions from the Crime Victims Fund (CVF).
    American Indian and Alaska Natives are 2.5 times more likely to 
experience violent crime than other Americans. Due to exposure to 
violence, Native children experience rates of post-traumatic stress 
disorder at the same levels as Iraq and Afghanistan war veterans. 
However, only a tiny fraction of CVF monies, the federal government's 
principle means of providing resources for crime victims, are made 
directly available to tribes.
    Currently, state and territorial governments receive an annual 
formal distribution from the CVF. Tribes are eligible to apply to a 
state for funding, but only 0.2 percent of available of funds 
($872,197) were actually distributed in 2014. Ofthe 566 federally 
recognized tribes in the country, fewer than 20 received a pass-through 
grant from a state.
    The competitive grants from the Department of Justice (DOJ) have 
been equally problematic. Fewer than ten tribes receive these grants 
each year for a three-year term, with no guarantee that funding will be 
renewed. Often when a grant ends, tribal programs must completely shut 
down. Given that much of Indian Country is geographically isolated, if 
tribal programs are not available, then victims have no access to help.
    Last year, the National Congress of American Indians (NCAI) adopted 
Resolution ANC-14-048 urging Congress to establish a 10 percent 
allocation from CVF disbursements for tribal governments.

        NOW THEREFORE BE IT RESOLVED, that the NCAI does hereby support 
        the increase in the amount of money released from the Crime 
        Victim's Fund to include a dedicated funding stream for Indian 
        tribes to meet the dire needs of tribal victims; and

        BE IT FURTHER RESOLVED, that the NCAI does hereby support the 
        creation of an ``above the cap'' reserve in the Victims of 
        Crime Act (VOCA), or alternatively, a 10 percent VOCA tribal 
        set-aside, that would fund tribes and tribal government 
        programs and non-profit, non-governmental tribal organizations, 
        located within the jurisdictional boundaries of an Indian 
        reservation, Alaska Native Villages, and Indian areas that 
        provide services to Native women victimized by domestic and/or 
        sexual violence. \1\
---------------------------------------------------------------------------
    \1\ National Congress of American Indians Resolution #ANC-14-048, 
``Support for a dedicated Tribal Set-Aside in the Victims of Crime Act 
(VOCA) Fund,'' (June 11, 2014), available at http://www.ncai.org/
attachments/
Resolution_setxfZPHiQTTzySUNFbXPGMQbWeImEpTlwnDJOrYdpnOLIJlyiU_ANC-14-
048.pdf

    Recognizing the disproportionate need for victim services in tribal 
communities, the Office for Victims of Crime's Vision 21 report also 
called for increasing resources to tribal communities in order to 
``ensure that victims in Indian Country are no longer a footnote to 
this country's response to crime victims.'' The Attorney General's Task 
Force on American Indian and Alaska Native Children Exposed to Violence 
similarly called for a 10 percent tribal allocation from the CVF in its 
---------------------------------------------------------------------------
2014 report.

        Recommendation 1.4.E Congress shall establish a much larger 
        commitment than currently exists to fund tribal programs 
        through the Department of Justice's Office of Justice Programs 
        (OJP) and the Victims of Crime Act (VOCA) funding. As an 
        initial step towards the much larger commitment needed, 
        Congress shall establish a minimum 10 percent tribal set-aside, 
        as per the Violence Against Women Act (VAWA) tribal set-aside, 
        from funding for all discretionary Office of Justice Program 
        (OJP) and Victims of Crime Act (VOCA) funding making clear that 
        the tribal set-aside is the minimum tribal funding and not in 
        any way a cap on tribal funding. President Obama's annual 
        budget request to Congress has included a 7 percent tribal set-
        aside for the last few years. This is a very positive step and 
        Congress should authorize this request immediately. However, 
        the set-aside should be increased to 10 percent in subsequent 
        appropriation bills. Until Congress act, the Department of 
        Justice (DOJ) shall establish this minimum 10 percent tribal 
        set-aside administratively. \2\
---------------------------------------------------------------------------
    \2\ ATTORNEY GENERAL'S ADVISORY COMMITTEE ON AMERICAN INDIAN AND 
ALASKA NATIVE CHILDREN EXPOSED TO VIOLENCE, U.S. DEP'T OF JUSTICE, 
REPORT OF THE ADVISORY COMMITTEE ON AMERICAN INDIAN AND ALASKA NATIVE 
CHILDREN EXPOSED TO VIOLENCE: ENDING VIOLENCE SO CHILDREN CAN THRIVE 
59, Recommendation 1.4.E (November 2014) [hereinafter ENDING VIOLENCE 
SO CHILDREN CAN THRIVE REPORT], full final report found at: http://
www.justice.gov/sites/default/files/defendingchildhood/pages/
attachments/2015/03/23/ending_violence_so_children_can_thrive.pdf

    A 10 percent tribal allocation has also been supported by the 
National Task Force to End Sexual and Domestic Violence, a coalition of 
more than a thousand organizations that advocate on behalf of victims 
of domestic violence, dating violence, sexual assault and stalking
    In recent years, annual distributions from the CVF have been about 
$700 million. Collections, however, reached as high as $2.8 billion in 
2013, leaving a balance in the fund of more than $12 billion. There has 
been significant pressure on Congress to make this money available for 
crime victims, and Congress significantly increased the distributions 
for FY 2015 to $2.3 billion. Despite this three-fold increase, none of 
the money was directed to Indian tribes. There is language in the FY 
2016 Budget Resolution that would remove any incentive for 
appropriators to return to the lower level of disbursement, and we 
expect that disbursements from the CVF this year may well exceed $2.5 
billion. With this significant increase in funding, now is the time to 
make sure that crime victims in tribal communities are no longer shut 
out of the crime victim assistance and compensation that they 
desperately need.
    We urge you to include language in the CJS appropriations bill that 
will direct a portion of the disbursements from the Crime Victims Fund 
to tribal governments. We greatly appreciate your leadership on this 
issue.

                                  [all]
</pre></body></html>
